CAPITAL CASE
No. 20-____

In the Supreme Court of the United States
STACEY EUGENE JOHNSON,
Petitioner,
v.
ARKANSAS,
Respondent.
On Petition for a Writ of Certiorari
to the Supreme Court of Arkansas
PETITION FOR A WRIT OF CERTIORARI
BARRY C. SCHECK
JANE PUCHER
Counsel of Record
bscheck@innocenceproject.org
jpucher@innocenceproject.org
THE INNOCENCE PROJECT
40 Worth St., Ste. 701
New York, NY 10013
646-277-8327

JON M. SANDS
Federal Public Defender
DALE A. BAICH
KENDRA N. LIVINGSTON
JENNIFER M. MORENO
dale_baich@fd.org
kendra_livingston@fd.org
jennifer_moreno@fd.org
850 West Adams Street
Phoenix, Arizona 85007
(602) 382-2816

i
CAPITAL CASE
QUESTION PRESENTED
Petitioner, Stacey Eugene Johnson, was
convicted and sentenced to death for the 1993 Sevier
County, Arkansas murder of Carol Heath. Petitioner
has always maintained his innocence of this crime.
Untested physical evidence collected from the crime
scene points to another man’s guilt. Arkansas law
provides a right to DNA testing pursuant to Act 1780
(codified at Ark. Code Ann. §§ 16-112-201, et seq.).
Petitioner sought DNA testing on certain probative
items of crime scene evidence under the provisions of
2001 Ark. Act 1780. Petitioner showed, as required by
that statute, that the results of DNA testing may
produce new material evidence that supports a theory
of actual innocence and raises a reasonable
probability that he did not commit the crime. Despite
satisfying this required showing, the Arkansas
Supreme Court, in a 5-2 opinion, affirmed the circuit
court’s denial of DNA testing.
The question presented is:
Does the Arkansas DNA testing statute, as
construed by the Arkansas Supreme Court, prevent
Petitioner from meaningfully accessing the State’s
post-conviction remedies by denying him potentially
exculpatory DNA testing in a manner that is
fundamentally unfair, and in violation of his due
process rights under the Fifth and Fourteenth
Amendments and his right to access courts under the
First Amendment?

ii
PARTIES TO THE PROCEEDINGS BELOW
The petition arises from a state proceeding in
which Petitioner, Stacey Eugene Johnson, sought
relief from the Arkansas Supreme Court.
LIST OF RELATED PROCEEDINGS
State of Arkansas vs. Stacey Eugene Johnson, No. CR93-54 (Sevier Cty. Cir. Ct., Sep. 23, 1994)
Johnson v. State, No. CR 95-427, 326 Ark. 430, 934
S.W.2d 179 (Oct. 28, 1996), cert. denied 520 U.S. 1242
(May 27, 1997)
State of Arkansas v. Stacey Eugene Johnson, No. CR93-54 (Sevier Cty. Cir. Ct., Nov. 21, 1997)
Johnson v. State, No. CR 98-00743, 342 Ark. 186, 27
S.W.3d 405 (Oct. 5, 2000), cert. denied 532 U.S. 944
(Mar. 26, 2001)
State of Arkansas v. Stacey Eugene Johnson, No. CR93-54 (Sevier Cty. Cir. Ct., Jan. 7, 2002),
Johnson v. State, No. CR 02-1362, 356 Ark. 534, 157
S.W.3d 151 (Apr. 1, 2004), cert denied 543 U.S. 932
(Oct. 12, 2004)
State of Arkansas v. Stacey Eugene Johnson, No. CR1993-54 (Sevier Cty. Cir. Ct., Jul. 22, 2005)
Johnson v. State, No. CR 05-1180, 366 Ark. 390, 235
S.W.3d 872 (May 18, 2006)
Johnson v. Norris, No. 5:06CV00185 JLH, 2007 WL
2343883 (E.D. Arkansas, Aug. 14, 2007)

iii

Johnson v. Norris, No. 07-3058 537 F.3d 840 (8th Cir.,
Aug. 8, 2008), cert. denied 555 U.S. 1182 (Feb. 23,
2009)
Jones v. Hobbs et al., No. 5:10CV00065 JLH, 2010 WL
1417976 (E.D. Arkansas, Apr. 5, 2010)
Jones v. Hobbs et al., No. 10-1754, 604 F.3d 580 (8th
Cir., Apr. 9, 2010), cert. denied No. 09-10327, 561 U.S.
1014 (Jun. 21, 2010)
Stacey Eugene Johnson v. State of Arkansas, No. CR93-54, (Sevier Cty. Cir. Ct., Apr. 17, 2017)
Johnson v. State, No. CR-17-312, 2017 Ark. 137, 2017
WL 1455048 (Apr. 19, 2017)
Johnson v. State, No. CR-17-312, 2017 Ark. 138, 2017
WL 1455044 (Apr. 19, 2017)
Stacey Eugene Johnson v. State of Arkansas, No.
67CR-93-54, (Sevier Cty. Cir. Ct., May 9, 2018)
Johnson v. State, No. CR-18-700, 2019 Ark. 391, 591
S.W.3d 265 (Ark., Dec. 12, 2019), rehearing denied
2020 Ark. 86, 2020 WL 830044 (Feb. 20, 2020), motion
to stay mandate denied, No. CR-18-700, (Ark., Feb. 20,
2020)

iv
TABLE OF CONTENTS
Page
Opinions Below ......................................................... 1
Statement Of Jurisdiction ........................................ 1
Constitutional And Statutory Provisions
Involved .......................................................... 2
Introduction .............................................................. 3
Statement Of The Case ............................................ 4
Reasons For Granting The Writ ............................. 16
Conclusion ............................................................... 29

v
TABLE OF APPENDICES
Page
Formal Order by Arkansas Supreme Court
Johnson v. State, No. CR-18-700
(Ark. Feb. 20, 2020) ...................................... 1a
Mandate to Clerk by Arkansas Supreme Court
Johnson v. State, No. CR-18-700
(Ark. Feb. 20, 2020) ...................................... 3a
Opinion of Arkansas Supreme Court
Johnson v. State, No. CR-18-700, 2020 Ark. 86,
2020 WL 830044
(Ark. Feb. 20, 2020) ...................................... 4a
Opinion of Arkansas Supreme Court
Johnson v. State, No. CR-18-700, 2019 Ark.
391, 591 S.W.3d 265
(Ark. Dec. 12, 2019) .................................... 11a
Order Denying Petitioner’s Request for Additional
Testing and Retesting of the Circuit Court of
Sevier County of Arkansas, Criminal Division
State v. Johnson, Case No. 67CR-93-54
(Sevier Cty. Cir. Ct. May 9, 2018) ............. 78a
Order Granting Stay of Execution and for Hearing on
Petitioner’s Motion for Postconviction DNA
Testing
Johnson v. State, No. CR-17-312
(Ark. Apr. 19, 2017) .................................... 83a
Order Denying Petitioner’s Motion for PostConviction DNA Testing of the Circuit Court of
Sevier County of Arkansas

vi
State v. Johnson, No. CR-93-54
(Sevier Cty. Cir. Ct. Apr. 17, 2017) ........... 91a
U.S. Const. amend. I ............................................. 93a
U.S. Const. amend. V............................................ 94a
U.S. Const. amend. XIV ........................................ 95a
Ark. Code Ann. §§ 16-112-201, et seq. .................. 97a
Petition for Post-Conviction DNA Testing and
Request for Hearing (filed Apr. 13, 2017 in
Johnson v. State, No. CR-93-54, Sevier County
Circuit Court, Arkansas) ......................... 115a
Appeal from Order Denying Motion for PostConviction DNA Testing (filed Nov. 8, 2018 in
Johnson v. State, No. CR-18-700, Arkansas
Supreme Court) ........................................ 155a

vii
TABLE OF AUTHORITIES
CASES
Bounds v. Smith,
430 U.S. 817 (1977) ...............................3, 16, 17
Carter v. State,
536 S.W.3d 123 (2015) ................................... 18
District Attorney’s Office for Third Judicial
District v. Osborne,
557 U.S. 52 (2009) .............................3, 4, 17, 18
Evitts v. Lucey,
469 U.S. 387 (1985) ........................................ 16
Hudson v. Palmer,
468 U.S. 517 (1984) ........................................ 23
John L. v. Adams,
969 F.2d 228 (6th Cir. 1992) .......................... 23
Johnson v. Norris,
537 F.3d 840 (8th Cir. 2008) .......................... 13
Johnson v. State,
27 S.W.3d 405 (2000) ................................12, 13
Johnson v. State,
157 S.W.3d 151 (Ark. 2004) ......................13, 18
Johnson v. State,
235 S.W.3d 872 (Ark. 2006) ........................... 13
Johnson v. State,
934 S.W.2d 179 (Ark. 1996) ........................... 12

viii
Johnson v. State,
2017 Ark. 138 (2017) ...................................... 18
Lewis v. Casey,
518 U.S. 343 (1996) ........................................ 23
Misskelley v. State,
2010 Ark. 415 (2010) ...................................... 18
Rucker v. State,
No. CR 02-145, 2004 WL 1283985 (Ark.
June 10, 2004) ................................................ 18
Silva v. Di Vittorio,
658 F.3d 1090 (9th Cir. 2011), overruled
on other grounds by Coleman v.
Tollefson, 575 U.S. 532 (2015) ....................... 23
Skinner v. Switzer,
562 U.S. 521 (2011) ...............................3, 17, 18
Snyder v. Nolen,
380 F.3d 279 (7th Cir. 2004) .......................... 23
STATUTES
U.S. Const. amend. I ............................................. 2, 23
U.S. Const. amend. V .................................................. 2
U.S. Const. amend. XIV .............................................. 2
18 U.S.C. § 3600 ........................................................ 17
Alaska Stat. § 12.73.010, et seq. ............................... 17
2001 Ark. Act 1780 ............................................ passim

ix
OTHER AUTHORITIES
Emily West & Vanessa Meterko, Innocence
Project: DNA Exonerations, 1989-2014:
Review of Data and Findings from the
First 25 Years,
79 ALBANY L. REV. 717 (2016) ........................ 25
Federal Bureau of Investigation, CODIS –
NDIS Statistics, Investigations Aided at
https://www.fbi.gov/services/laboratory/
biometric-analysis/codis/ndis-statistics
(July 2020) ...................................................... 25

PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully petitions for a writ of
certiorari to review the final judgment of the Arkansas
Supreme Court affirming the denial of his motion for
DNA testing pursuant to Arkansas Code Annotated
sections 16-112-201, et seq. (“Act 1780” or the
“Statute”) and denying rehearing of that decision.
OPINIONS BELOW
The Circuit Court of Sevier County issued its
opinion on April 17, 2017. This decision was not
reported. App.-91a-92a. On April 19, 2017, the
Arkansas Supreme Court granted Petitioner's motion
for a stay of execution and remanded for a hearing on
Petitioner's
motion
for
postconviction
DNA
testing. This decision was not reported. App.-83a90a. On May 9, 2018, the Circuit Court of Sevier
County issued its decision denying Petitioner's motion
for postconviction DNA testing. This decision was not
reported. App.-78a-82a. On December 12, 2019, the
Arkansas Supreme Court issued its opinion affirming
the Circuit Court of Sevier County's denial of
Petitioner's motion for postconviction DNA testing.
This decision was reported at Johnson v. State, No.
CR-18-700, 2019 Ark. 391, 591 S.W.3d 265 (Ark., Dec.
12, 2019). App.-11a-77a. On February 20, 2020, the
Arkansas Supreme Court denied Petitioner's motion
for rehearing. This decision was not reported. App.4a-10a.
STATEMENT OF JURISDICTION
The Arkansas Supreme Court denied
Petitioner’s petition for rehearing on February 20,

2
2020.1 This Court’s jurisdiction is invoked under 28
U.S.C. §1257(a). Petitioner now timely files this
petition wherein he asserts a deprivation of his rights
secured by the Constitution of the United States.
CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
The First Amendment provides in relevant part
that “Congress shall make no law . . . abridging . . . the
right of the people . . . to petition the Government for
a redress of grievances.” U.S. Const. amend. I.
The Fifth Amendment provides in relevant part
that “[n]o person . . . shall be compelled in any criminal
case to be a witness against himself, nor be deprived
of life, liberty, or property without due process of law.”
U.S. Const. amend. V.
The Fourteenth Amendment provides in
relevant part that “nor shall any State deprive any
person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction
the equal protection of the laws.” U.S. Const. amend.
XIV.
Arkansas Code Annotated sections 16-112-201,
et seq. is reprinted in the Appendix.

1

By order of the Supreme Court dated March 19, 2020, the
deadline to file any petition for a writ of certiorari due on or
after the date of that order is extended to 150 days from the
date of the lower court judgment, order denying discretionary
review, or order denying a timely petition for rehearing.
Petitioner’s timely petition for rehearing was denied by order
of the Arkansas Supreme Court on February 20, 2020. As
such, Petitioner’s petition for a writ of certiorari is due July
19, 2020.

3
INTRODUCTION
It is settled law that when states choose to
provide mechanisms for post-conviction relief, those
procedures must provide litigants with a fair
opportunity to assert their state-created rights and
that a failure to do so is a violation of the litigants’
rights to due process. See generally Skinner v.
Switzer, 562 U.S. 521 (2011); Dist. Attorney’s Office for
Third Judicial Dist. v. Osborne, 557 U.S. 52 (2009);
Bounds v. Smith, 430 U.S. 817 (1977).
This Court recognized that litigants have a
liberty interest in obtaining post-conviction relief by
demonstrating their innocence with new evidence
under state law. This includes DNA evidence. A
state’s procedures concerning access to and testing of
that evidence must not offend fundamental principles
of justice or transgress recognized principles of
fundamental fairness in operation. See Osborne, 557
U.S. at 68-69.
The Arkansas Supreme Court has a history of
unreasonably narrow interpretations of Act 1780 that
render it virtually meaningless and thereby deprive
litigants of their due process rights.
Here, in
affirming the state circuit court’s denial of testing and
denying rehearing of that decision, the Arkansas
Supreme Court found that Petitioner had failed to
establish that DNA testing would exonerate him,
although Act 1780 does not require a petitioner to
make that showing. In reaching this final judgment,
the court also wrongly rejected the argument that
DNA
testing
could
exculpate
Petitioner,
notwithstanding that his conviction was predicated on
the problematic eyewitness identification of a six-

4
year-old child and questionable forensic evidence, as
discussed infra pp. 6-7, 9-11; note 3.
This Court has not yet determined what
minimal protections are necessary to ensure
fundamental fairness in the operation of state DNA
testing laws. It should do so in this capital case, where
the available DNA testing statute is rendered
meaningless.
In Osborne, this Court held that when states,
like Arkansas, provide for post-conviction relief—
including through the presentation of new evidence
such as DNA—the Constitution requires meaningful
access to that new evidence in order to afford
petitioners effective access to other post-conviction
remedies; failure to afford such access is a violation of
petitioners’ constitutional rights. See Osborne, 557
U.S. at 68-69. As demonstrated below, the Arkansas
Supreme Court’s affirmance of the state circuit court’s
denial of Petitioner’s Act 1780 motion violated his
rights guaranteed by the First, Fifth and Fourteenth
Amendments to the United States Constitution.
STATEMENT OF THE CASE
From the time of his arrest until today,
Petitioner has consistently maintained his innocence
of the 1993 murder of Carol Heath. He has been
incarcerated on death row for over a quarter of a
century for capital murder. DNA testing is perfectly
suited to conclusively “demonstrate [Petitioner’s]
actual innocence” and undermine the questionable
evidence used to convict him at trial. See § 16-112202. Petitioner is a black man and untested evidence
in his case points to a white perpetrator.

5
The State’s theory of prosecution was that
Petitioner alone murdered and raped the victim. R3
T. 1581-1584.2 On April 2, 1993, the victim was found
dead in her home in Sevier County, Arkansas. R3 T.
951-953. She had cutting wounds on her neck and the
certificate of death would note evidence of
strangulation and blunt force head injuries. R3 T.
125. Her body was discovered between 6:00 and 6:30
a.m. and law enforcement officials from the local De
Queen Police Department and the Arkansas State
Police arrived shortly thereafter. R3 T. 951-954.
Within hours of the crime, Petitioner was the first—
and only—subject of police investigation. See R3 T.
1571.
At the victim’s apartment, investigators
collected several pieces of evidence, including
underwear found next to the victim’s thigh, a wad of
tissue paper found near the victim’s genitals (believed
to have been used by the perpetrator to clean up after
the sexual assault), a box of condoms, a douche bottle,
a towel, a wash cloth, and pieces of the victim’s
clothing. R3 T. 116, 1003-1005. Swabs were collected
of a clear pool of liquid surrounding the victim’s body,
believed to have come from the douche bottle used to
clean up after the crime. R3 T. 1004; R4 T. 2308.
Apparent hairs of both Caucasian and African
American origin were collected from the floor near the
victim’s body. R3 T. 121; R4 T. 2518-19, 2523. From
the victim’s hand, Caucasian hairs microscopically
2

References to the record in this case use the following naming
conventions: “R1 T. ___”: May 23, 2018 Record on Appeal
from May 2018 Denial of DNA Testing; “R2 T. ___”: January
7, 2002 Hearing; “R3 T. ___”: November 17-21, 1997 Trial;
“R4 T. ___”: April 19-23, 1995 Trial.

6
dissimilar to the victim were recovered. R3 T. 121,
721.
Investigators also photographed a single,
partially smoked cigarette on the floor of the
apartment, although there is no record it was collected
and sent to the Arkansas State Crime Lab with the
other pieces of evidence. R3 T. 1109-10. Reference to
this cigarette does not appear again in the record.
None of the evidence recovered from the
victim’s apartment was ever connected to Petitioner,
except four hairs found on the floor by the victim. See
R3 T. 1393. There is a plausible explanation for the
presence of the hair, however; Petitioner knew the
victim socially and had previously been to her
apartment. R4 T. 20. Notably, no Caucasian hairs,
including those recovered from the victim’s hand, were
submitted for DNA testing.
R3 T. 1346-1347.
Fingerprints on the condom package and douche
bottle did not match Petitioner. R4 T. 91. Bite marks
on the victim’s breasts were swabbed for saliva, and a
rape kit was performed to collect vaginal, rectal and
oral swabs and smears. R3 T. 1285, 1288. No DNA
testing was performed on the rape kit samples.
Several days after the crime, a passerby
directed the authorities to a wooded area near a
roadside park about four miles south of De Queen. R3
T. 989-90. There, various articles of clothing and a
purse containing the victim’s identification were
found along with a “green pullover shirt,” a white tshirt, a towel, and a “sweater jacket,” all of which were
wet and had significant blood on them. R3 T. 989,
1025, 1067. The State theorized that the perpetrator
personally brought several of the victim’s items to this
second crime scene and removed his bloodied clothing
there. R3 T. 1583-1584.

7
Investigators transported the items to the local
police station and laid them out in an attempt to dry
them. R3 T. 1026-27. The following day, officials
discovered “cigarettes and matches,” all of which were
reportedly dry and in pristine condition, in a “slit”
pocket of the waterlogged green shirt. R3 T. 112,
1030-32, 1086; R2 T. 10, 191-194. There is no photo of
these items in relation to the green shirt in the record.
Investigators sent the shirts and some other items
from the roadside park to the state crime lab. R3 T.
1033. De Queen Police Officer Jim Behling testified
that the local police decided the sweater jacket was
not “going to be usable” and it was never sent to state
crime lab. R3 T. 1035. Inexplicably, investigators did
not send the cigarettes and matches to the lab with
the other items, but instead sent them six months
later.3 R1 T. 427; App.-57a-58a (Hart, J., dissenting).
3

As discussed infra pp. 8, 11, Petitioner’s DNA was eventually
recovered from this cigarette butt. Arkansas Supreme Court
Associate Justice Hart’s dissenting opinion, however,
provides an analysis of the significant questions regarding
the reliability of the cigarette evidence, including the
mysterious transformation of the “cigarettes” into a single
“cigarette butt.” She provides a detailed timeline regarding
the questionably changed description of these items, and
concludes “[t]he collective weight of [the] information
indicates that the cigarette butt with Johnson’s saliva
actually came from somewhere other than [the pocket of the
green shirt] and its corresponding chain of custody.” App.55a (Hart, J., dissenting). Based on the inconsistencies
regarding the cigarette evidence, she concludes:
The chain of custody for the cigarette butt
with Johnson’s saliva is materially deficient.
This deficiency undercuts the reliability of this
evidence, and (despite the “plant” label
volunteered by the State) supports the possibility

8
No DNA evidence ever connected Mr. Johnson
to either shirt from the roadside park.
The
prosecution relied on the testimony of Sharon
Johnston, Petitioner’s stepmother, to connect him to
these items. Her testimony, however, was varied and
she could not definitively say either way if the white
and green shirts belonged to Petitioner. R3 T. 11831193. Additionally, several untested Caucasian hairs
were retrieved from the white t-shirt, green shirt and
towel. R1 T. 460; R3 T. 1083-84. The only biological
evidence that linked Petitioner to the second crime
scene was from the “cigarettes and matches,” which by
the second trial was referred to by the prosecution as
a single “cigarette butt.” R1 T. 427-429; R4 T. 85, 91;
R3 T. 1410-11.
Several items of probative value from both
crime scenes were never submitted for DNA testing,
including the rape kit samples, victim’s underwear,
tissue paper and fluid swabs collected from around the
victim’s genitals, and Caucasian hairs—dissimilar to
the victim—including an apparent inch-and-a-half red
beard hair found in the victim’s hand. R3 T. 284; R2
T. 204. Her ex-boyfriend, Branson Ramsey, had a
history of perpetrating domestic abuse and was
described as having a “reddish brown beard” at the
time of the murder. R3 T. 1502-03; R2 T. 214. Police
that it was “swapped in” at some point after the
evidence from the crime scenes was collected.
But regardless of how the cigarette butt became
evidence in Johnson’s case, the presently
observable shortcomings in its chain of custody
render it an unreliable piece of evidence for
purposes of our subdivision 202(8) analysis.
App.-50a-51a (Hart, J., dissenting).

9
knew about the victim’s relationship with Ramsey—
that he had previously been in her home and had
recent contact with her—yet there was no effort to
compare these hairs to Ramsey’s, or to submit them
for DNA testing. R1 T. 44-45.
From the beginning of the investigation,
officials pursued only Petitioner as a suspect. R3 T.
1571. In a sworn affidavit, De Queen Police Officer
Hayes McWhirter noted that “in interviewing
witnesses and suspects . . . it was learned that [the
victim] knew [Petitioner] in at least a social manner”
and that “[Petitioner] had been in [her] home . . .
socially.” R4 T. 20. Based on statements by “different
people,” Officer McWhirter requested a photo array,
which included Petitioner and six other black males.
R3 T. 1450-52.
The potential that additional DNA testing in
this case would lead to exonerating evidence must be
considered in tandem with the evidence used to
convict and sentence Mr. Johnson to death, including:
(1) the problematic identification provided by the
victim’s six-year-old daughter; (2) Petitioner’s alleged
and undocumented “confession”; and, (3) several
pieces of questionable DNA evidence adduced at trial.
1.

Eyewitness Testimony of the Victim’s Six-YearOld Daughter

After requesting the photo array following the
victim’s death, Officer McWhirter interviewed the
victim’s six-year-old daughter. R3 T. 1445-46, 1450.
The interview was not recorded.
R3 T. 1446.
According to Officer McWhirter, the six-year-old child
told him that a black male with a knife and a gun
“knocked on the door” when she and her mother “were

10
on the couch,” and that the victim “got up and opened
the door” for the man. R3 T. 1447-48. Officer
McWhirter showed the child seven photos of black
males and asked her to identify “the person that was
in her apartment last night.” She picked the photo of
Petitioner. R3 T. 1453. Later, however, when
psychologist Dr. Camille Barnes showed her the same
photo array Officer McWhirter had shown, the
victim’s daughter twice stated that “[t]he creep that
killed my mother is not there.”
R3 T. 1470.
Psychological examiner Jill Smith, who also treated
the child, later stated there was “some question as to
whether or not she really witnessed” the crime. R1 T.
370. At one point the victim’s young daughter told a
counselor that she believed Ramsey had been involved
in her mother’s murder.4 R3 T. 1477. Indeed, her
account of what and who she saw the night of her
mother’s murder changed with each telling. R3 T.
954, 1445-46; R4 T. 1310, 1320, 1331, 1333, 2860.
2.

The Alleged and Undocumented Confession

On April 14, 1993, officers arrested Petitioner
in Albuquerque, New Mexico. R4 T. 108. The State
claims that in the course of this arrest, Petitioner
confessed to Albuquerque Police Officer Paul Pacheco
that he murdered the victim, though there is no
evidence corroborating this claim. R3 T. 1233-34.
Officer Pacheco did not record or write down the
alleged confession, and his partner, Ed Bylotas,
testified that he was present and did not hear the

4

Ramsey testified that he dated the victim from “Christmas
[1992] through . . . late February [1993],” but was no longer
dating her on April 1, 1993, and “hadn’t been in sometime
(sic)” to her house. R4 T. 2979.

11
alleged confession. R3 T. 1234-37, 1264-65. Petitioner
denied ever making such a statement and the record
plainly reflects he told investigating law enforcement
in Albuquerque that he did not commit this crime. R4
T. 127-128, 168, 171-72.
3.

DNA Evidence Adduced at Trial

At trial, the State relied upon DQ-Alpha DNA
testing results, which indicated that four “Negroid”
hairs collected from the victim’s apartment, and saliva
from the “cigarette butt” allegedly found in the green
shirt at the second crime scene, were consistent with
Petitioner (the cigarette evidence was submitted for
testing nearly a half year after all the other items of
evidence were submitted). R3 T. 1393; R1 T. 427-429.
As discussed supra p. 6, the hairs on the floor could
easily have been deposited by a prior, consensual
interaction, and the lack of proper documentation
surrounding the cigarette butt raises serious
questions as to its provenance.
The State also focused on several pieces of
evidence it argued connected Petitioner to the crime,
notwithstanding contradicting exculpatory evidence.
For example, the State claimed that Petitioner
murdered and sexually assaulted the victim and used
the douche bottle found at her home after the attack
to remove evidence of the rape. R3 T. 1518. This
argument was made even though the State knew that
Petitioner’s fingerprints did not match those lifted
from douche bottle. R4 T. 91. The State noted that
the victim’s blood was “all over the[] clothes” found at
the second crime scene, but did not mention that
Petitioner’s DNA was not. R3 T. 1521. Additionally,
the State emphasized that saliva from the victim’s
breast swab was “consistent with [Petitioner’s] blood

12
type and . . . secretor [status],” but failed to note
Petitioner was excluded as the source of DNA on that
same swab, or that Cordelia Vineyard, Ramsey’s exwife, had proffered testimony during trial that
Ramsey would bite her breasts during intercourse. R3
1502-03, 1519; R4 341-42. Ms. Vineyard also proffered
testimony that the couple’s divorce became final the
day the victim was murdered, and that Ramsey had a
history of violence towards women. R3 T. 1501-02.
After a trial, Petitioner was convicted of capital
murder and sentenced to death.
In 1996, the
Arkansas Supreme Court reversed the conviction and
ordered a new trial upon finding that certain
utterances of the victim’s daughter (who was deemed
incompetent to testify, due to psychological trauma)
were erroneously admitted at trial in violation of
Petitioner’s confrontation rights and the rules of
evidence. See Johnson v. State, 934 S.W.2d 179, 182
(Ark. 1996) (“Johnson I”). At the second trial, the
child was found competent to testify. Petitioner was
again convicted of capital murder and sentenced to
death.
The Arkansas Supreme Court affirmed the
conviction and death sentence on direct appeal. See
generally Johnson v. State, 27 S.W.3d 405 (2000)
(“Johnson II”).5 State and federal collateral relief was

5

The three dissenting opinions of this 4-3 split found error in
the trial court’s refusal to give Petitioner’s counsel access to
the child’s statements to her psychologist. “Had defense
counsel been privy to [the therapist’s] records, he would have
been able to delve into [the therapist]’s conclusions that [the
child’s] stories were profoundly inconsistent and that she had
been under considerable pressure from her family and the

13
also denied. See Johnson v. State, 157 S.W.3d 151, 158
(Ark. 2004) (“Johnson III”); Johnson v. State, 235
S.W.3d 872, 873 (Ark. 2006) (“Johnson IV”); Johnson
v. Norris, 537 F.3d 840, 843 (8th Cir. 2008) (“Johnson
V”).
4.

Post-Conviction Proceedings

On April 13, 2017, while scheduled to be
executed, Petitioner filed a Motion for DNA Testing
and a Request for Hearing under the Statute.
Petitioner sought DNA testing of three categories of
evidence that could contain the DNA of the real
perpetrator of the crime: (i) items recovered from the
victim’s body and clothing, including the red
Caucasian hair from her hand; (ii) items that appear
to have been used to clean up the crime scene; and (iii)
items found at the roadside park. Evidence from each
of these three categories is highly probative of the
identity of the perpetrator due to either the nature of
the evidence or where it was found. Petitioner
demonstrated that the evidence exists in a condition
that makes DNA testing possible and was either not
tested previously or could now be tested with new
technology. He also showed that testing would
provide additional probative results.
Petitioner first raised the constitutional
question presented in this petition in this motion,
requesting from the state circuit court “[a]ny . . . Order
that the Court deems necessary to adequately protect
the Petitioner’s state and federal constitutional
rights.” App.-152a. The State opposed, and Petitioner
pressed the constitutional issue in his reply, noting
prosecutor to convict Stacey Johnson.” Johnson II, 27 S.W.3d
at 417 (Brown, J., dissenting).

14
that failure to grant the requested DNA testing would
be a “flagrant and irreversible violation of [his] right
to due process.” Reply to State’s Response in
Opposition to Petition for Post-Conviction DNA
Testing and Request for Hearing (filed Apr. 17, 2017
in Johnson v. State, No. CR-93-54, Sevier County
Circuit Court, Arkansas) at 9. More specifically,
Petitioner stated that “[p]reventing [him] from having
the opportunity to conduct DNA testing on the
requested items and prove his innocence claims
[would] violate[] the very notion of ‘fundamental
fairness’ and [would] den[y] him of due process.” Id.
at 9-10. Petitioner went on to note that as “the State
of Arkansas has created a clear statutory procedure
through which convicted persons can obtain DNA
testing and then utilize exculpatory results from that
testing to prove their innocence, the processes
employed by the State for obtaining access to DNA
must remain fundamental[ly] fair.” Id. at 10.
The state circuit court denied and dismissed the
motion
without
acknowledging
Petitioner’s
constitutional claim. App.-91a-92a. The Arkansas
Supreme Court reversed and remanded, granting a
stay of execution and ordering the state circuit court
to hold a hearing on the question of whether
Petitioner’s request for testing should be granted.
App.-83a-84a. On May 9, 2018, the state circuit court
denied the DNA Petition. This order similarly made
no reference to the due process violation Petitioner
claimed. App.-78a-82a.
On November 8, 2018, Petitioner appealed the
state circuit court’s denial of his DNA petition to the
Arkansas Supreme Court. In his opening brief,
Petitioner stated, “should DNA testing reveal

15
Appellant’s actual innocence[,] Appellant’s [Fifth] and
[Fourteenth] Amendment rights . . . would have been
compromised,” if the Arkansas Supreme Court
affirmed the state circuit court’s denial of his motion
for DNA testing. Appeal From the Order Denying
Appellant’s Motion for Post-Conviction DNA Testing
(filed Nov. 8, 2018 in Johnson v. State, No. CR-18-700,
Arkansas Supreme Court) at xvii.
On December 12, 2019, the Arkansas Supreme
Court, in a 5-2 decision, affirmed the state circuit
court’s decision denying DNA testing. The Arkansas
Supreme Court’s affirmance hinged on its finding that
“none of the evidence that might result from the
proposed testing could advance Johnson’s claim of
actual innocence or raise a reasonable probability that
he did not murder [the victim]” when viewed “in light
of the remaining evidence.” App.-23a-25a. The
Arkansas Supreme Court passed on the constitutional
questions in Petitioner’s brief, making no reference to
Petitioner’s argument.
The dissenting justices opined that, in
satisfaction of Act 1780, Petitioner identified a theory
of defense that would support his actual innocence,
and demonstrated how DNA testing may produce new
evidence to support that theory and show a reasonable
probability that he did not commit this crime. Having
satisfied these materiality requirements of Act 1780,
§§ 16-112-202(6) and (8), in the view of the dissenting
justices, the motion for DNA testing should have been
granted. As Associate Justice Hart concluded in
dissent: “[Petitioner’s] is a case [where] additional
testing is not only appropriate, but necessary.” App.30a (Hart, J., dissenting).

16
Petitioner also raised this issue to the Arkansas
Supreme Court on December 27, 2019, in his Petition
for Rehearing from the Arkansas Supreme Court’s
affirmance of the state circuit court’s denial of his
motion for DNA testing. Petitioner argued to the
Arkansas Supreme Court that the “interpretation and
application of” the State’s DNA testing statute by the
state circuit court “violates [Petitioner’s] rights to Due
Process and Access to Courts as guaranteed by the
First, Fifth, and Fourteenth Amendments to the
United States Constitution.” Petition for Rehearing
(filed Dec. 27, 2019 in Johnson v. State, No. CR-18700, Arkansas Supreme Court).
REASONS FOR GRANTING THE WRIT
I.

The
Arkansas
Supreme
Court’s
Construction of Act 1780 Does Not
Comport with Petitioners’ Due Process
Rights.

When a state law creates a liberty interest, the
state’s procedures must comport with due process.
Evitts v. Lucey, 469 U.S. 387, 401 (1985) (States “must
nonetheless act in accord with the dictates of the
Constitution—and, in particular, in accord with the
Due Process Clause.”). Likewise, when a state creates
a judicial remedy, access to that remedy must be fairly
afforded. See Bounds, 430 U.S. at 822 (prisoners are
entitled to “adequate, effective, and meaningful”
access to courts; therefore, indigent prisoners must be
allowed to file appeals and habeas corpus petitions
without paying fees). A statutory scheme providing
access to post-conviction relief is both a liberty
interest and a judicial remedy, and state procedures

17
to access such relief must not offend principles of
justice or fundamental fairness in operation.
Post-conviction DNA testing statutes are in
place in all fifty states. Congress has enacted
legislation, as well. The purpose of these statutes is
to provide convicted persons a definitive right to
obtain forensic DNA testing of evidence to prove their
innocence.
The statutory provisions at issue here (§§ 16112-202(6) and (8)) are identical to the theory of
defense and materiality provisions in the federal
Justice for All Act (18 U.S.C. § 3600) and Alaska’s
post-conviction DNA testing statute, Alaska Stat. §
12.73.010, et seq. The provisions are similar to those
in several other jurisdictions, including Illinois,
Delaware, Idaho, and Missouri. These DNA-testing
statutes allow access to information that ultimately
can make available post-conviction relief.
This Court has recognized a constitutionally
protected liberty interest in access to post-conviction
relief. Because of this, the procedures for obtaining
DNA testing—as testing can be essential to realizing
the right to post-conviction relief—must not offend
fundamental principles of justice or transgress
recognized principles of fundamental fairness in
operation. See generally Skinner, 562 U.S. 521;
Osborne, 557 U.S. 52; Bounds, 430 U.S. 817. The
unanswered question this Court has yet to determine,
however, is what fundamental principles of justice
and fairness are required with respect to procedures
available to litigants seeking access to a state’s postconviction DNA testing process. This Court should do
so here.

18
In 2001, the Arkansas legislature enacted Act
1780 based on a finding that “the mission of the
criminal justice system is to punish the guilty and to
exonerate the innocent” as concerns mounted
regarding persons who were incarcerated, and
sometimes executed, for crimes they did not commit.
Act 1780 was created to “provide a remedy for
innocent persons who may be exonerated by [DNA]
evidence.” See 2001 Ark. Act 1780. Yet, despite the
passing of Act 1780, post-conviction DNA testing in
Arkansas remains virtually unavailable due to unduly
restrictive judicial interpretations of the Act.
The Arkansas Supreme Court has in practice
rendered Act 1780, and the DNA testing it affords to
litigants, essentially unavailable by its unreasonably
restrictive and unconstitutional interpretations of the
Act, creating insurmountable roadblocks to obtaining
testing. Of the 88 reported appellate decisions in
which individuals sought scientific testing under the
Statute, the Arkansas Supreme Court has denied any
relief in all but five instances.6
Arkansas provides a means for obtaining postconviction relief – a process that creates a liberty
interest on the part of litigants. See generally
Osborne, 557 U.S. 52; Skinner, 562 U.S. 521. The
statutory scheme further provides that DNA evidence
can be used as part of that process, thereby creating a

6

Five of the 88 cases were remanded to the circuit court. See
Rucker v. State, No. CR 02-145, 2004 WL 1283985 (Ark. June
10, 2004); Johnson III, 157 S.W.3d 151, 158 (Ark. 2004);
Misskelley v. State, 2010 Ark. 415 (2010); Carter v. State,
536 S.W.3d 123 (2015); Johnson v. State, 2017 Ark. 138
(2017).

19
liberty interest in such testing as part of a litigant’s
due process right to meaningfully access postconviction review. This Court has held that a state’s
procedures for obtaining post-conviction relief—once
such relief has been provided for—must not offend
fundamental principles of justice or transgress
principles of fundamental fairness in operation.
Here, the Arkansas Supreme Court has
continued its pattern and construed Act 1780 to
impose an unconstitutional barrier to Petitioner’s
access to post-conviction remedies by way of DNA
testing by effectively reading into the Statute a near
impossible requirement—that Petitioner must prove
his innocence as a condition of obtaining DNA testing,
when DNA testing is the only means in some cases,
like Petitioner’s, to exonerate the wrongly convicted.7
In so doing, the state court also deprived Petitioner of
his protected liberty interest in obtaining postconviction remedies afforded under Arkansas law to
those who can present exculpatory evidence.
Certiorari should be granted to ensure that
procedural due process is satisfied in the
interpretation and application of Act 1780 and similar
post-conviction DNA testing statutes, as the
determination of what fundamental principles of
justice and fairness require—with respect to
procedures available to litigants seeking access to a

7

As Justice Hart noted in her dissent from the Arkansas
Supreme Court’s opinion, “this process cannot function if the
petitioner is required to exonerate himself on the front end
before he is permitted to receive the testing.” App.-70a (Hart,
J., dissenting).

20
state’s post-conviction DNA testing process—is of
national importance.
A. The Court’s Construction of Act 1780 Imposes a
Near-Impossible Requirement of Proving Actual
Innocence as a Prerequisite to Testing.
The Arkansas Supreme Court’s unreasonable
construction of §§ 16-112-202(6) and 202(8) renders
Act 1780 fundamentally unfair in its operation,
denying Petitioner meaningful access to DNA testing
under the Statute and violating his due process rights.
To require a showing of complete exoneration creates
a near insurmountable hurdle for any petitioner to
overcome; it is also not required by Act 1780.
Sections 16-112-202(6) and 202(8) of the
Statute require only that Petitioner identify a theory
of actual innocence and establish that testing “may”
produce new evidence that would “support” that
theory and show a “reasonable probability” that he did
not commit the crime of conviction. Contrary to the
Arkansas Supreme Court’s construction, the Statute
does not require that Petitioner establish that the
DNA test results would “show actual innocence.”
App.-25a. Affirming the circuit court’s denial of
testing, the majority held “[b]ecause the presence or
absence of Johnson’s or another male’s DNA would not
show actual innocence, there is no reason to test for
it.” Id.
Petitioner unquestionably identified a theory of
innocence: that he did not kill the victim and that
someone else committed this rape and murder. Here,
DNA testing has the potential to develop the profile of
another suspect who has no innocent explanation for

21
the presence of their DNA comingled with evidence
recovered from the crime scenes. For example, given
the State’s argument that Petitioner alone raped the
victim, any presence of semen or male DNA in the
rape kit swabs and smears, the douche fluid swabs,
her underwear, or the tissue paper found beneath her
body that excludes Petitioner would provide proof of
an alternate perpetrator. The presence of such a
suspect’s DNA would strongly support Petitioner’s
theory of innocence and show a “reasonable
probability” that he did not commit this murder.
Petitioner squarely meets the requirements of §§ 16112-202(6) and 202(8); the Arkansas Supreme Court’s
construction of those sections to reach a contrary
conclusion is fundamentally unfair and deprived
Petitioner of his liberty interest in proving his
innocence.
The very purpose of Act 1780 (to provide a
remedy for those persons whose innocence may be
proven by DNA evidence) is thwarted by precluding
access to DNA testing and blocking constitutionally
required access to other related post-conviction relief.
Without access to DNA testing, it is nearly impossible
for any petitioner who has articulated a theory of
innocence and a reasonable probability that DNA
testing could prove his innocence to cast any doubt on
the evidence used to convict.
This impossible burden on convicted persons is
fundamentally unfair and violates Petitioner’s right to
due process of law.
B. DNA Testing on Key Evidence is Necessary to
Fairly Access State Post-Conviction Remedies.

22
Under § 16-112-201, petitioners who obtain
DNA testing results through § 16-112-202 that are
“sufficient to establish by clear and convincing
evidence that no reasonable fact-finder would find the
petitioner guilty of the underlying offense” are
entitled to secure relief. This can occur by vacating
the sentence, resentencing, granting a new trial, or by
other appropriate disposition. See App.-97a.
Arkansas has created certain liberty interests
by providing other statutory post-conviction remedies
for petitioners claiming innocence based on newly
discovered DNA evidence. Petitioners can only unlock
these post-conviction remedies if they are first granted
access to DNA testing. These remedies include the
executive clemency process, in which petitioners may
request a pardon, commutation, or reprieve of a
criminal sentence (on bases including DNA evidence),
and the common law writ of error coram nobis, which
provides relief not otherwise available on appeal
based on a fact (such as exculpatory DNA evidence)
not known at trial.
Act 1780 was enacted for the express purpose of
allowing convicted persons to access evidence that
they may use in other post-conviction proceedings to
prove their innocence. To require that a petitioner
prove his innocence before testing may be granted
nullifies a statute that otherwise could facilitate the
petitioner’s development of exculpatory evidence.
This deprives petitioners access to other postconviction remedies in violation of their rights to due
process.

23
II.

The
Arkansas
Supreme
Court’s
Construction of Act 1780 Impedes
Petitioners’ Rights to Access to Courts.

The Arkansas Supreme Court’s holding also
violates Petitioner’s First Amendment right to
reasonable access to courts. This Court in Hudson v.
Palmer held that “prisoners have the constitutional
right to petition the Government for redress of their
grievances, which includes a reasonable right of
access to the courts,” 468 U.S. 517, 523 (1984), derived
from the Petition Clause of the First Amendment.
U.S. Const. amend. I; see also Lewis v. Casey, 518 U.S.
343, 404–05 (1996) (Stevens, J., dissenting) (“Within
the residuum of liberty retained by prisoners are
freedoms identified in the First Amendment to the
Constitution [including] . . . the freedom to petition
their government for a redress of grievances.” (citing
Johnson v. Avery, 393 U.S. 483, 485 (1969))). The
right to petition restrains states from creating
unreasonable barriers to court access. See, e.g., Silva
v. Di Vittorio, 658 F.3d 1090, 1102 (9th Cir. 2011)
(citing John L. v. Adams, 969 F.2d 228, 235 (6th Cir.
1992) (finding that the First Amendment “forbids
states from ‘erect[ing] barriers that impede the right
of access of incarcerated persons.’” (alteration in
original) (citation omitted)), overruled on other
grounds by Coleman v. Tollefson, 575 U.S. 532 (2015));
Snyder v. Nolen, 380 F.3d 279, 291 (7th Cir. 2004)
(“The right of access to the courts is the right of an
individual, whether free or incarcerated, to obtain
access to the courts without undue interference.”).
Here, the Arkansas Supreme Court created an
unreasonable barrier to court access not contemplated
by the legislature by reading into the Statute an

24
impossible hurdle and thereby preventing Petitioner
from obtaining the DNA testing results with which he
could avail himself of state post-conviction remedies.
III.

Act 1780 Contemplates DNA Testing
Where, As Here, Testing Could Produce
New Evidence in Support of a Petitioner’s
Theory of Defense and Raise a Reasonable
Probability of Innocence.

Arkansas purports to provide DNA testing in
cases such as Petitioner’s where several items of
highly probative evidence have never been subjected
to modern DNA testing, and there exist significant
questions about the evidence used to convict the
death-sentenced petitioner.
Properly construed,
Petitioner has met the requirements for obtaining
DNA testing.
The portions of Act 1780 at issue here require
only that Petitioner identify a theory of actual
innocence and show how testing “may” produce new
evidence that would “support” that theory and show a
“reasonable probability” that he did not commit the
crime of conviction. See App.-99a. Petitioner squarely
meets the requirements of both. His theory of
innocence is simple: he did not rape and murder the
victim—someone else did. Moreover, in light of the
nature of this crime, the items of untested evidence
Petitioner requested to test are of particular
significance. See App.-10a (Wynne, J., dissenting)
(“[T]he proposed testing could significantly advance
[Petitioner’s] claim of innocence.”).
For example, the discovery of third-party DNA
on a single item of highly probative evidence, like the

25
red beard hair recovered from the victim’s hand or the
tissue paper found near the victim’s genitals, could
wholly exculpate Petitioner as the perpetrator. Given
the State’s argument that Petitioner alone raped the
victim, the presence of semen or male DNA foreign to
Petitioner in the rape kit samples or samples from
other intimate areas would constitute proof of an
alternative perpetrator. A qualifying male DNA
profile developed from such testing could be run
through the FBI’s Combined DNA Index System
(“CODIS”). As of May 2020, the CODIS national
databank, National DNA Index (“NDIS”), contained
14,240,876 offender profiles and in Arkansas, over six
thousand investigations have been aided through use
of this database. Federal Bureau of Investigation,
CODIS – NDIS Statistics, Investigations Aided at
https://www.fbi.gov/services/laboratory/biometricanalysis/codis/ndis-statistics (July 2020). In nearly
half of the first 325 DNA exonerations, the DNA
results not only proved the defendant’s innocence, but
ultimately identified the actual perpetrator. See
Emily West & Vanessa Meterko, Innocence Project:
DNA Exonerations, 1989-2014: Review of Data and
Findings from the First 25 Years, 79 ALBANY L. REV.
717, 765 (2016) (real perpetrator identified in 49% of
DNA exonerations through 2014). Indeed, the DNA
testing requested could provide “an untold number of
possible result combinations that would substantiate
[Petitioner’s] claim of innocence,” App.-69a (Hart, J.,
dissenting).
The Arkansas Supreme Court determined that
“in light of the remaining evidence,” DNA testing
“could not significantly advance [Petitioner’s] claim of
innocence.” App.-23a. This construction, along with
the Court’s mistaken characterization of the evidence

26
against Petitioner, resulted in the state court denying
DNA testing. Contrary to that Court’s holding,
however, the evidence of Petitioner’s guilt is far from
overwhelming and DNA testing could certainly lead to
exculpatory results that would “[r]aise a reasonable
probability that [Petitioner] did not commit the
offense,” as the Statute requires. App.-99a. The
Arkansas Supreme Court’s construction otherwise
deprives Petitioner of due process.
At Petitioner’s trials, the State principally
relied on (1) the identification by the victim’s six-yearold daughter; (2) Petitioner’s “confession” to a police
officer in New Mexico; and, (3) the presence of
Petitioner’s DNA on certain transient or suspect
items. Unlike the proposed DNA testing, which can
definitively identify the perpetrator of this crime, each
of these categories of evidence is either unreliable or
not overwhelmingly probative of guilt.
First, the child eyewitness identification is not
reliable, and in any event does not definitively
establish that Petitioner is guilty of the victim’s
murder. The witness’ various accounts of her mother’s
murder did not unequivocally identify Petitioner as
the culprit. Her descriptions of the murder were
inconsistent and contradictory. R3 T. 954, 1445-46,
1448; R4 T. 1310, 1320, 1331, 1333, 2860.
Furthermore, many of the details of the child’s
identification that appear “consistent” with a
description of Petitioner were known to officers before
they spoke to her, including Petitioner’s name, hair,
and recent release from jail, thus suggesting that
these details may have been communicated by officers
to the child through suggestive questioning. R4 T. 20,
1211.

27
Second, Petitioner’s alleged “confession” to
police officers in New Mexico is inherently suspect.
Albuquerque Police Officer Pacheco’s claim that
Petitioner confessed to him is uncorroborated and not
documented. Officer Pacheco’s trial testimony was
disputed by his own partner, Officer Bylotas, who did
not hear Petitioner make a confession. R3 T. 1234-39,
1264-65. This alleged “confession” is not supported in
fact and should not have been a basis to conclude that
the evidence of Petitioner’s guilt was overwhelming,
such that he was not entitled to DNA testing.
Third, the physical evidence against Petitioner,
when carefully considered, does not amount to
overwhelming evidence of his guilt.8 Although the
State claims that a green sweater and white t-shirt
found at the second crime scene belonged to
Petitioner, this is not borne out in the record. This
connection is based on testimony by Petitioner’s
stepmother, Ms. Johnston, whose testimony raised
doubt that the clothing at the second crime scene
belonged to him, as she was unable to positively
identify either the green sweater or the white t-shirt
as Petitioner’s. R3 T. 1183-1193.
Moreover, Petitioner admits that he was in the
home on several occasions, including on the night of

8

In fact, as Justice Hart noted in her dissent from the
Arkansas Supreme Court’s opinion, “much of the evidence in
this case points to a white perpetrator,” such as the red beard
hair found in the victim’s hand and the numerous Caucasian
hairs (dissimilar to those of the victim) found in probative
areas at both crime scenes (including the blood-soaked towel
found on the floor by the victim’s head, the tissue found at
the first crime scene, and the towel found at the second crime
scene). App.-34a-35a (Hart, J., dissenting).

28
the murder. He further admits that he had prior
intimate contact with the victim, meaning that there
are reasonable, non-criminal explanations for the
presence of his hair in the home. R1 T. 48. Finally,
while Petitioner’s DNA was found on a cigarette butt
purportedly found at the second crime scene, the
transient nature of cigarette butts, in addition to
serious questions about the provenance of the
evidence discussed supra note 3, substantially
undermine the weight of that evidence. The cigarette
butt appeared in pristine condition despite having
allegedly been found in waterlogged clothing, and it
was inconsistently described by law enforcement at
various times as “cigarettes and matches” or a
“cigarette butt,” leading to significant questions about
its origin.9 R2 at 10, 191-194; R4 T. 85, 91; R3 T. 141011.
Despite the Arkansas Supreme Court’s holding
to the contrary, the existing evidence against
Petitioner is not so strong as to foreclose the
possibility that the proposed testing may produce new
material evidence that would support Petitioner’s
theory of defense and raise a reasonable probability
that he is actually innocent. That is all that Act 1780
requires, and the Arkansas Supreme Court’s
construction renders post-conviction remedies
accessible through exculpatory DNA results
unavailable in violation of Petitioner’s right to due
process of law.

9

See supra note 3; App.-55a-56a (Hart, J., dissenting).

29
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
BARRY C. SCHECK
JANE PUCHER
Counsel of Record
bscheck@innocenceproject.org
jpucher@innocenceproject.org
THE INNOCENCE PROJECT
40 Worth St., Ste. 701
New York, NY 10013
646-277-8327

July 15, 2020

JON M. SANDS
Federal Public Defender
DALE A. BAICH
KENDRA N. LIVINGSTON
JENNIFER M. MORENO
dale_baich@fd.org
kendra_livingston@fd.org
jennifer_moreno@fd.org
850 West Adams Street
Phoenix, Arizona 85007
(602) 382-2816

Counsel for Petitioner
Stacey Eugene Johnson

APPENDIX

1a
FORMAL ORDER
STATE OF
ARKANSAS,
SUPREME COURT

)
)
) SCT.
)

BE IT REMEMBERED, THAT A SESSION
OF THE SUPREME COURT BEGUN AND HELD IN
THE CITY OF LITTLE ROCK, ON FEBRUARY 20,
2020,
AMONGST
OTHERS
WERE
THE
FOLLOWING PROCEEDINGS, TO-WIT:
SUPREME COURT CASE NO.
CR-18-700
STACEY EUGENE JOHNSON
V. APPEAL FROM SEVIER
COUNTY CIRCUIT COURT 67CR-93-54
STATE OF ARKANSAS

APPELLANT

APPELLEE

APPELLANT’S PETITION FOR REHEARING
IS DENIED. HART AND WYNNE, JJ., DISSENT.
SEE OPINION AND DISSENTING OPINIONS
THIS DATE. APPELLANT’S MOTION TO STAY
THE MANDATE IS DENIED. HUDSON, HART,
AND WYNNE, JJ., WOULD GRANT.
IN TESTIMONY, THAT THE ABOVE IS A
TRUE COPY OF THE ORDER OF SAID SUPREME
COURT, RENDERED IN THE CASE HEREIN
STATED, I, STACEY PECTOL, CLERK OF SAID
SUPREME COURT, HEREUNTO SET MY HAND
AND AFFIX THE SEAL OF SAID SUPREME
COURT, AT MY OFFICE IN THE CITY OF LITTLE
ROCK, THIS 20TH DAY OF FEBRUARY, 2020.

2a

BY:
DEPUTY CLERK
ORIGINAL TO CLERK (W/COPY OF OPINIONS)
CC:

BRYCE BENJET
ERIN CASSINELLI
PAMELA RUMPZ, SENIOR ASSISTANT
ATTORNEY GENERAL
HON. CHARLES A. YEARGAN, CIRCUIT
JUDGE (W/COPY OF OPINIONS)

3a
MANDATE
AFFIRMED
PROCEEDINGS OF
DECEMBER 12, 2019
SUPREME COURT CASE
NO. CR-18-700
STACEY EUGENE JOHNSON
APPELLANT
V. APPEAL FROM SEVIER
COUNTY CIRCUIT COURT
(67CR-93-54)
STATE OF ARKANSAS
APPELLEE
THIS POST CONVICTION CRIMINAL
APPEAL WAS SUBMITTED TO THE ARKANSAS
SUPREME COURT ON THE RECORD OF THE
SEVIER COUNTY CIRCUIT COURT AND BRIEFS
OF THE RESPECTIVE PARTIES. AFTER DUE
CONSIDERATION, IT IS THE DECISION OF THE
COURT THAT THE JUDGMENT OF THE CIRCUIT
COURT IS AFFIRMED.
BAKER, J., CONCURS. HART AND WYNNE,
JJ., DISSENT.
IN TESTIMONY, THAT THE ABOVE IS A
TRUE AND CORRECT COPY OF THE JUDGMENT
OF THE ARKANSAS SUPREME COURT, I, STACEY
PECTOL, CLERK, SET MY HAND AND AFFIX MY
OFFICIAL SEAL, ON THIS 20TH DAY OF
FEBRUARY, 2020.

4a
SUPREME COURT OF ARKANSAS
No. CR-18-700
§
§
§
STACEY EUGENE
§
JOHNSON,
§
APPELLANT,
§
§
§
V.
§
STATE OF ARKANSAS, §
APPELLEE
§
§
§
§
§

Opinion Delivered:
February 20, 2020
APPEAL FROM THE
SEVIER COUNTY
CIRCUIT COURT
[NO. 67CR-93-54]
HONORABLE
CHARLES A.
YEARGAN, JUDGE
PETITION FOR
REHEARING DENIED.

SHAWN A. WOMACK, ASSOCIATE JUSTICE
Stacey Johnson seeks rehearing of our decision
affirming the circuit court’s denial of his petition for
postconviction DNA testing under Act 1780. See
Johnson v. State, 2019 Ark. 391. Because Johnson’s
petition for rehearing fails to comport with the
requirements set forth in Arkansas Supreme Court
Rule 2-3(g), we must deny his petition.
A petition for rehearing is limited to calling
attention to specific errors of law or fact within the
original opinion. See Ark. Sup. Ct. R. 2-3(g) (2018). A
petition should not merely repeat arguments already
considered by this court. Id. Nor should it include
new arguments not presented in the original briefing.
Id. Indeed, any repetitive or newly raised arguments

5a
within the petition will simply not be considered. See
MacKool v. State, 2012 Ark. 341, at 2 (per curiam).
This is true even when the newly raised arguments
are of constitutional dimension. See, e.g., McArty v.
Hobbs, 2012 Ark. 306, at 2 (per curiam).
The issues on appeal were limited to Johnson’s
satisfaction of the statutory predicates for scientific
testing under Act 1780 and the admissibility of
proffered testimony regarding the reliability of
eyewitness identifications. See Johnson, 2019 Ark.
391, at 8. We affirmed the circuit court’s conclusion
that the proposed testing could not raise a reasonable
probability that Johnson did not murder Carol Heath.
Id. at 14. Johnson’s failure to meet this statutory
requirement under Act 1780 precluded testing as a
matter of law. Id. at 9. We also held that the proffered
eyewitness identification testimony exceeded the
scope of our mandate and was procedurally barred
from consideration. Id. at 15.
To support his petition for rehearing, Johnson
reiterates the exact arguments that were considered
and rejected on appeal. And, for the first time in this
case, Johnson contends that his claims implicate a
right to due process and access to the courts under the
United States Constitution. The entirety of his
petition thus falls outside of the scope of rehearing
under Rule 2-3(g). See MacKool, 2012 Ark. 341, at 2.
We will not consider the merits of his repetitive claims
or his novel constitutional arguments that were raised
for the first time in this petition. Our original opinion
stands.
Petition for rehearing denied.
HART and WYNNE, JJ., dissent.

6a
SUPREME COURT OF ARKANSAS
No. CR-18-700
§
§
§
STACEY EUGENE
§
JOHNSON
§
APPELLANT
§
§
V.
§
§
STATE OF ARKANSAS §
APPELLEE
§
§
§
§
§

Opinion Delivered:
February 20, 2020
APPEAL FROM THE
SEVIER COUNTY
CIRCUIT COURT
[NO. 67CR-93-54]
HONORABLE
CHARLES A.
YEARGAN, JUDGE
DISSENTING
OPINION.

JOSEPHINE LINKER HART, ASSOCIATE JUSTICE
Johnson’s petition for rehearing is valid and
meritorious. Petitions for rehearing are proper to call
attention to errors of fact and errors of law, and as
Johnson’s petition points out, the majority’s original
opinion contains many of both. Furthermore, I object
to the majority’s insinuation that Johnson’s petition
for rehearing contains a new argument raised “for the
first time in this case,” namely that “his claims
implicate a right to due process and access to the
courts under the United States Constitution.” Maj.
Op. at 2. The majority, aiming to justify a procedural
bar, makes it sound as if Johnson is impermissibly
presenting an entirely new and separate argument for
the first time in his petition for rehearing. This

7a
representation is incorrect, misapprehends the nature
of Johnson’s petition for rehearing, and perpetuates
the very constitutional violations of which Johnson
complains.
Johnson initiated this litigation by filing in the
circuit court his motion for postconviction scientific
testing. The requirements for such motions are set
out in Ark. Code Ann. §§ 16-112-201 et seq., and
nowhere in that statutory framework is there a
requirement that the movant allege or otherwise
demonstrate that a refusal to allow testing would
violate the movant’s constitutional rights. In other
words, a constitutional violation was never part of
Johnson’s burden of proof under the statute, and there
was nothing to implicate such considerations when
Johnson’s motion was filed. However, after the State
filed a response opposing Johnson’s motion for testing,
Johnson filed a reply making clear that to bar him
from accessing the testing procedures would violate
his constitutional rights. Under a heading labeled “A
FAILURE TO GRANT DNA TESTING ... WOULD BE
A FLAGRANT AND IRREVERSIBLE VIOLATION
OF MR. JOHNSON’S RIGHT TO DUE PROCESS,”
Johnson’s reply apprised the circuit court as follows:
Preventing Mr. Johnson from having the
opportunity to conduct DNA testing on
the requested items and prove his
innocence claims violates the very notion
of “fundamental fairness” and denies
him due process.
As the State of
Arkansas has created a clear statutory
procedure through which convicted
persons can obtain DNA testing and then
utilize exculpatory results from that

8a
testing to prove their innocence, the
processes employed by the State for
obtaining access to DNA must remain
fundamentally fair. See Dist. Attorney’s
Office for Third Judicial Dist. v. Osborne,
557 U.S. 52, 69 (2009).
...
Mr. Johnson can only access these forms
of relief—which in this case would not
only exonerate him, but save his life—if
this court grants his request to test the
requested items of evidence.
Obviously, this aspect of Johnson’s argument is
“responsive” to a potential outcome—if Johnson’s
efforts to demonstrate his innocence here were denied
by simply refusing to allow him access to the testing
procedures, that would be fundamentally unfair and
violate Johnson’s constitutional rights. The circuit
court was inescapably apprised of this issue when it
later held that Johnson had failed to satisfy the
statutory prerequisites for testing.
The same was true of this court when it issued
its majority opinion affirming the circuit court’s denial
of Johnson’s motion. In the jurisdictional statement
of his opening brief on appeal, Johnson provided as
follows:
The appeal involves questions of
substantial public interest: the statutory
right to DNA testing where the results
could prove Appellant’s actual innocence
and critically undermine the legitimacy
of the conviction and resulting death

9a
sentence imposed by the State of
Arkansas. Further, should DNA testing
reveal Appellant’s actual innocence,
Appellant’s [Fifth] and [Fourteenth]
Amendment rights, and rights under
article 2, sections 3 and 8 of the Arkansas
Constitution,
would
have
been
compromised.
In other words, while the focus of the litigation
thus far has been upon whether Johnson satisfied
the prerequisites to obtain testing set out in Ark.
Code Ann. §§ 16-112-201 et. seq.—obviously because
that is the statutory vehicle through which Johnson
must pursue this relief—the constitutional
implications of denying Johnson’s request have
always been known.
Regardless of whether the majority realizes it,
Johnson’s petition for rehearing complains of a
constitutional violation that occurred at the appellate
level, i.e., this court. By refusing to engage in a
reasonable application of law and by refusing to
acknowledge the obvious significance of material
evidence, this court violated Johnson’s constitutional
rights to due process and access to the courts.
I dissent.

10a
SUPREME COURT OF ARKANSAS
No. CR-18-700
§
§
§
STACEY EUGENE
§
JOHNSON,
§
APPELLANT,
§
§
§
V.
§
STATE OF ARKANSAS, §
APPELLEE
§
§
§
§
§

Opinion Delivered:
February 20, 2020
APPEAL FROM THE
SEVIER COUNTY
CIRCUIT COURT
[67CR-93-54]
HONORABLE
CHARLES A.
YEARGAN, JUDGE
DISSENTING
OPINION.

ROBIN F. WYNNE, ASSOCIATE JUSTICE
I would grant Johnson’s petition for rehearing.
As set out in my dissenting opinion, the proposed
testing could significantly advance his claim of
innocence. See Johnson v. State, 2019 Ark. 391, ___
S.W.3d ___ (Wynne, J., dissenting).

11a
SUPREME COURT OF ARKANSAS
No. CR-18-700
§
§
§
STACEY EUGENE
§
JOHNSON,
§
APPELLANT,
§
§
§
V.
§
STATE OF ARKANSAS, §
APPELLEE
§
§
§
§

Opinion Delivered:
December 12, 2019
APPEAL FROM THE
SEVIER COUNTY
CIRCUIT COURT
[NO. 67CR-93-54]
HONORABLE
CHARLES A.
YEARGAN, JUDGE
AFFIRMED.

SHAWN A. WOMACK, ASSOCIATE JUSTICE
Stacey Johnson was twice convicted and
sentenced to death for the 1993 murder of Carol
Heath. Johnson has challenged his conviction on
direct appeal, in state postconviction proceedings, and
on federal habeas review. All of his challenges have
ultimately proven unsuccessful. Now, Johnson seeks
DNA testing of twenty-six pieces of evidence. He
contends the results of the proposed testing could
possibly exonerate him. The court is authorized to
order testing only under certain specified conditions.
See Ark. Code Ann. §§ 16-112-201—208 (Repl. 2016)
(“Act 1780”). The circuit court concluded that Johnson
failed to meet the predicate requirements for testing
and denied his request. We affirm.

12a
I.
A.
On the morning of April 2, 1993, Carol Heath
was found dead on the living room floor of her
DeQueen duplex. She was lying in a pool of blood,
dressed only in a white shirt that had been wadded up
around her neck. Her throat had been sliced through
one-quarter inch into her spine, completely severing
her windpipe, strap muscles, and the major arteries
and veins in her neck. But that was not the sole cause
of her death. Heath had also been strangled and
sustained blunt force head injuries. The defensive
wounds scattered across her arms and legs suggested
that she tried to resist her attacker. Bite marks were
found on each breast.
A small contusion was
discovered near the vaginal area that was consistent
with, but not conclusive of, sexual assault.
Heath’s two children were also in the home that
night: Ashley, six years old, and Jonathan, age two.
They were in the bedroom when Heath’s body was
discovered by her sister-in-law, Rose Cassady. After
police removed the children through the bedroom
window, Ashley told Cassady that “a black man broke
in last night.”
A few hours later, Ashley was interviewed by
Arkansas State Police Investigator Hayes McWhirter.
She told McWhirter that a black male with a “girl
sounding name” had come over that night. He wore a
“black hat with something hanging down in the back,”
a green shirt, and a sweater. According to Ashley, the
man told Heath he had just been released from jail
and was mad at Heath for dating Branson Ramsey.

13a
She saw the man and her mother fighting. Ashley
then saw Heath lying on the floor bleeding, while the
man stood next to Heath with a knife in hand. After
the interview, Ashley twice identified Johnson—an
African American male—from a line-up of seven
photographs.
Prior to Heath’s murder, Johnson lived in
Albuquerque, New Mexico. He came to DeQueen in
January 1993 to attend his father’s funeral. While in
town, Johnson met Ramsey, who was dating Heath at
the time. He followed Ramsey to a party at Heath’s
apartment. According to Shawnda Flowers Helms,
Heath’s friend, Johnson asked both women if they
would date him and transport drugs for him. They
refused and told him they did not date black men.
Soon thereafter, Johnson approached the women at
Ramsey’s social establishment. He again asked them
to date him and transport drugs. They again refused.
Helms testified that Johnson appeared angry each
time they rejected him.
Johnson was soon arrested for being a felon in
possession of a firearm. He was incarcerated in the
Sevier County jail from February 1993 until April 1,
1993. Steve Hill, a fellow inmate, testified that
Johnson talked about meeting Heath through Ramsey
and his plans to see her when he was released.
According to Hill, Johnson also stated that “when he
got out, he was going to have sex with the first woman
he ran into.” The day before his release, Johnson
spoke about Heath with another inmate, Bobby Ray
Wilkinson. Johnson told Wilkinson that he had
“fucked her a time or two.” Wilkinson knew Heath
and did not believe him. So, Wilkinson asked him to
describe the inside of her apartment, which he did.

14a
Before Johnson was released the following afternoon,
he told Wilkinson that “he was going to go see [Heath]
and he was going to fuck her again when he got out.”
On April 1, Johnson was released from jail at
2:00 p.m. He was the only African American male
released from the Sevier County jail between March
14 and April 2 that year. After his release, Johnson
went to his stepmother’s home. She gave him a white
t-shirt that had belonged to his father. When Johnson
left that evening, he was wearing a black “do rag,” a
green shirt, and a jacket. He told her that he planned
to stay the night with a white girl who had two young
children.1 Heath’s body was found the next morning.
Three days after Heath’s murder, her purse was
discovered by a local resident at a roadside park
between DeQueen and Horatio. Police examined the
area and found a green pullover shirt, a white t-shirt,
and a towel. A partially smoked cigarette was found
in the pocket of the green shirt. Johnson’s stepmother
later testified that the white shirt looked like the one
she had given him on April 1. She also recognized the
green shirt as the one Johnson wore when she last saw
him that evening. Testing revealed that the blood on
the shirts and towel was consistent with Heath’s
DNA. Saliva on the cigarette was consistent with
Johnson’s DNA, as were several African American
hairs found on and around Heath’s body. This
scientific evidence connected Johnson to both crime
scenes.
Johnson was arrested several days later in
Albuquerque after providing false identification

1

Carol Heath is Caucasian.

15a
during a traffic stop. He offered the arresting officers
$5,000 each to release him. At the station, Johnson
gave his true identity and confessed to one officer that
he killed someone in Arkansas and had a warrant out
for his arrest. He was soon extradited to Arkansas
and stood trial for capital murder.
B.
Johnson was first convicted of capital murder
and sentenced to death in 1994. Because Ashley was
found not competent to testify, the trial court allowed
Officer McWhirter to read her prior statement and
testify to her identification of Johnson. On appeal, we
held that Ashley’s identification was not admissible
under the excited utterance exception to the hearsay
rule. See Johnson v. State, 326 Ark. 430, 934 S.W.2d
179 (1996) (Johnson I). We reversed and ordered a
new trial.
Johnson was re-tried in 1997. This time,
Ashley was competent to testify. New STR-DNA
testing had also been conducted on the partially
smoked cigarette, the green shirt, and the African
American hairs.
Under the new testing, the
probability of the saliva on the cigarette belonging to
anyone other than Johnson decreased to one in 28
million African Americans. See Johnson v. State, 356
Ark. 534, 543, 157 S.W.3d 151, 159 (2004) (Johnson
III). The testing also showed that the African
American hairs found on and around Heath’s body
were consistent with Johnson’s DNA and would occur
in one of 720 million African Americans. See Johnson
v. State, 366 Ark. 390, 392, 235 S.W.3d 872, 873 (2006)
(Johnson IV). The probability that the blood on the

16a
green shirt belonged to Heath was similarly bolstered.
Id.
Nevertheless,
Johnson
maintained
his
innocence. He alleged that another person, namely
Ramsey, murdered Heath. But the jury was not
convinced. Johnson was once again convicted of
Heath’s murder and sentenced to death.
The
conviction was affirmed on direct appeal. See Johnson
v. State, 342 Ark. 186, 27 S.W.3d 405 (2000) (Johnson
II).
Johnson unsuccessfully sought postconviction
relief under Rule 37. See Johnson III, 356 Ark. 534,
157 S.W.3d 151. He also moved for DNA testing under
Act 1780. Johnson sought testing of a number of
Caucasian hairs, retesting of the partially smoked
cigarette, and retesting of some African American
hairs. We ordered retesting only on the latter. Id.
That decision was made under the mistaken belief
that the hairs had not been tested since the 1994 trial.
See Johnson IV, 366 Ark. at 394, 235 S.W.3d at 87475. On remand, the circuit court held that new testing
had been performed prior to the 1997 trial. Id. As
mentioned above, the hairs were consistent with
Johnson’s DNA in a pattern that would occur in one of
720 million African Americans. Id. We affirmed the
court’s refusal to conduct further testing.
Id.
Johnson’s pursuit of federal habeas relief was equally
unavailing. See Johnson v. Norris, 537 F.3d 840 (8th
Cir. 2008), cert. denied, 555 U.S. 1182 (2009).
The State of Arkansas subsequently scheduled
Johnson’s execution for April 20, 2017. Three weeks
before his execution date, Johnson sought a recall of
our mandate or, alternatively, permission to seek
error coram nobis relief. He also requested a stay of

17a
execution. In his petition, Johnson again sought
testing of the Caucasian hairs. He alleged the testing
would show that Ramsey, who died in 1998, was
responsible for Heath’s death. We denied his petition.
Days later, Johnson filed the underlying
petition for postconviction DNA testing in the circuit
court. He claimed the proposed testing might reveal
DNA belonging to Ramsey or some other identified
man, which could undermine the prosecution’s case or
exonerate him. He sought testing of twenty-six pieces
of evidence. The evidence can be broadly categorized
into three groups: (1) evidence of an alleged sexual
assault2; (2) evidence from the roadside park3; and (3)
evidence on and around Heath’s body.4 The court
denied his request, concluding that he failed to meet
the predicate requirements under Act 1780. We
stayed the execution and remanded the case for an
evidentiary hearing on the motion for postconviction
DNA testing. See Johnson v. State, 2017 Ark. 138
(Johnson V).

2

The alleged sexual assault evidence includes: the rape kit;
pubic hair; a douche bottle and condom box found in the
bathroom; and swabs taken from liquid found under Heath’s
body.

3

The roadside park evidence includes: the white and green
shirts; a towel; Caucasian hairs found on both shirts and the
towel; and Heath’s purse and its contents.

4

This includes: breast swabs; Heath’s nail clippings; bags used
to cover Heath’s hands while transporting her body; a pair of
underwear found near Heath’s body; a towel found in the
house and a Caucasian hair on the towel; Heath’s white shirt
and a Caucasian hair found on it; a washcloth; and tissue
paper found near Heath’s body.

18a
At the hearing, Johnson offered evidence on
three
testing
methodologies:
touch
DNA,
mitochondrial DNA, and Y-STR DNA. He also
proffered the testimony of Dr. Margaret Kovera, an
alleged eyewitness identification expert, regarding
the reliability of eyewitness identifications. The
circuit court again found that Johnson had not
satisfied the requirements for testing under Act 1780.
The court also declined to consider Dr. Kovera’s
testimony. It is from this ruling that Johnson now
appeals.
II.
Johnson submits three issues for our review.
He first contends that the circuit court erroneously
held that he failed to meet the predicate requirements
for scientific testing under Act 1780. Johnson also
challenges the circuit court’s conclusion that the
proposed testing would not produce new material
evidence sufficient to raise a reasonable probability of
his actual innocence. Given that we must necessarily
consider the second issue in our analysis of the first,
we will examine the issues together. Johnson’s final
point on appeal asks whether the circuit court abused
its discretion by refusing to admit Dr. Kovera’s
testimony. For reasons explained below, we decline to
consider this argument.
Our review today is limited to whether Johnson
satisfied the predicate conditions for scientific testing
under Act 1780. We will not reverse a denial of
postconviction DNA testing under Act 1780 unless the
circuit court’s findings are clearly erroneous. See
McClinton v. State, 2017 Ark. 360, at 3-4, 533 S.W.3d
578, 580. A finding is clearly erroneous when,

19a
although there is evidence to support it, the appellate
court after reviewing the entire evidence is left with
the definite and firm conviction that a mistake has
been committed. Id. With this in mind, we proceed to
the merits of this appeal.
A.
There is no question that the “advent of DNA
technology is one of the most significant scientific
advancements of our era.” Maryland v. King, 569 U.S.
435, 442 (2013). Recognizing the potential of this
technology, the Arkansas General Assembly adopted
Act 1780 of 2001, as amended by Act 2250 of 2005, to
provide a remedy for innocent persons who may be
exonerated by new scientific evidence. See Act of Apr.
19, 2001, No. 1780, 2001 Ark. Acts 7737. Act 1780
provides that a writ of habeas corpus can issue based
on new scientific evidence proving the actual
innocence of a wrongfully convicted person. See Ark.
Code Ann. § 16-112-201(a)(1).
At the same time, the statutory scheme was
“not meant to do away with finality in judgments.”
Johnson III, 356 Ark. at 549, 157 S.W.3d at 163. As
the United States Supreme Court has explained,
“[w]here there is enough other incriminating evidence
and an explanation for the DNA result, science alone
cannot prove a prisoner innocent. The availability of
technologies not available at trial cannot mean that
every criminal conviction, or even every criminal
conviction involving biological evidence, is suddenly in
doubt.” District Attorney’s Office for Third Judicial
Dist. v. Osborne, 557 U.S. 52, 62 (2009) (internal
citation omitted). To that end, postconviction testing
is authorized only under specified conditions. See Ark.

20a
Code Ann. §§ 16-112-201 to -203. The petitioner bears
the burden of establishing that each condition is
satisfied. See McClinton, 2017 Ark. 360, at 5, 533
S.W.3d at 581. Failure to meet any one condition
precludes scientific testing as a matter of law. See
Hall v. State, 2017 Ark. 77, at 3, 511 S.W.3d 842, 843
(per curiam).
Act 1780 preconditions the availability of DNA
testing on, among other things, the petitioner’s
identification of a theory of defense that would
establish his actual innocence. See Ark. Code Ann. §
16-112-202(6)(B). The petitioner must also show that
the proposed testing may produce new material
evidence that would support his theory and raise a
reasonable probability that he did not commit the
offense. See Ark. Code Ann. § 16-112-202(8). In other
words, Act 1780 does not permit testing of evidence
based on a mere assertion of innocence or a theoretical
possibility that additional testing might alter the
outcome of a trial. See Martin v. State, 2018 Ark. 176,
at 3, 545 S.W.3d 763, 765. We have consequently held
that testing is authorized only if it can provide
materially relevant evidence that will significantly
advance the petitioner’s claim of innocence in light of
all evidence presented to the jury. See McClinton,
2017 Ark. 360, at 5, 533 S.W.3d at 581.
Johnson claims that another man, possibly
Branson Ramsey, murdered Carol Heath. Should the
proposed testing reveal DNA belonging to Ramsey or
another male, Johnson claims it would cast
substantial doubt on the prosecution’s theory and
raise a reasonable probability of his actual innocence.
The circuit court disagreed. It noted that the proposed
testing “may produce evidence that would support a

21a
theoretical defense, as it would in almost every case.”
Yet, the court determined the testing would not
produce evidence that would raise a reasonable
probability of Johnson’s innocence or a third-party’s
guilt. It found that Johnson’s defense was “based
solely upon his own assertion of innocence and his
attack upon the credibility of Ashley Heath[.]”
Finding the scientific and testimonial evidence
presented at trial “overwhelmingly pointed” to
Johnson’s guilt, the court concluded that Johnson
failed to satisfy section 16-112-202(8).
We cannot say that these findings were clearly
erroneous. We agree with the circuit court that the
proposed testing could not raise a reasonable
probability that Johnson did not commit the offense.
As other courts have done in finding that a petitioner
failed to satisfy an identical “reasonable probability”
requirement, we note the significant evidence tying
Johnson to the murder.5 See United States v. Jordan,
594 F.3d 1265, 1268 (10th Cir. 2010); United States v.
Pitera, 675 F.3d 122, 129 (2d Cir. 2012); United States
v. Cowley, 814 F.3d 691, 700 (4th Cir. 2016). This is
not the same as considering the sufficiency of the
evidence on direct appeal. Indeed, the “reasonable
probability” requirement may be met when favorable
testing results would cause a “strong case” against the
petitioner to “evaporate.” United States v. Fasano,
577 F.3d 572, 578 (5th Cir. 2009). But where, like

5

In 2005, the legislature amended Act 1780 so that the
provisions are substantially identical to the federal Justice
for All Act of 2004, codified at 18 U.S.C. § 3600. The
conditions within Ark. Code Ann. §§ 16-112-202(6) and 202(8) are identical to those at 18 U.S.C. §§ 3600(a)(6) and
3600(a)(8).

22a
here, the “presence or absence of the [petitioner’s]
DNA would not show actual innocence, there is no
reason to test for it.” United States v. Watson, 792
F.3d 1174, 1180 (9th Cir. 2015).
The dissent suggests that we reevaluate and
reweigh the credibility of evidence presented at trial.
This approach is flatly inconsistent with the statutory
requirements in Act 1780 and dismisses the role of
this court on appellate review. The proposed analysis
would require substituting our judgment for the jury,
which is simply not our role. See, e.g., Smoak v. State,
2011 Ark. 529, at 6, 385 S.W.3d 257, 261. The dissent
would effectively relieve Johnson of the burden to
satisfy the conditions for testing under Act 1780.
Conversely, the State would be placed in the
untenable position of overcoming a presumption in
favor of testing. The State would also be required to
defend the evidence at trial against the court’s
speculative credibility assessments made in place of
the jury. We reject this approach.
Turning now to our analysis, we fail to see how
the presence of another male’s DNA on the evidence
would raise a reasonable probability of Johnson’s
innocence. We have previously determined that the
Caucasian hairs were not materially relevant to
Johnson’s claim of actual innocence. See Johnson III,
356 Ark. at 548, 157 S.W.3d at 162. As we explained
in Johnson III, the prosecution stipulated that
Johnson was not the donor of the Caucasian hairs. Id.
The jury was, therefore, aware that hairs belonging to
someone other than Johnson had been found. Yet the
jury still convicted him. Id. This analysis remains
true and is applicable to other evidence. Just as the
jury heard about the Caucasian hairs, it heard

23a
Johnson’s theory that Ramsey murdered Heath. And
it heard that Johnson was excluded from the DNA
found on the breast swabs and on the white shirt from
the roadside park.6 Even so, the jury still convicted
Johnson.
Even assuming the proposed testing revealed
DNA belonging to Ramsey, there is a logical
explanation for its presence on much of the evidence.
Many of the twenty-six pieces of evidence that
Johnson wants tested would have been in Heath’s
home at some point prior to the crime. Record
evidence established that Ramsey had seen Heath the
day before she was murdered and visited her home
multiple times in the months before her death. It is
undisputed that Ramsey had engaged in a romantic
relationship with Heath. Indeed, Shawnda Flowers
Helms testified that Ramsey and Heath were dating
at the time of the murder. There would accordingly be
an innocent explanation for Ramsey’s DNA on much
of the evidence found on and around Heath’s body and
in her home.
At any rate, the presence of another male’s
DNA could not significantly advance Johnson’s claim
of innocence in light of the remaining evidence. It
simply cannot explain away the DNA evidence
directly linking Johnson to both crime scenes:
Johnson’s saliva on the partially smoked cigarette in
the pocket of the bloody green shirt at the roadside

6

In 1997, Johnson’s consulting DNA expert noted that DNA
from the breast swab and the white shirt had “additional
alleles too weak to interpret with confidence, but consistent
with alleles present in S. Johnson.” The jury was unaware of
this finding.

24a
park and his hairs discovered on and around Heath’s
body. Nor can it change that Ashley twice identified
him as the black man with a “girl sounding name” who
stood over her bleeding mother, knife in hand. It
would likewise not alter his confession to New Mexico
police, his stepmother’s testimony, or his jailhouse
bragging about Heath and his plans to see her when
he was released.
What is more, any results from the proposed
testing cannot erase the consistencies connecting
multiple pieces of evidence that point to Johnson’s
guilt. For example, Ashley stated that the black man
wore a “black hat with something hanging down in the
back,” a green shirt, and a sweater. Johnson’s
stepmother testified that on the evening of April 1,
1993, he wore a black “do rag,” a green shirt, and a
jacket. She recognized that green shirt as the one
found at the roadside park stained with Heath’s blood.
The partially smoked cigarette with Johnson’s DNA
was found in the pocket of that shirt. The green shirt
was found next to a white shirt, also covered in
Heath’s blood, that Johnson’s stepmother recognized
as one she had given him when he was released from
jail. Additionally, Ashley stated that the man told
Heath he had just been released from jail. Johnson
was the only African American male released from the
Sevier County jail from March 14, 1993, until after
Heath’s body was found. Moreover, his stepmother
testified that Johnson planned to stay that night with
a white girl with two young children. This description
fits Heath. It is also consistent with fellow inmates’
testimony that Johnson planned to see Heath when he
was released from jail. Heath was found brutally
murdered the next morning.

25a
Finally, we must respond to the dissent’s
unwarranted suggestion that the denial of testing
reflects racial bias by the State of Arkansas and a
majority of this court. Race has nothing to do with the
legal question in this case, which is whether Johnson
satisfied the predicate requirements for testing under
Act 1780. We likewise object to the dissent’s assertion
that law enforcement officers “manufactured” the
chain of custody and “swapp[ed] in” critical evidence.
Such undeserved and unsubstantiated attacks
undermine the public’s trust in the integrity of our
criminal justice system.
In sum, none of the evidence that might result
from the proposed testing could advance Johnson’s
claim of actual innocence or raise a reasonable
probability that he did not murder Carol Heath.
Because the presence or absence of Johnson’s or
another male’s DNA would not show actual innocence,
there is no reason to test for it. We need not consider
the remaining claims given Johnson’s failure to make
this predicate showing. The circuit court’s decision
denying Johnson’s request for postconviction DNA
testing is affirmed.
B.
Petitions under Act 1780 are limited to claims
related to scientific testing of evidence.
See
McClinton, 2017 Ark. 360, at 4, 533 S.W.3d at 581. A
petitioner cannot bootstrap claims falling outside the
purview of Act 1780, even for the purpose of justifying
entitlement to scientific testing. Id. This was
precisely what Johnson sought to do by offering Dr.
Kovera’s testimony about the reliability of eyewitness
identification.
Further, our mandate explicitly

26a
remanded the petition to the circuit court “for a
hearing on petitioner’s motion for postconviction DNA
testing.” Johnson V, 2017 Ark. 138. Anything more
would have exceeded the scope of our mandate. See
Lacy v. State, 2018 Ark. 174, at 6, 545 S.W.3d 746,
750. We accordingly decline to consider any argument
on this matter.
Affirmed.
BAKER, J., concurs.
HART and WYNNE, JJ., dissent.

27a
SUPREME COURT OF ARKANSAS
No. CR-18-700
§
§
§
STACEY EUGENE
§
JOHNSON,
§
APPELLANT,
§
§
§
V.
§
STATE OF ARKANSAS, §
APPELLEE
§
§
§

Opinion Delivered:
December 12, 2019

CONCURRING
OPINION.

KAREN R. BAKER, ASSOCIATE JUSTICE
Because Johnson has failed to demonstrate that
the circuit court erred, I concur with the majority
opinion.
“This court does not reverse a denial of
postconviction relief unless the circuit court’s findings
are clearly erroneous. Polivka v. State, 2010 Ark. 152,
362 S.W.3d 918. A finding is clearly erroneous when,
although there is evidence to support it, the appellate
court after reviewing the entire evidence is left with
the definite and firm conviction that a mistake has
been committed. State v. Barrett, 371 Ark. 91, 95, 263
S.W.3d 542, 545 (2007).” Sandrelli v. State, 2016 Ark.
103, at 2, 485 S.W.3d 692, 694. This same standard of
review applies when a circuit court denies DNA
testing under Arkansas Code Annotated sections 16-

28a
112-201 to -208. Carter v. State, 2015 Ark. 57, 536
S.W.3d 123.
Here, the record before us and the applicable
standard of review support our holding that Johnson
has failed to demonstrate that the circuit court’s
decision was clearly erroneous. Accordingly, I would
affirm the circuit court.

29a
SUPREME COURT OF ARKANSAS
No.: CR-18-700
§
§
§
STACEY EUGENE
§
JOHNSON,
§
APPELLANT,
§
§
§
V.
§
STATE OF ARKANSAS, §
APPELLEE
§
§
§
§
§

Opinion Delivered:
December 12, 2019
APPEAL FROM THE
SEVIER COUNTY
CIRCUIT COURT
[NO. 67CR-93-54]
HONORABLE
CHARLES A.
YEARGAN, JUDGE
DISSENTING
OPINION.

JOSEPHINE LINKER HART, ASSOCIATE JUSTICE
The majority aims to blunt the unsettling
circumstances identified herein, generalizing that this
dissent
levies
“unwarranted
suggestion(s),”
“undeserved and unsubstantiated attacks,” etc. While
I am disappointed by the majority’s response, I note
that the majority does not attempt to demonstrate the
alleged falsity or illegitimacy of even a single factual
representation contained in this opinion. Instead of
relying on hyperbole and a hand wave, this opinion
supports its conclusions by simply citing to the record.
The record can speak for itself.

30a
I. Introduction
This is a postconviction request for scientific
testing in a death-penalty case. At this point in time,
Stacey Johnson is not asking to be released from
prison. Presently, he is not even asking for a new
trial. All he is asking for is modern scientific testing
on the evidence used to convict him for the 1993
murder of Carol Heath. Act 1780, now codified at Ark.
Code Ann. §§ 16-112-201 to -208, provides for such
testing, and Johnson’s is a case in which additional
testing is not only appropriate, but necessary.
However, the majority denies Johnson’s request,
concluding that he fails to satisfy the prerequisites for
testing prescribed in Ark. Code Ann. § 16-112-202.
But the majority is only able to support its
conclusion by contending that the case against
Johnson was simply insurmountable, and any
proposed testing, therefore, would not make any
difference. The majority has essentially treated this
matter as if it were a sufficiency-of-the-evidence
appeal directly from a conviction, in which the
appellate court considers only the evidence that
supports the guilty verdict and reviews that evidence
in the light most favorable to the prosecution. See,
e.g., Hale v. State, 343 Ark. 62, 74, 31 S.W.3d 850, 857
(2000). Such is not the matter currently before this
court.
The two specific prerequisites for testing at
issue here are found in Ark. Code Ann. § 16-112-202(6)
and 202(8). Subdivision 202(6) requires the petition
for scientific testing to “identif[y] a theory of defense
that . . . [w]ould establish the actual innocence of the
person in relation to the offense being challenged[.]”

31a
(Emphasis added.) Subdivision 202(8) requires the
petition to show that
[t]he proposed testing of the specific
evidence may produce new material
evidence that would . . . [s]upport the
theory
of
defense
described
in
subdivision (6) (and) . . . [r]aise a
reasonable
probability
that
the
person . . . did not commit the offense[.]
(Emphasis added.) Read together, subdivision 202(6)
requires Johnson to “identify” a theory of actual
innocence, and subdivision 202(8) requires Johnson to
show how the testing “may” produce new evidence
that would “support” that theory and show a
“reasonable probability” that he did not kill Carol
Heath.
There can be no legitimate answer to these
questions without an objective assessment of the
relevant evidentiary circumstances of Johnson’s case,
including the reliability of the evidence used to convict
him. There is no other way this court could determine
whether the proposed testing may show a “reasonable
probability” of Johnson’s innocence. Instead, the
majority selectively quotes from disputed testimony
by State witnesses and altogether ignores glaring
issues related to the investigation and prosecution of
this crime, ultimately concluding that Johnson fails to
satisfy subdivisions 202(6) and 202(8). But as set
forth below, in this particular case, there is reason to
question the reliability of much of the evidence and
testimony used against Johnson. Additionally, there
are numerous highly probative evidentiary items that
inexplicably have never been subjected to scientific

32a
testing, but obviously need to be. Our inquiry
necessarily must account for such circumstances.
Accordingly, the majority opinion’s explanation
of the evidence and the investigation of this crime will
need to be supplemented at various points in this
opinion. Even if a citizen is under a death sentence,
the least he deserves is a complete and objective
characterization of his case. Both sides of the issues
must be acknowledged. The finality of the penalty
Johnson is set to receive cannot be understated, and
as Justice Wynne observed at oral argument in this
case, “we have to get this right.” A fair analysis shows
that the requirements for postconviction scientific
testing have been satisfied.
II. Ark. Code Ann. § 16-112-202(6)––Theory of
Innocence
There should be no dispute that Johnson has
adequately “identified” a “theory” of innocence,
satisfying subdivision 202(6). Johnson’s theory is as
follows: while he and Carol Heath had engaged in
consensual sexual acts both before and on the night of
the murder, he did not kill her; instead, Johnson left
Heath’s apartment to return to New Mexico that
evening (without having killed Heath or anyone else),
and someone else committed the murder.
It should be noted that this is not some novel
claim Johnson conjured up at the last minute to delay
his death sentence. After Johnson was arrested for
Heath’s murder, he was interviewed by a clinical
psychologist on March 8, 1994, to confirm he was
competent to stand trial. The psychologist’s report
from that interview is included in the record. The

33a
“version of alleged offense” that was elicited from
Johnson and included in the psychologist’s report
(over twenty-five years ago) is as follows:
Mr. Johnson was asked about the alleged
offense and he denied killing anyone. He
said some little girl picked his picture but
“I haven’t killed no one.” He said he met
the victim Carol Heath in January. He
claims he and his friends took cocaine to
her and they all snorted the drug. He
said she “gave us head.” He said shortly
after he met Ms. Heath he was arrested
for possession of a firearm. He was in the
DeQueen County jail until he said he was
released on April 1, 1993. He said when
he was released from jail he intended to
leave for New Mexico that day. He said
before he left he wanted to “party and we
were kicking it.” He said he saw Ms.
Heath at a party doing drugs. He said he
left with her and another couple to go to
her house. Once at Mrs. Heath’s house
the other couple was in another room.
He said he was having sexual foreplay
with Ms. Heath. He said a man knocked
on the door asking the victim for “his
stuff.” He said he had an altercation
with the man and they exchanged words.
He left Ms. Heath’s house and this
individual stayed there. He claims he
left at that time and drove to New
Mexico. He said after a week in New
Mexico “a chick I know told me I had a
warrant out for murder.” He said he was
loaded on drugs at the time but was

34a
arrested in New Mexico. He would not
sign for extradition and in late 1993 he
was finally transferred to DeQueen,
Arkansas.
Subdivision 202(6) requires only that Johnson
“identify” a theory of innocence. While the theory
stated above is sufficient to satisfy this basic
requirement, some of the factual circumstances that
would support this theory can be more seamlessly
relayed here. There are additional circumstances
(also not addressed in the majority opinion) that will
need to be supplemented in the subdivision 202(8)
analysis.
First, much of the evidence in this case points
to a white perpetrator. It is important to note that an
“inch-and-a-half red beard hair” was found in the
victim’s hand at the first crime scene. The majority
heavily relies on the proposition that hairs recovered
at the first crime scene (one from just under the
victim’s left breast, two from the floor near her body,
and one from a bedsheet inside her apartment) have
since been matched to Johnson’s genetic profile
through older forms of scientific testing. However,
Johnson, a black man with dark hair, obviously did
not shed the red beard hair. In fact, there were
numerous Caucasian hairs, dissimilar to the those of
the victim, found at both the first crime scene (Heath’s
apartment) and the second crime scene (a wooded area
where Heath’s purse and several other items were
found), which was discovered a few days later.
For example, a Caucasian hair, dissimilar to
those of the victim, was recovered from the bloodsoaked towel found on the floor by the victim’s head.

35a
Another was recovered from the toilet paper found on
the floor beneath the victim’s genital area. Another
was found on the floor beneath the victim’s body.
Three such hair fragments were recovered from a
washcloth found in a paper sack inside the bathroom
at Heath’s apartment, which was “possibly used by
suspect” to wipe down the crime scene, according to
the investigator who collected that evidence. Two
such hairs were recovered from the green shirt found
at the second crime scene. Another was recovered
from the white T-shirt found at the second crime
scene. Another was recovered from the towel found at
the second crime scene.
Unlike Johnson’s hairs, which are of (what the
forensic specialists referred to as) “Negroid origin” and
have since been matched to his genetic profile through
scientific testing, none of the Caucasian hairs
identified in the paragraphs above have ever been
subjected to scientific testing, despite Johnson’s
continued requests. The fact that the Caucasian hairs
have never been tested is glaring and significant.
Particularly so, since Brandon Ramsey, a white male
who either was dating the victim at the time of her
murder or was recently her ex-boyfriend, is described
as having had a “reddish brown beard” at the time of
the murder.
There
was
testimony
at
Johnson’s
postconviction Rule 37 hearing that Ramsey had been
going through a divorce and had just lost custody of
his children at a temporary hearing on the day of
Heath’s murder. The day Carol Heath’s body was
discovered, Ramsey was interviewed by the DeQueen
police. During the interview, Ramsey acknowledged
that he had seen Heath as recently as the day before

36a
she was murdered. However, the record does not
reveal any effort to match Ramsey to the
aforementioned red beard hair found in the victim’s
hand (or any of the other hairs), or that any
investigative steps were taken to develop Ramsey as a
suspect. During the interview, Ramsey also stated, “I
had Stacey Johnson arrested recently carrying a
weapon. That’s what he has been in jail for. He got
out of jail recently. I am afraid of him.”
Also relevant here is that the victim was found
with bite marks on her breasts. At trial, Johnson
sought to call Cordelia Vinyard, Ramsey’s ex-wife, to
testify as a witness in his defense, but the trial court
refused to allow her testimony. However, outside the
presence of the jury, Johnson proffered Vinyard’s
testimony for the record. In her proffered testimony,
Vinyard stated that she divorced Ramsey because he
had physically abused her, and she testified
specifically that he would bite her on her breasts.
Overall, the evidence pointing to a white
perpetrator supports Johnson’s claim that someone
else killed Carol Heath. Johnson has “identif[ied]” a
theory of innocence, and subdivision 202(6) is
satisfied.
III. Ark. Code Ann. § 16-112-202(8)––Reasonable
Probability
Subdivision 202(8) requires Johnson to show
how the proposed testing “may” produce new evidence
that would “support” his theory of innocence and show
a “reasonable probability” that he did not kill Carol
Heath. The majority concludes that Johnson could
never satisfy this prerequisite, since “any results from

37a
the proposed testing cannot erase the consistencies
connecting multiple pieces of evidence that point to
Johnson’s guilt.” (Maj. Op. at 12). In particular, the
majority points to (1) what it characterizes as
Johnson’s “confession”; (2) the testimony of Johnson’s
stepmother, Sharon Johnson, regarding the green
shirt and the white T-shirt reportedly found at the
second crime scene; (3) the testimony of the victim’s
daughter, Ashley Heath; and (4) a “cigarette butt”
with traces of Johnson’s saliva reportedly found in the
pocket of the green shirt from the second crime scene.
Before it can be determined whether Johnson has
satisfied the criteria in subdivision 202(8), the
majority’s characterization of this evidence must be
supplemented.
A. Johnson’s “Confession”
The
majority
contends
that
Johnson
“confess(ed)” to this crime, but a review of the actual
statements at issue does not support this contention.
First, the majority alludes to statements Johnson
made to fellow inmates and to his stepmother about
planning to be with Carol Heath on the day she was
murdered. But the actual testimony from those
individuals provides only that Johnson had an
existing sexual relationship with Ms. Heath and that
he intended to see her on the night of the murder.
Johnson readily admits those facts.
The only evidence in the record concerning any
alleged “confession” was Albuquerque police officer
Pacheco’s testimony claiming Johnson told him “he
had killed someone in Arkansas.” However, there is
substantial reason to doubt this characterization.

38a
First, there is no written memorialization of
any alleged confession by Johnson. While I have not
reviewed the Albuquerque Police Department’s
training manual, I imagine it instructs officers that if
a suspect confesses to murder, someone should
probably write that down and report it to superiors.
The absence of any written memorialization of
Johnson’s alleged confession undercuts the reliability
of Pacheco’s testimony on this point. Additionally,
Pacheco’s testimony was contradicted by his own
partner, Officer Bylotas, who said he did not hear
Johnson make any confession.
After Johnson was arrested by the Albuquerque
police officers, he was interviewed by Detective Foley.
The transcript from that interview is in the record,
and it contains nothing even remotely resembling a
“confession” to Heath’s murder (whether made to
Officer Pacheco or to anyone else), nor any reference
to Johnson offering his arresting officers money to let
him go, nor any allusion thereto. The transcript does
show that Johnson maintained he had never killed
anyone.
Finally, the offense report that the
Albuquerque Police Department sent to the DeQueen
Police Department is particularly illuminating. This
report details and summarizes the circumstances of
Johnson’s arrest, his interview, and the subsequent
investigative steps taken by the Albuquerque officers.
It specifically notes Officer Pacheco’s involvement in
Johnson’s arrest, yet it makes no reference
whatsoever to a confession by Johnson, nor to Officer
Pacheco reporting any such confession, nor to Johnson
offering his arresting officers money to let him go.

39a
In short, what the majority characterizes as
Johnson’s “confession” (without any further
explanation) is not borne out in the record. It
certainly is not a sufficient reason to bar Johnson’s
request for scientific testing.
B. Sharon Johnson’s Deposition Testimony
The majority intimates that Johnson’s
stepmother, Sharon Johnson, concluded that the
green shirt and the white T-shirt found at the second
crime scene were the same shirts that Johnson had
left her house with on the day of the murder. This
intimation
significantly
overstates
and
mischaracterizes Sharon’s testimony; she could not
confirm that either shirt was a match. In fact, the
transcript from her testimony reveals several details
that bolster Johnson’s request for new scientific
testing on both shirts. These details will also be
relevant to circumstances of the investigation
addressed later in this opinion.
Sharon passed away before Johnson’s first trial,
but the prosecuting attorney and Johnson’s trial
counsel took her deposition before she died, and the
transcript of that deposition was read into the record.
On direct examination, the prosecutor showed Sharon
the green shirt and the white T-shirt in evidence bags.
In response to the prosecutor’s questions, Sharon
initially thought that the white T-shirt shown to her
was the same one that belonged to Johnson’s deceased
father that she had given to Johnson on the day of the
murder. She also initially thought that the green shirt
shown to her was the same one Johnson put on at her
house (the green shirt she saw Johnson wearing was

40a
one of his own, not his father’s) on the day of the
murder.
However, on cross-examination, Johnson’s trial
counsel actually took the shirts out of the evidence
bags and showed them to Sharon. After examining
both of the shirts, Sharon realized that she had to
change her testimony. While Sharon was unable to
confirm that these shirts were definitively not the
same shirts that Johnson had left her house with on
the day of the murder, she could not confirm that they
were, either.
The white T-shirt from the evidence bag was a
size large. Regarding the size of the shirt, Sharon
testified as follows:
Q:

Now, this shirt is a Hane’s shirt. I can
tell from the label in the shirt. You can
see that or do you agree with me?

A:

Yeah.

Q:

And this is a size large. Now, are you
telling us, Sharon, that there could not
be any other Hanes T-shirts in DeQueen?

A:

No. . . . No, I’m not saying that. . . .
Because I know there’s a whole bunch of
them at Wal-Mart.

....
Q:

Okay. Now, Stacey is a large person.
Would you agree with me there?

A:

Yes.

41a
Q:

And probably to really fit him, he would
need probably an extra large or a two X,
would he not?

A:

I don’t know because he fits into all of his
dad’s clothes and I buy all of his dad’s
clothes extra – sometimes extra extra
large and sometimes just extra large,
depending on how they make them.

Q:

Okay. So most of your husband’s shirts
were extra large or two extra large?

A:

Right.

Q:

So if this shirt is a large, would that lead
you to tend to believe also that this was
not your husband’s shirt?

A:

Yeah.

Sharon did go on to acknowledge the possibility that
Johnson’s dad had some size large T-shirts, since he
had been diabetic and his weight fluctuated from time
to time. However, she nonetheless maintained that
she could not confirm that the white T-shirt then
being shown to her was the same one she gave to
Johnson, which she also specified had been a “v-neck.”
Later, DNA testing performed on the white T-shirt
taken from the second crime scene would exclude
Johnson as a contributor to the genetic profile
obtained therefrom.
Sharon could not identify the green shirt,
either. After the green shirt was removed from the

42a
evidence bag and Sharon looked it over, she testified
as follows:
Q:

Now, this shirt is the turquoise shirt that
you’ve looked at, Sharon. Now, when
Officer Godwin held it up for you a while
ago, you mentioned that the shirt Stacey
had on had pockets in the front?

A:

Yeah, it had pockets in it.

Q:

Okay. And you’re pretty sure about that?

A:

Yeah, I’m pretty sure about that.

Q:

Now, you can agree and you see here this
shirt doesn’t have any pockets?

A:

Yeah, it doesn’t have no pockets.

Q:

So basically all you can say is that when
he left the last time about quarter till
9:00 that he had a turquoise shirt on
because you can’t say this is the same
shirt, can you?

A:

No, because the one he had on had
pockets in it.

Q:

Okay. What about the sleeves, Sharon?
Do you remember what that shirt looked
like that Stacey had on?

A:

That looked like it.

43a
Q:

Now, there’s a band here and a band
here.
I don’t know whether you
remember that or not.

A:

That really looked like the shirt, though,
that he had on that he left in.

Q:

Okay. Except that you would say that it
is not the shirt because of the pocket?

A:

Right.

There are additional issues concerning the
green shirt (Sharon described the color of the shirt
Johnson put on at her house as “turquoise”) and its
pockets, or lack thereof, that should be addressed
here. While the prosecutor at Johnson’s trial stated
that the green shirt had a “slit” pocket (which is where
the cigarette butt was allegedly found—more on that
later), the two pictures of the green shirt in the record
on appeal do not clearly show that it has any pockets
at all (“slit” or otherwise). If there was a “slit” pocket
on the green shirt, Sharon plainly did not consider it
to be the same type of “pockets” (plural) that were “on
the front” of the turquoise shirt she saw Johnson
wearing on the date of the murder.
Additionally, in a police interview with
Deborah Ann Johnson, Johnson’s aunt who also saw
him on the date of the murder, Deborah stated, “He
had on a light blue shirt, like a college sweatshirt but
it had a hood and blue jeans.” Neither of the shirts
reportedly collected from the second crime scene have
a hood.
It should also be noted here that Sharon’s
deposition was not the first time the authorities spoke

44a
with her in regard to Carol Heath’s murder. Carol
Heath’s body was found the morning after Johnson
had left Sharon’s house. The police came to question
Sharon about Johnson later that very same morning.
(R. 1202, 1998 Direct Appeal). The significance of this
circumstance will be underscored in later sections of
this opinion.
Ultimately, Sharon concluded her testimony by
telling both Johnson’s attorney and the prosecutor
that while it was possible the shirts could be the same
ones she saw Johnson with the day before the murder,
she could not be sure either way. In the final exchange
with Johnson’s attorney, Sharon testified:
Q:

Okay. And, of course, [the prosecutor]
asked you a lot of questions about these
shirts, too, because they are important.
You told (the prosecutor) that you can’t
say that they are not the shirts. They
look like them, but at the same time you
can’t positively identify them either, can
you, Sharon?

A:

No. I know that. All I know is he came
in here with the turquoise shirt on.

Q:

Okay. These shirts you’ve looked at are
similar, but there are also some
differences you told us about?

A:

True.

And in the final exchange with the prosecutor, Sharon
testified:

45a
Q:

Just one more, [Sharon]. These shirts
can be the same ones that he had on; is
that correct?

A:

They could be.

Q:

Okay.

Overall, Sharon’s conclusions about the shirts were
entirely equivocal.
They certainly are not so
overwhelming as to bar Johnson’s petition for
scientific testing.
C. Ashley Heath’s Testimony
The majority emphasizes that the victim’s
daughter, Ashley Heath, identified Johnson as the
murderer. At trial, Rose Cassady, Carol Heath’s
sister-in-law, testified that when she first made
contact with Ashley through the window of Heath’s
apartment, Ashley told her, “A black man broke in last
night.” During Ashley’s testimony, she never stated
that she saw Johnson kill Heath. However, in
response to questions from the prosecutor, Ashley did
state that Johnson had come by the apartment earlier
that day; that she woke up in the middle of the night;
that she left her room to get a drink of water; that she
saw “mom and him were pushing each other”; that she
went back to her mother’s room and put her younger
brother in the closet; that she then came back out and
saw Johnson “on top of (Heath);” that she then went
back into the closet; and that later when she came
back out, Heath was “in the living room with blood all
over her.” She also testified that Johnson is the
person whose picture she had picked out of a photo
lineup during an interview with Officer McWhirter.

46a
At the hearing on Johnson’s petition for
postconviction scientific testing in the circuit court
below, Johnson sought to introduce testimony from
Dr. Margaret Kovera, an eyewitness-identification
expert. The circuit court refused to allow Dr. Kovera’s
testimony into evidence, but Johnson’s postconviction
counsel proffered it for the record. The circuit court’s
exclusion of Dr. Kovera’s testimony was error,1 and
her testimony should be considered.
To generally summarize Dr. Kovera’s
testimony, she explained that the human-memory
process works in three general phases: (1) acquisition
or encoding, (2) storage, and (3) retrieval. “At each of
those stages,” she testified, “errors can be introduced,
given certain circumstances.” This would include
“estimator variables” (factors that affect the witness’s
ability to correctly make and store a memory of the
event, including cross-racial identification, witness
age, stress, etc.) and “system variables” (factors that
affect how memory is retrieved, including policeidentification procedures and postidentification
information).
Dr. Kovera explained that these
circumstances can influence what someone ultimately

1

This testimony would have been highly relevant in this
postconviction
context,
especially
considering
the
circumstances surrounding Ashley Heath’s testimony
addressed in this section. Moreover, the provision of this
subchapter prescribing hearing procedures contains no such
limitation on expert opinion testimony as described in the
majority opinion. See Ark. Code Ann. § 16-112-205(c)(4)–(5)
(“Unless otherwise ordered by the court, the petitioner shall
bear the burden of proving the facts alleged in the petition by
a preponderance of the evidence. (. . .) The court may receive
evidence in the form of affidavit, deposition, or oral
testimony.”).

47a
testifies to, regardless of what that person did or did
not actually witness. Obviously, this does not mean
that any and all eyewitness testimony is therefore
unreliable; it simply means that such circumstances,
when introduced, can have an influence.
In this case, there are several reasons to
suspect that Ashley Heath’s testimony at trial may
have been influenced by such circumstances.
First, it should be noted that by the time Ashley
was interviewed by Officer McWhirter, the police had
already questioned Sharon Johnson, Johnson’s
stepmother, earlier that morning.
Between the
information obtained from Sharon and from the
questioning of others, the police would have already
known Johnson’s name, size (Johnson is six feet six
inches tall, and was described as “chunky”), a
description of the clothing he was wearing when he
left his stepmother’s house, a description of his hair,
and the fact that he had been recently released from
jail. Additionally, it is undisputed that Ashley had
seen Johnson at Heath’s apartment on prior occasions.
It should also be noted that of the seven photos shown
to Ashley, Johnson’s was the only one featuring a
person with baldness or a receding hairline.
Furthermore, Ashley’s interview with Officer
McWhirter (which was unrecorded) was conducted the
same day her mother’s body was found. Ashley, who
had just turned six years old, was with several family
members at her grandmother’s house during the
hours leading up to the interview.
Whether Ashley’s family members and the
authorities pressured Ashley to identify Johnson is
highly relevant to the reliability of her testimony.
Before Johnson’s first trial, Ashley was deemed

48a
incompetent to testify, but after the outcome of the
first trial was reversed on appeal, Ashley, then ten
years old, was permitted to testify at the second trial.
A major issue raised in Johnson’s appeal from that
conviction
was
the
assertion
of
physician/psychotherapist privilege by Ashley’s
attorney ad litem over numerous reports prepared by
one of Ashley’s therapists.2 These reports were never
turned over to the defense, but they were placed under
seal for the record on appeal in Johnson’s second
appeal. A review of those reports shows their
significance. Johnson v. State, 342 Ark. 186, 27
S.W.3d 405 (2000) (Johnson II) was a 4–3 split
decision, and the three dissenting justices addressed
and quoted from those reports as follows:
Had defense counsel been privy to [the
therapist’s] records, he would have been
able to delve into [the therapist]’s
conclusions that Ashley’s stories were
profoundly inconsistent and that she had
been under considerable pressure from
her family and the prosecutor to convict
Stacey Johnson. A sampling of [the
therapist]’s notations after therapy
sessions with Ashley before the second
trial reveals the following:


2

The DA says she’s the only one who can
“keep him behind bars.”

Arkansas Rule of Evidence 510 provides: “A person upon
whom these rules confer a privilege against disclosure waives
the privilege if he or his predecessor while holder of the
privilege voluntarily discloses or consents to disclosure of any
significant part of the privileged matter.”

49a







So much of what Ashley says is parroting
other family members. For example, she
says, “I’m the only one who can put him
behind bars.”
Her grandmother told Ashley that she
“has to keep him behind bars,” because if
he gets out he’ll try to kill Ashley next.
Her grandmother emphasized how much
responsibility was on her, and if
Johnson’s sentence is overturned, Ashley
will feel total responsibility.
Ashley kept wanting to elaborate on
what she saw. Atty emphasized to her
that all she has to say is that she saw
Jason [sic] murder her mom, period.

Johnson II, 342 Ark. at 205, 27 S.W.3d at 417 (Brown,
J., dissenting). None of this was available for
Johnson’s defense at trial. There is at least one other
relevant excerpt from the therapist’s reports that was
not identified in the Johnson II dissent. During a
therapy session, after Ashley provided what the
therapist describes as another “new” version of events
from the night of the murder, Ashley “at 1 pt. . . .
seemed to lose her memory of what she’d heard, and
stated ‘Let me go ask my aunt[.]’” (Emphasis added.)
Without disparaging an innocent young girl
whose life was surely turned upside down by this
tragedy, the significance of the circumstances
described above is apparent. The pressures exerted
by Ashley’s family members and the authorities are
exactly the sort of circumstances Dr. Kovera identified
as likely to influence human memory. The events in
question occurred when Ashley was six years old, and

50a
as the dissent in Johnson II noted from the therapist’s
observations, “Ashley’s stories were profoundly
inconsistent.” 342 Ark. at 204, 27 S.W.3d at 417.
Whatever the collective impact of these influences
was, it should be noted that at one point, Ashley
implicated Branson Ramsey in her mother’s death.
During an interview with a different therapist, in
response to the question, “Who do you think did it,”
Ashley stated, “I think they both did it, Branson
Ramsey and Stacey Johnson.” (R. 1477, 1998 Direct
Appeal). In short, Ashley’s testimony at trial tending
to identify Johnson as Carol Heath’s murderer is not
so reliable as to bar Johnson’s petition for scientific
testing.
D. The “Cigarette Butt”
The origin of the “cigarette butt” with Johnson’s
saliva on it, reportedly discovered in the pocket of the
green shirt found at the second crime scene, is perhaps
the most concerning aspect of this case. At one point
in his brief, Johnson’s attorneys “question the
provenance” of this evidence. The State responds by
stating that Johnson has accused investigators of
“plant[ing]” this evidence at the crime scene, and that
the accusation is baseless. However, a close review of
the record from these cases reveals that Johnson has
legitimate reason to be concerned. The chain of
custody for the cigarette butt with Johnson’s saliva is
materially deficient. This deficiency undercuts the
reliability of this evidence, and (despite the “plant”
label volunteered by the State) supports the
possibility that it was “swapped in” at some point after
the evidence from the crime scenes was collected. But
regardless of how the cigarette butt became evidence

51a
in Johnson’s case, the presently observable
shortcomings in its chain of custody render it an
unreliable piece of evidence for purposes of our
subdivision 202(8) analysis.
To appreciate this concern, it is necessary to
line out the details from several documents spread
across the records of Johnson’s past cases. This is a
search-intensive inquiry, but as they say, the devil is
in the details.




Dated April 7, 1993, there is an Arkansas
State Police report titled “Crime Scene
Search.” (R. 112, 1998 Direct Appeal). This
report is authored by investigators
identifying several items recovered from the
second crime scene and then sent to the
state crime lab. It identifies the items
placed into evidence bag “GGG-21” as
“Cigarettes and matches taken from
pocket of green shirt.” “GGG” corresponds
to the initials of the State investigator who
gathered the evidence, whose last name is
Godwin. The report provides that “[t]hese
items were photographed . . . and copies of
those photographs supplemented in this
case file.”
Also dated April 7, 1993, is a document
titled “Evidence Submission Form.” (R. 94,
1998 Direct Appeal). This form is utilized by
investigators to identify specific items of
evidence and to specify which forms of
testing the investigators would like the state
crime lab to perform on those items of
evidence.
The form contains a list of
potential methods of testing to be selected,

52a





including “latent prints,” “serology,”
“toxicology,” etc. In the handwritten list of
items submitted, there is a notation for “. . .
GGG-21 Cigarettes & matches taken
from pocket of green shirt.” At the bottom of
the form, next to “Type of Analysis
Requested,” is a handwritten notation for
each item of evidence on the submission list,
including “GGG 21 Process for Latents and
compare to GGG-18 . . . .” The filled-in
submission form requested testing only for
latent fingerprints on GGG-21 and did
request other forms of testing on the other
items on the submission list.
Dated May 4, 1993, is a state crime lab
document titled “Report of Laboratory
Analysis.” (R. 123-124, 1998 Direct Appeal).
This report corresponds to “Agency Case
Number:
89-413-93,”
which
State
Investigator Godwin, whose name is
listed on the state crime lab reports as the
“Investigating Officer” and the addressee,
identified as “my (Godwin’s) case number.”
(R. 1086, 1998 Direct Appeal). This report
identifies several items of evidence that
were received by the lab on April 5,
1993, for various testing. Among those
items were “Q4 – Breast Swabs,” which
were subjected to “Saliva Examination.”
Also among those items was an item
designated “Q18 – T-shirt (GGG-22).”
Dated May 10, 1993, is another state crime
lab document titled “Report of Laboratory
Analysis.” (R. 118, 1998 Direct Appeal).
This report identifies several items of

53a



evidence that were received by the state
crime lab on April 5, 1993 to be tested for
fingerprints.
Among those items was
“GGG-21: Cigarettes and matches from
pocket of green shirt.”
The report
provides that the lab recovered prints from
a Lifestyles condom package, one douche
bottle, and latent lifts. All the prints were
negative for Johnson.
Dated April 15, 1994, is a Cellmark
Diagnostics (Cellmark) document titled
“Report of Laboratory Examination.” (R.
32–33, 1998 Direct Appeal). Cellmark was
contracted to handle DNA testing for the
state crime lab (at least what DNA testing
was available at the time), and it issued
several reports with the results of testing
performed on various items of evidence in
this case. Cellmark had issued at least
three reports in this matter (dated January
19, February 18, and April 15, 1994 (R. 28-–
-35, 1998 Direct Appeal)) before or at the
same time of this report. I note that while
these Cellmark reports, like the reports
from the state crime lab, correspond to “AR
State Police Case No. 89-413-93,” State
Investigator Godwin is not the addressee to
whom the reports are directed; instead, the
Cellmark
reports
are
directed
to
“Investigator Jim Behling [new line]
DeQueen Police Department [new
line] . . .” Each of the prior Cellmark reports,
as well as this April 15, 1994 report, have
certain things in common. All the Cellmark
reports note the date upon which each item

54a
submitted for testing was received by
Cellmark. All four of the Cellmark reports
discussed thus far note that the evidence
submitted for testing was received either in
one batch on December 2, 1993, or in a
second batch on December 17, 1993, in
reference to “Cellmark Case No.
F931380.”
Each of these four reports
addressed items received in both batches.
Additionally, all of the Cellmark reports
discussed thus far identify each item of
evidence with an “ID#” and “Description,”
which
generally
tracks
with
the
designations previously utilized by the state
crime lab. For example, this April 15, 1994
report notes that Cellmark performed
testing on “Q18 – Material labelled ‘. . .
white t-shirt . . .’” (“Q18 – T-shirt (GGG-22)”
was listed on the previously described May
4, 1993 serology report from the state crime
lab). This report also provided the results of
testing performed on “Q4 – Two swabs
labelled ‘. . . breast swabs . . .’” Importantly,
the results from this report excluded
Johnson as a contributor to whatever
material was recovered on the swabs from
the bite marks on the victim’s breasts.
Outside of Johnson’s hairs, all the testing in
the case thus far had excluded Johnson as a
contributor to any of the genetic samples
submitted for testing. Another forensic
specialist has since opined that some of the
results of this report were too faint to
determine and could not actually exclude
Johnson as a potential contributor to the

55a



breast swabs, but at the time, this report’s
exclusion of Johnson would have been a
significant development in Johnson’s case—
a key exculpatory piece of evidence.
Dated June 1, 1994, is another report from
Cellmark.
(R. 427–29, 2018 Act 1780
Appeal). This report is different from the
prior Cellmark reports in certain respects.
First, the items submitted for testing are
identified and described in less detail than
those addressed in the prior reports. The
two items submitted are identified and
described as “22 – one white t-shirt” and
“21 – one cigarette butt labelled ‘. . .
pocket of green shirt . . .’” (ellipses in
original). The numbers “22” and “21” seem
intended to correspond to the previously
utilized “GGG” numbers. Additionally, the
report reflects that these items were
received by Cellmark on different dates than
all the other previously submitted evidence.
The report says the white T-shirt was
received December 8, 1993, and that the
cigarette butt was received May 16, 1994.
The results in the report matched the
DNA on the cigarette butt to Johnson.

There is a great deal of information contained
in each of these reports, but when you line up the
relevant particulars, the timeline is beyond
suggestive. The collective weight of this information
indicates that the cigarette butt with Johnson’s saliva
actually came from somewhere other than GGG-21
(supposedly the pocket contents from the green shirt
at the second crime scene) and its corresponding chain
of custody.
From the very beginning of this

56a
investigation until the June 1, 1994 report from
Cellmark, every ounce of documentation indicated
that it was “cigarettes (plural) and matches” that had
been removed from the “pocket” of the green shirt
found at the second crime scene and placed into
evidence bag “GGG-21.” At Johnson’s first trial, when
State Investigator Godwin was presented with his
rough notes indicating that it was “cigarettes and
matches taken from the pocket of the green shirt,” he
stated as follows:
Q:

Okay. So you would think that there
were cigarettes that were found in that
pocket?

A:

More than one, yes, ma’am.

(R. 2313, 1995 Direct Appeal.)
However, when other State witnesses (e.g., Jim
Behling of the DeQueen Police Department)
testified about GGG-21, they maintained that it was
always a single cigarette butt (or as described in some
places in the transcript, “a single partially smoked
cigarette”) taken from the green shirt at the second
crime scene, and the saliva on that cigarette butt was
matched to Johnson through testimony from other
witnesses.
To be clear, the Cellmark reports
themselves were never entered into evidence for the
jury’s consideration—only testimony by State
witnesses about the results contained in those reports.
That
GGG-21
should
have
contained
“cigarettes,” as opposed to a single smoked “cigarette
butt” or a single “partially smoked cigarette,” is
further supported by the fact that the investigators
submitted GGG-21 to the state crime lab only for

57a
fingerprint testing. If GGG-21’s contents, whatever
they actually were, had already been smoked, and
there was a possibility of obtaining a genetic profile
from saliva thereon, then it is conspicuous that
investigators did not also request that GGG-21 receive
testing for saliva.3 This is especially true considering
that other evidence collected at approximately the
same time, such as the breast swabs, was submitted
for saliva testing.
It is particularly concerning that Cellmark
received what the June 1, 1994 report describes as “21
– one cigarette butt labelled ‘. . . pocket of green
shirt . . .’” (ellipses in original) nearly a half year after
Cellmark received all the other evidence submitted for
testing. This was the first time the description
changed from “cigarettes” to a single “cigarette
butt.” Additionally, each of those earlier reports had
identified the items tested by maintaining the same
“GGG,” “ME,” “Q,” etc., formats utilized by the
investigators, the medical examiner’s office, and the
state crime lab, so to maintain the corresponding
chain-of-custody; those identifiers are missing from
Cellmark’s June 1, 1994 report.
While the date that the cigarette butt arrived
at Cellmark came nearly a half year after all the other
items of evidence were received, I note that the
cigarette butt arrived at Cellmark just one month after
Cellmark generated the April 15, 1994 report, which

3

How the State was able to perform any meaningful testing
on the partially smoked cigarette is a fair question,
considering that it was allegedly found in watersoaked
clothing that had been sitting in the rain for the previous two
days.

58a
excluded Johnson as a contributor to the saliva on the
breast swabs, as set forth above. This April 15, 1994
report marks what would have been a significant
point in the case. Prior testing on the “green” shirt
found at the second crime scene showed only that the
blood on the green shirt belonged to Heath. The state
crime lab had found fingerprints on the condom
package and the douche bottle in Heath’s apartment
but determined that those fingerprints did not belong
to Johnson. Cellmark had identified a DNA profile
contained on the white T-shirt found at the second
crime scene but determined that it did not match
Johnson.
At that point, the only remaining physical
evidence tending to connect Johnson to either crime
scene would be his hairs found in Heath’s apartment,
which the forensic experts would explain are
“transient” in nature and easily transferred from item
to item, which can make it difficult to draw reliable
inferences about where any given hair is found.
Moreover, Johnson had a plausible explanation for the
presence of his hairs around Heath and her property
(their physical/social encounters), and at any rate,
there were Caucasian hairs that did not belong to the
victim found at both crime scenes. The burden of proof
in a criminal case is guilt beyond a reasonable doubt,
and the prosecution would have had a difficult time
meeting that burden without the late advent of this
“cigarette butt” containing Johnson’s saliva to connect
him to the second crime scene.
When one considers additional information
from Johnson’s second prosecution, the illegitimacy of
the cigarette butt becomes even more apparent. After
the outcome of Johnson’s first trial was reversed on

59a
appeal, a different attorney was appointed to
represent Johnson in the second trial. Johnson’s new
attorney filed a motion for discovery. The State’s
response to Johnson’s discovery request consisted of
approximately two hundred pages and was filed in the
record.
(R. 21–219, 1998 Direct Appeal).
Interestingly, each of the Cellmark reports from the
first prosecution was included in the State’s response,
except for one. The June 1, 1994 report, which
contained the testing results on the cigarette butt, was
omitted.
Johnson’s attorney later filed another request
titled “Motion for Discovery of DNA Testing and
Materials.” The prosecutor then sent Johnson’s
attorney a new report from Cellmark dated May 21,
1997, which would again match the cigarette butt to
Stacey Johnson. (R. 340–44, 1998 Direct Appeal).
This report provided that on April 4, 1997, Cellmark
had received ten tubes of liquid submitted for
Polymerase Chain Reaction (PCR) testing. Each tube
of liquid contained extracted organic material. The
material in one of the tubes was developed from a
blood sample provided by Johnson, identified as
follows:
Liquid in tube labelled “F931380 09”
(containing extracted DNA from the tube
of blood labelled Stacy Johnson
previously submitted on December 2,
1993)
(Parenthetical and indentation in original; emphasis
mine.) The remaining nine tubes consisted of material
extracted from items allegedly collected at the crime
scenes. This report included the aforementioned

60a
identifiers corresponding to each item of evidence; for
example:
Liquid in tube labelled “F931380 – 01 . . .”
(containing extracted DNA from the root
of the hair labelled GGG13 previously
submitted on December 17, 1993)
Liquid in tube labelled “F931380 – 01s . . .”
(containing an extract from the shaft of
the hair labelled GGG13 previously
submitted on December 17, 1993)
Liquid in tube labelled “F931380 – 03 . . .”
(containing extracted DNA from the
shaft of the hair labelled ME6
previously submitted on December 17,
1993)
(Ellipses, parentheticals, and indentations in original;
emphases mine.) However, the report’s description of
the cigarette butt is as follows:
Liquid in tube labelled “F931380 12”
(containing extracted DNA from a
cigarette butt previously submitted on
May 16, 1994)
(Parenthetical and indentations in original; emphasis
mine.) A close review of this May 21, 1997 Cellmark
report further substantiates that the cigarette butt
with Johnson’s saliva came from somewhere other
than evidence bag “GGG-21.”
First, while the June 1, 1994 Cellmark
report was notable because its notation for the
“cigarette butt” (recall that the June 1, 1994 report
was the first time the description changed from

61a
“cigarettes” to a single “cigarette butt”) lacked the
“GGG” identifier, this May 21, 1997 report does not
even have the “21” identifier; it just states that PCR
testing was performed on a cigarette butt received by
Cellmark on May 16, 1994. Additionally, note the
presence (or lack thereof) of ellipses (...) inside the end
quotation
marks
preceding
the
descriptive
parentheticals for each item. Of the ten items
addressed in this report, eight contain the ellipses
inside the end quotation mark, and each of those eight
follows up with a parenthetical that describes the item
with the same identifiers previously utilized by the
investigators and the crime lab, e.g., “GGG,” “ME,”
etc.
Of the two items that lack the ellipses, one of
them, “F931380 09,” is the blood sample provided by
Johnson. With regard to this item, perhaps the lack
of ellipses makes sense—the chain of custody should
be different here. The sample of Johnson’s blood could
not have been obtained until after his arrest, well
after the other items had been collected from the two
crime scenes and submitted for testing—hence also
the absence of a “GGG” or other such identifier in the
parenthetical following this item.
But that
explanation obviously cannot be applied to “F931380
12,” the tube containing DNA from the cigarette butt
(which, like the other eight original items addressed
in this report, was allegedly collected by investigators
at the crime scenes), yet there are no ellipses
contained in the description for this item, nor are
there identifiers in the following parenthetical.
These discrepancies become even more
significant when one considers the difference in State
Investigator Godwin’s testimony between the first and

62a
second trials.
On direct examination by the
prosecutor at the second trial, when presented with
the April 7, 1993 “Evidence Submission Form,”
Investigator Godwin testified as follows:
Q:

Okay. Are you saying that there were
multiple cigarettes found in that
pocket or was that an error on your
part?

A:

It was an error on my part.

Q:

Is there any doubt in your mind,
Investigator Godwin, that one partially
smoke[d] cigarette along with this book
of matches was found in this green shirt
pocket?

A:

That’s all that was found.

(R. 1088, 1998 Direct Appeal.) The disparity in
Investigator Godwin’s testimony between the two
trials is ominous. In light of the circumstances
described above, his credibility on this point is
irretrievably compromised.
Overall, the originally-utilized-then-laterabandoned identifiers, the altered descriptions, the
investigation timeline and the gaps therein, the
changed testimony—when considered together, show
that the cigarette butt is an unreliable piece of
evidence. The reasonable conclusion is that this
evidence came from somewhere other than where the
rest of GGG-21’s contents allegedly came from. See
Crisco v. State, 328 Ark. 388, 943 S.W.2d 582 (1997).
The cigarette butt’s chain of custody is materially

63a
deficient, and the right inquiry may show it to have
been determinably manufactured. Put simply, this
evidence is so lacking in requisite authentication that
it should not have been allowed at either trial, and the
fact that it was poisoned the outcome of both.
Again, of all the documents discussed in this
section, the only one that was ever entered as an
exhibit for the jury’s consideration at either trial was
the April 7, 1993 “Evidence Submission Form.”
Without having all of these documents lined out
together and a breakdown such as that set forth in
this opinion (Johnson’s trial attorneys certainly made
no attempt to make such a presentation, if they even
realized the chain-of-custody breakdown), it would be
entirely unrealistic to expect a jury of laypersons to
grasp each of these details and appreciate what they
ultimately together reveal, especially considering the
horrific facts being laid out in each trial. For purposes
of our subdivision 202(8) analysis, it is plain enough
that this evidence did not come from “GGG-21” and its
corresponding chain of custody. This court can
discount the probative value of the cigarette butt
without determining exactly where it came from or
how it got there.
However, note one last set of observations
regarding these “cigarettes,” which later turned into a
single “cigarette butt,” and then a single “partially
smoked cigarette” by the time Investigator Godwin
testified at Johnson’s second trial. The April 7, 1993
“Crime Scene Search Report” discussed above
provided that each item of evidence discussed in the
report, including “GGG-21 . . . Cigarettes and
matches taken from pocket of green shirt” was
“photographed . . . and copies of those photographs

64a
supplemented in this case file.” However, the record
contains no photographs associated with any
cigarette(s) (whether single or multiple, smoked or
unsmoked) relating to the green shirt from the second
crime scene. No such photograph was introduced at
either trial. Furthermore, there is a discussion in the
transcript from Johnson’s Rule 37 hearing in which
the attorneys are purportedly searching for the
photographs, maintaining that they are supposed to
be in the case file, but they are unable to locate them.
But, elsewhere in the record, there is a
photograph featuring at its center a single, partially
smoked cigarette, not from the second crime scene out
in the woods, but lying on the floor of Heath’s
apartment. Inexplicably, there is no indication that
the partially smoked cigarette from the floor of
Heath’s apartment was ever collected by investigators
or submitted for any testing—some unidentified
investigator photographed it, and then it simply
disappeared. There is no indication of its existence
anywhere else in the record. I also note from Sharon
Johnson’s deposition that the authorities were asking
about the type of cigarettes Johnson smoked, and that
when they first questioned Sharon (the same morning
the body was found, which is also when the authorities
obtained from Sharon the description of Johnson’s
clothing), the investigation of the first crime scene
would not have been complete. Any more might
involve some degree of speculation, but there is an
obvious question this photograph brings to mind: Is
this (the floor of Heath’s apartment) where the
cigarette containing Johnson’s saliva actually came
from? If further inquiry could confirm that possibility
to be the truth, the impact would be substantial––

65a
both4 eliminating evidence that investigators used to
linked Johnson to the second crime scene and
bolstering the contention that Johnson’s visit with
Heath was social.5
Overall, the “cigarette butt” evidence is not so
overwhelming as to bar Johnson’s request for
scientific testing.
E. Analysis
Finally, application of law.
To satisfy
subdivision 202(8), Johnson has to show how his
proposed testing “may” produce new evidence that
would “support” his theory of innocence and show a
“reasonable probability” that he did not kill Carol
Heath. Ark. Code Ann. § 16-112-202(8). Johnson has
satisfied these requirements.
The modern landscape of forensic science and
technology is entirely different from what it was in the
1990s. Within the last two decades, DNA testing has

4

Disclosing the existence of an item of evidence is not the same
as disclosing the location that item of evidence was (actually)
found. From Johnson I to the present case, the State has
always maintained that the cigarette butt with Johnson’s
saliva came from the green shirt at the second crime scene.
A reasonable assessment of the circumstances outlined
herein dispels that proposition. Maybe it came from the floor
of Heath’s apartment, maybe it came from the jail where
Johnson awaited trial, maybe it came from somewhere else,
but it did not come from where the State has always
represented it did. See Brady v. Maryland, 373 U.S. 83
(1963), and its progeny.

5

There was no indication of forced entry at Carol Heath’s
apartment.

66a
significantly advanced in (1) sensitivity and
discriminatory ability, (2) forms of testing, and (3)
methods of collection and analysis; Johnson presented
substantial evidence and academic literature about
these advancements at the hearing below on his
postconviction petition for scientific testing and to this
court on appeal. DNA expert Meghan Clement
testified: “[I]t is possible to distinguish mixtures more
easily today . . . we could subtract [Ms. Heath’s profile]
from the overall mixture . . . (of DNA profiles on
specific item(s) of evidence) . . . in order to develop a
profile which may or may not be CODIS-eligible.”
Forensic analyst Huma Nasir similarly noted:
Modern DNA technology . . . is
considerably
more
sensitive
and
sophisticated than the testing available
in 1994 and 1997 . . . and in 2002 . . .
Current DNA technology is sensitive
enough to identify an individual’s unique
DNA profile from a microscopic amount
of
biological
material
previously
undetected . . . [and] is also designed to
develop DNA profiles from poorly
preserved or decades-old degraded
samples
that
were
[previously]
unsuitable for testing.
These advancements have also significantly changed
where DNA can be found, creating the possibility of
finding DNA on evidence that was not able to be tested
decades ago. Nasir stated further:
In 2002 and before, it was common . . . to
test only those samples with viable
stains or those otherwise known to

67a
contain biological material . . . [b]y
contrast, forensic scientists now collect
and test samples from items where no
biological material is visible . . . [W]e now
sample items that were only touched or
handled by the perpetrator of a crime to
test ‘touch DNA.’
For example, Y-STR testing, which only became
available at the Arkansas State Crime Lab (“ASCL”)
in 2007, tests for DNA on the Y chromosome. This
testing makes it possible to separate multiple male
profiles in a single biological sample and find male
DNA in a sample that would otherwise have been
overwhelmed by a female donor. There is also now
miniSTR testing, which became available at ASCL in
2009 and which applies STR technology to commonly
observed DNA samples involving distinctly degraded
biological evidence. This testing aims to enhance
genetic samples, so to reveal a profile that may have
previously been deemed inconclusive. Additionally,
mitochondrial DNA testing became available at ASCL
in 2001. Mitochondrial DNA testing analyzes DNA
found in the cytoplasm of the cell; that is, the area that
surrounds the nucleus. The mitochondrial genome,
which is unchanged as it is passes from mother to
child, is passed on to all the offspring of a mother and
to those children’s offspring. Mitochondrial DNA
testing thus provides one particular advantage over
STR testing; it can be compared to forensic samples
that do not have the nucleated chromosomal
information required for STR and thus may be used
on biology without nucleated cells, including hair with
no “root.”

68a
These modern forms of scientific testing could
have extensive application to the evidence of
Johnson’s case, and in light of the apparent
shenanigans in the handling of these items in the
past, I would order new testing on literally every
single piece of evidence. For purposes of the analysis
here, simply note some of the more obvious testing
opportunities.
Regarding the “inch-and-a-half red beard hair,”
as well as the other Caucasian hairs dissimilar to the
victim’s, any and all testing that could potentially
develop a genetic profile from these items for
comparison to the other evidence is obviously
necessary. Consider, for example, the potential result
of a DNA profile obtained from the red beard hair
(collected at the first crime scene from the hand of the
victim’s body, which was covered in defensive wounds)
being matched to the existing but presently unknown
DNA profile on the white T-shirt collected at second
crime scene. Johnson obviously did not shed the red
beard hair—instead, this match would strongly
suggest that it was a white man with a red beard who
killed Heath and then dumped her purse and the
other items out in the woods. At the least, the known
biological evidence at that point would provide a far
better case against the person with the red beard than
the case against Johnson; the only biological evidence
linking Johnson to the second crime scene is the
cigarette butt addressed in Part III(D) of this opinion.
In this way, a match between a profile obtained from
any of the dissimilar Caucasian hairs and a profile
from any of the evidence closely associated with the
crime would significantly advance Johnson’s claim of
innocence.

69a
But the potential result described in the
paragraph above is just one possibility, tailored to the
biological evidence already known to exist. If more
sensitive modern testing revealed another male’s
DNA on the rape kit and smears, the douche-fluid
swabs, Heath’s underwear, the tissue paper found
beneath her body, her pubic hairs, or the breast swabs
(which have already shown the presence of saliva),
that would be significant as well. There is an untold
number of possible result combinations that would
substantiate Johnson’s claim of innocence. Certainly,
Johnson’s proposed testing “may” produce evidence
that would “support” his theory of innocence and show
a “reasonable probability” that he did not kill Carol
Heath.
The majority’s conclusion also disregards our
maxims of statutory interpretation. Act 1780 was
remedial legislation that must be liberally construed
to accomplish its purpose. See, e.g., City of Fort Smith
v. Wade, 2019 Ark. 222, 578 S.W.3d 276 (remedial
legislation such as the Freedom of Information Act
must be liberally construed to accomplish its purpose).
When construing any statute, we place it beside other
statutes relevant to the subject matter in question and
ascribe meaning and effect to be derived from the
whole. Standridge v. State, 2014 Ark. 515, at 9, 452
S.W.3d 103, 109. Here, the introductory provision
that precedes Ark. Code Ann. § 16-112-202,
subdivision 201, is instructive:
(a) Except when direct appeal is
available, a person convicted of a crime
may commence a proceeding to secure
relief by filing a petition in the court in
which the conviction was entered to

70a
vacate and set aside the judgment and to
discharge the petitioner or to resentence
the petitioner or grant a new trial or
correct the sentence or make other
disposition as may be appropriate, if
the person . . . [satisfies the requirements
of the statute].
Ark. Code Ann. § 16-112-201(a) (emphasis added).
Subdivision 208, which prescribes the procedures for
conducting the new testing after it is ordered, further
illustrates that this process was intended to be an
organic, truth-seeking inquiry that can adapt to the
particular evidentiary circumstances of a given case:
(b) If the deoxyribonucleic acid
(DNA) test results obtained under this
subchapter are inconclusive, the court
may order additional testing or deny
further relief to the person who
requested the testing.
Ark. Code Ann. § 16-112-208(b) (emphasis added).
In short, this process cannot function if the
petitioner is required to exonerate himself on the front
end before he is permitted to receive the testing. See,
e.g., Garner v. State, 2012 Ark. 271, at 2 (per curiam)
(“Evidence does not have to completely exonerate the
defendant in order to be ‘materially relevant,’ but it
must tend to significantly advance his claim of
innocence.”).
The process must be able to
meaningfully address the varying and often
complicated fact patterns that are the subject of
criminal prosecutions, and the members of our
legislature knew that when they drafted the statutes

71a
prescribing this process. Had the legislature intended
testing to be available only to people who could
affirmatively and conclusively establish that they
were wrongfully convicted beyond all doubt, the
statute would not have afforded the judge in whose
court one of these postconviction-testing cases is filed
with the discretion “to vacate and set aside the
judgment and to discharge the petitioner or to
resentence the petitioner or grant a new trial or
correct the sentence or make other disposition as may
be appropriate[.]” Ark. Code Ann. § 16-112-201(a)
(emphasis mine).
The overall theme of the majority opinion
seems to be that because there is already evidence
connecting Johnson to both crime scenes (“Johnson’s
saliva on the partially smoked cigarette in the pocket
of the bloody green shirt at the roadside park (See Part
III(D) of this opinion) and his hairs discovered on and
around Heath’s body” (Maj. Op. at 12)), he is therefore
incapable of “disproving” his guilt. That a majority of
this court would endorse this proposition, especially
when there are Caucasian hairs (several more,
actually) that have never been tested found in the
same places (several more, actually) that Johnson’s
were found, is nothing short of incredulous. In almost
the same breath, the majority suggests that there
would be an innocent explanation if Brandon
Ramsey’s DNA was matched to the untested
Caucasian hairs or any of the other items of evidence
from either crime scene, since he (like Johnson)
purportedly had a prior sexual relationship with the
victim. There is no equal application of rationale.
If Johnson’s case does not deserve the benefits
of modern science, it is difficult to conceive of a case

72a
that would.
That Johnson could be absolutely
innocent of Carol Heath’s murder is a very real
possibility, and his proposed testing would put that
possibility to the test. Johnson acknowledges that,
hypothetically, the results of this testing could
incriminate him further, yet he still pleads that we
order the testing. Johnson’s attorneys are even
willing to pay for it.6 What interest––the public’s faith
in the judiciary or otherwise––is served by denying
this request? Even if it is true that Johnson killed
Carol Heath, and the results of Johnson’s proposed
testing only confirmed as much, surely that outcome
6

The very notion that the State has the authority to forever
shield this evidence from Johnson’s inspection is not
supported by any persuasive rationale. To the extent the
Supreme Court suggested otherwise in District Attorney’s
Office for Third Judicial Dist. v. Osborne, 557 U.S. 52 (2009),
I respectfully disagree. Johnson’s attorneys provided at oral
argument that they would be willing to pay for all the
proposed testing from their own funds. Why shouldn’t an
incarcerated person (through his legal representative) be
allowed to access and inspect evidence from his own case,
especially when it would involve no cost to the State? “All
political power is inherent in the people and government is
instituted for their protection, security and benefit[.]” Ark.
Const. art. 2, § 1. “All men are created equally free and
independent, and have certain inherent and inalienable
rights; amongst which are those of enjoying and defending
life and liberty; of acquiring, possessing and protecting
property, and reputation; and of pursuing their own
happiness.
To secure these rights governments are
instituted among men, deriving their just powers from the
consent of the governed.”
Ark. Const. art. 2, § 2.
Furthermore, even if there is no constitutional right to postconviction scientific testing as a general matter, surely there
should be an exception to that proposition where, as here, the
circumstances of the case indicate that evidence was actually
mishandled (or affirmatively ignored) in a material way.

73a
would be preferable to executing Johnson under the
present circumstances.
Perhaps those opposing
Johnson’s proposed testing are simply anxious about
what it could possibly reveal—that another
conviction7 of a black man in the 1990s was
attributable to investigative failures8 and bias, and
not to actual guilt.

7

See, e.g., Samuel R. Gross et al., National Registry of
Exonerations, Race and Wrongful Convictions in the United
States ii (2017) (“African Americans are only 13% of the
American population but a majority of innocent defendants
wrongfully convicted of crimes and later exonerated. They
constitute 47% of the 1,900 exonerations listed in the
National Registry of Exonerations (as of October 2016), and
the great majority of more than 1,800 additional innocent
defendants who were framed and convicted of crimes in 15
large-scale police scandals and later cleared in ‘group
exonerations.’”).

8

The analysis contained in this dissent is limited to the
circumstances presently before the court.
Not every
investigation has the problems this one did. But without a
complete characterization of the evidence, the reader’s
perspective is not sufficiently informed to appreciate the
difference Johnson’s proposed testing could make. Literally,
this investigation revealed far more biological evidence
suggesting a white perpetrator than a black one, yet
investigators only sought to develop a black man as a suspect
and did not pursue the evidence suggesting a white
perpetrator in any respect. If merely pointing out such
obviously problematic circumstances makes one insecure
about his or her perceived racial neutrality, then instead of
crying foul, perhaps one should simply reassess the situation.
“[T]he public’s trust in the integrity of our criminal justice
system” (Maj. Op. at 13) is earned by transparency—not by
burying the circumstances that would cast doubt upon our
conclusions and then stubbornly refusing to acknowledge
their existence.
The particular vulnerabilities of the

74a
Modern science can be a valuable check on the
functionality and reliability of our entire criminal
justice system, including the past work of this court.
Johnson’s proposed testing could provide the answers
this case is missing, but the majority will not allow it.
I do not see the sense in this decision. We should
welcome such an opportunity for the truth, whether to
flush it out for the first time or to eliminate the doubts
presently surrounding this conviction. The fact that
we are instead rejecting that opportunity leaves me
troubled. What are we so afraid of?
I dissent.

evidence in this case are highly relevant to Johnson’s petition
for scientific testing; there can be no informed legal
assessment
of
Johnson’s
petition
without
these
circumstances being addressed and their impact considered.

75a
SUPREME COURT OF ARKANSAS
No.: CR-18-700
§
§
§
STACEY EUGENE
§
JOHNSON,
§
APPELLANT,
§
§
§
V.
§
STATE OF ARKANSAS, §
APPELLEE
§
§
§
§
§
§

Opinion Delivered:
December 12, 2019
APPEAL FROM THE
SEVIER COUNTY
CIRCUIT COURT
[NO. 67CR-93-54]
HONORABLE
CHARLES A.
YEARGAN, JUDGE
DISSENTING
OPINION.

ROBIN F. WYNNE, ASSOCIATE JUSTICE
I believe appellant has satisfied his burden to
obtain DNA testing under Act 1780 of 2001. For that
reason, I dissent.
The majority concludes that the testing
requested by Johnson would not significantly advance
his claim of innocence even if it revealed the presence
of DNA belonging to another individual. The majority
is mistaken. As the majority recites, hairs belonging
to Johnson were found at the crime scene. Hairs
belonging to another individual who could not be

76a
Johnson1 were also found at the scene. At trial, the
jury was aware that hairs belonging to another
individual who was not Johnson were present at the
scene.
This does not mean that the testing sought by
Johnson cannot significantly advance his claim of
innocence. The State sought to have the jury draw the
conclusion at trial that the Caucasian hairs were from
an individual who did not commit the rape and
murder. However, there was evidence that Johnson
had been in the victim’s home previously, leaving the
presence of his hairs at the crime scene subject to the
same explanation as the presence of the other hairs.
Not as subject to an innocent explanation is DNA
obtained from a bite mark on the victim’s breast.
Testing at the time of trial revealed the presence of
the victim’s DNA, along with the DNA of a second
contributor. The identity of the second contributor
could not be determined from testing available at the
time of trial. There was testimony at the hearing on
Johnson’s petition that advances in testing make
identifying the second contributor through retesting
more likely. Were DNA to be discovered from the
breast swab that belonged to neither Johnson nor the
victim, I am hard pressed to see how that would not
significantly advance his claim of innocence.
In addition, vaginal swabs taken from the
victim were not tested because no semen was detected.
There was testimony during the hearing on Johnson’s
petition that advances in testing would allow for the
detection of DNA in the absence of semen. Again, I
1

Johnson is African American. The other hairs found at the
crime scene were Caucasian in origin.

77a
fail to see how, if DNA were to be detected from this
evidence that did not belong to Johnson or the victim,
this would not significantly advance his claim of
innocence. Due to the testimony at the hearing on
Johnson’s petition, I believe that he has satisfied the
requirements under Act 1780 for DNA testing.
Accordingly, I would reverse the circuit court’s
decision and remand for testing to be conducted.
For these reasons, I dissent.

78a
IN THE CIRCUIT COURT OF SEVIER COUNTY,
ARKANSAS
CRIMINAL DIVISION
§
STACEY
EUGENE§
§
JOHNSON,
§
PETITIONER,
§ CASE NO. 67CR-93-54
§
V.
§
STATE OF ARKANSAS, §
RESPONDENT
§
§
ORDER
On November 15, 2017, this Court held a
hearing on Petitioner Stacey Eugene Johnson’s
(“Petitioner”) Motion for Post-Conviction DNA Testing
(the “Motion”) pursuant to Arkansas’s Habeas Corpus
– New Scientific Evidence Statute (the “Statute”)
(codified at Ark. Code Ann. §§ 16-112-201, et seq.),
filed on April 13, 2017. In his Motion, Petitioner asked
this Court to permit forensic DNA testing on several
items of evidence collected from the scene of the
murder for which he is currently incarcerated and
sentenced to death, in order to prove his innocence
claim. After the Court’s review of the initial briefing
submitted by the Petitioner and the State of Arkansas
(the “State”, collectively, the “Parties”), the Court held
a hearing pursuant to § 16-112-205 of the Statute. At
that hearing, Petitioner appeared with and through
his attorneys, Karen Thompson, Senior Staff Attorney
of the Innocence Project, and Jeff Rosenzweig. The

79a
State was present through its representatives from
the Sevier County Office of Prosecuting Attorney,
Bryan Chesshir and Alwin Smith, as well as Assistant
Attorney General Kent Holt. Petitioner requested
additional post-hearing briefing, which this Court
granted.
The Court, having reviewed the record,
pleadings and exhibits filed herein, and considered
the testimony of the witnesses called by the Petitioner
at the evidentiary hearing, the Court makes the
following findings of fact and conclusions of law with
regard to the statutory requirements set out in
Arkansas Code Annotated §§ 16-112-202 (1) – (10),
and 16-16-112-205(d):
1.
The Court finds that the specific
evidence to be tested was secured as a result of the
conviction of an offense being challenged under § 16112-201. Ark. Code Ann. § 16-112-202 (1).
2.
The specific evidence to be tested was
either subjected to DNA-STR testing prior to
Petitioner’s 1997 trial, or, as brought out at the Rule
37 evidentiary hearing, was declined, based upon
discussions trial counsel had both with Petitioner and
their DNA expert. (Johnson v. State, CR 02-1362,
Rule 37 hearing record at pp. 200-06, 265-69, 372-75,
Report of Dr. Ronald Rubocki, Defendant’s Exhibit #3,
to the hearing); see also Johnson v. State, 356 Ark.
534, 157 S.W.3d 151 (2004).
3.
The testing requested by Petitioner does
not embrace any new technique or method of
technology that is substantially more probative than
the prior testing and has been available and was used
in his 1997 trial. The testing done at the time of

80a
Petitioner’s trial and done today, as demonstrated by
the pleadings and testimony presented at the hearing,
is DNA-STR-type testing. The varieties of DNA-STR
testing that have been developed and described as
“touch” DNA and Y-STR DNA testing are not “new.”
The Petitioner has not rebutted the presumption
against timeliness found in Ark. Code Ann. § 16-112202 (10)(B)(i)-(v). This case is distinguishable from
Carter v. State, 2015 Ark. 57, 536 S.W.3d 123, where
DNA testing was unavailable in 1987, when Carter
was convicted of rape and aggravated robbery, and he
subsequently requested DNA-STR and Y-STR testing.
Id. at 9, 536 S.W.3d at 128.
4.
Petitioner has not identified any new
evidence that has become available since the time of
his retrial. The evidence sought to be tested has been
retained by the state, subject to a chain of custody, and
apparently retained under conditions sufficient to
ensure that the evidence has not been substituted,
contaminated, tampered with, replaced, or altered in
any respect material to the proposed testing. Ark.
Code Ann. § 16-112-202 (4).
5.
While the proposed testing and retesting
of evidence in this case may produce evidence that
would support a theoretical defense, as it would in
almost every case, it would not raise a reasonable
probability under Ark. Code Ann. § 16-112-202 (8)(B),
that the Petitioner did not commit the offense or point
to a third party. Petitioner’s defense remains one
based solely upon his own assertion of innocence and
his attack upon the credibility of Ashley Heath, the
daughter of Carol Heath, who witnessed her mother
being brutally murdered. Ashley Heath’s description
of Petitioner as her mother’s killer led to the discovery

81a
of physical evidence that corroborated Ashley’s
account of her mother’s murder and resulted in the
discovery of scientific evidence that positively linked
Petitioner to Carol Heath’s murder. In addition to the
scientific evidence were Petitioner’s statements and
admissions to third parties, including police officers,
fellow inmates at the jail, and his stepmother. The
evidence presented at trial overwhelmingly pointed to
Petitioner’s guilt.
6.
After review of Petitioner’s arguments
and requests, this Court is unable to determine what
he would do with the evidence after testing. The
proposed order of the Petitioner did not consider any
other evidence or testimony that would help shed any
theory that Petitioner did not commit the offense.
7.
While the testimony of an eyewitnessidentification expert is not admissible in Arkansas
courts, the Court considered the proffered testimony
of Dr. Margaret Kovera for the reasons it was
proffered.
Dr. Kovera’s testimony was neither
credible or reliable.
8.
Petitioner’s present petition, seeking
testing on items available at the time of trial, with the
same methodology that was available at the time of
trial, constitutes a successive petition. Furthermore,
the petition is untimely. Petitioner has not rebutted
the presumption as set forth in §16-112-202(B)(i)-(v).
The “new” testing Petitioner proposes has been
available since 2009. The evidence requested is not
newly discovered evidence and it has not been shown
that the method of testing requested would be
“substantially more probative than prior testing.”
Petitioner has failed to meet his required burden of
proof.

82a
WHEREFORE, based upon the foregoing
findings of fact and conclusions of law, Petitioner’s
habeas petition seeking additional testing and
retesting of evidence is hereby DENIED.

5-9-18
DATE

83a

FORMAL ORDER
STATE OF
ARKANSAS,
SUPREME COURT

)
)
) SCT.
)

BE IT REMEMBERED, THAT A SESSION
OF THE SUPREME COURT BEGUN AND HELD IN
THE CITY OF LITTLE ROCK, ON APRIL 19, 2017,
AMONGST OTHERS WERE THE FOLLOWING
PROCEEDINGS, TO-WIT:
SUPREME COURT CASE NO. CR17-312
STACEY EUGENE JOHNSON
V. APPEAL FROM SEVIER
COUNTY CIRCUIT COURT 67CR-93-54
STATE OF ARKANSAS

APPELLANT

APPELLEE

PETITIONER’S MOTION FOR STAY OF
EXECUTION AND FOR AN ORDER REMANDING
FOR A HEARING ON PETITIONER’S MOTION FOR
POSTCONVICTION DNA TESTING.
STAY OF
EXECUTION GRANTED.
REMANDED TO
CIRCUIT COURT FOR A HEARING ON
PETITIONER’S MOTION FOR POSTCONVICTION
DNA TESTING. BAKER, WOOD, AND WOMACK,
JJ., WOULD DENY.
SEE DISSENTING
OPINIONS THIS DATE.
IN TESTIMONY, THAT THE ABOVE IS A
TRUE COPY OF THE ORDER OF SAID SUPREME
COURT, RENDERED IN THE CASE HEREIN
STATED, I, STACEY PECTOL, CLERK OF SAID

84a
SUPREME COURT, HEREUNTO SET MY HAND
AND AFFIX THE SEAL OF SAID SUPREME
COURT, AT MY OFFICE IN THE CITY OF LITTLE
ROCK, THIS 19TH DAY OF APRIL, 2017.

ORIGINAL TO CLERK (W/COPY OF DISSENTING
OPINIONS)
CC/ENCLS: JEFF ROSENZWEIG
PAMELA RUMPZ, ASSISTANT
ATTORNEY GENERAL
GOVERNOR ASA HUTCHINSON
WENDY KELLEY, DIRECTOR,
ARKANSAS DEPARTMENT OF
CORRECTION
MARK CASHION, WARDEN, VARNER
SUPERMAX UNIT
WILLIAM STRAUGH, WARDEN,
CUMMINS UNIT
HON. CHARLES A. YEARGAN,
CIRCUIT JUDGE

85a
SUPREME COURT OF ARKANSAS
No. CR-17-312
§
§
§
STACEY EUGENE
§
JOHNSON,
§
APPELLANT,
§
§
§
V.
§
STATE OF ARKANSAS, §
APPELLEE
§
§

Opinion Delivered:
April 19, 2017

DISSENTING
OPINION.

KAREN R. BAKER, ASSOCIATE JUSTICE
I dissent from the majority’s decision today to
remand the matter to the circuit court for a hearing
on Johnson’s motion for postconviction DNA testing
and to stay Johnson’s execution. Simply put, Johnson
has presented these same arguments regarding
testing of DNA on numerous occasions in the two
decades since his conviction for Carol Heath’s murder.
At trial, the testimony established that the DNA
pattern found on the hair near Ms. Heath’s body at the
crime scene showed that the DNA in the hair was
consistent with Johnson’s. Testing Further showed
that the DNA pattern found on the hair would occur
among 1 in every 720 million African-Americans. Also
at trial, the saliva on the partially smoked cigarette
found in the pocket of the shirt at the park was also
consistent with Johnson’s DNA, and the shirt
contained blood consistent with Ms. Heath’s DNA.

86a
In this case, the majority erroneously interprets
Arkansas Code Annotated section 16-112-201 to
include any and all claims presented under this
statute. Here, it is clear from the record that Johnson
cannot prevail under this statute. Johnson must
demonstrate that “the scientific predicate for the
claim could not have been previously discovered
through the exercise of due diligence and the facts
underlying the claim, if proven and viewed in light of
the evidence as a whole, would be sufficient to
establish by clear and convincing evidence that no
reasonable fact-finder would find Johnson guilty of
the underlying offense.” Arkansas Code Annotated §
16-112-201(a)(2)(Repl. 2016). In sum, Johnson cannot
prevail. Accordingly, I dissent.
WOOD and WOMACK, JJ., join.

87a
SUPREME COURT OF ARKANSAS
No. CR-17-312
§
§
§
STACEY EUGENE
§
JOHNSON,
§
APPELLANT/ §
PETITIONER. §
§
V.
§
§
STATE OF ARKANSAS, §
APPELLEE/
§
RESPONDENT §
§

Opinion Delivered:
April 19, 2017

DISSENTING
OPINION.

RHONDA K. WOOD, ASSOCIATE JUSTICE
The General Assembly, elected by the voters in
the State of Arkansas, passed a statutory scheme that
provides for the death penalty as an appropriate
sentence for certain crimes. Justices of this court have
taken an oath to uphold the Constitution and the laws
of the State of Arkansas without regard to their
personal views. This means the court sometimes
makes exceedingly difficult decisions without
personal consideration to ourselves. Simply put, we
follow the law.
The majority of this court has again summarily
issued an order in a death penalty case without
providing any explanation for its decision. It has
granted a stay and remanded for a second hearing on
Stacey Johnson’s motion for postconviction DNA

88a
testing pursuant to Arkansas Code Annotated section
16-112-201 et seq. (Repl. 2016). It does this despite
the fact that the circuit court already held a telephonic
hearing, made findings, and correctly found the
defendant failed to meet the requirements of § 16-112201 et seq.
The majority errs for three reasons: (1) Stacey
Johnson failed to show that this testing might prove
his actual innocence, (2) his motion is untimely, and
(3) he failed to sufficiently plead chain of custody.
Arkansas Code Annotated section 16-112-201
permits a defendant to request relief when “scientific
evidence not available at trial establishes the
petitioner’s actual innocence.” Id. The statute also
requires that the motion be timely, and the defendant
has the burden of showing the evidence has not been
tainted. Id.
First, Stacey Johnson has failed to make any
showing that subsequent testing would result in
proving his actual innocence. Indeed, Johnson has
already made a virtually identical argument to this
court, which we unanimously rejected. Johnson v.
State, 356 Ark. 534, 157 S.W.3d 151 (2004). In
rejecting his argument then we stated, “we do not
believe . . . that testing should be authorized
regardless of the slight chance it may yield a favorable
result.” Id. at 536, 157 S.W.3d at 161. Now, on the
eve of his execution, the majority provides Johnson
with relief. In addition, we must be mindful of the
evidence which supported Johnson’s conviction,
particularly the DNA evidence which linked Stacey
Johnson to this murder, the testimony of the victim’s
daughter identifying him as her killer, and Stacey
Johnson’s statements to law-enforcement officers that

89a
he had murdered a woman in Arkansas.
The
contention that the DNA of Carol Jean Heath’s
boyfriend might appear in her home is expected and
does not equate to Stacey Johnson being innocent.
Stacey Johnson was found guilty by two different
juries for the April 1, 1993 murder of twenty-five-yearold Carol Jean Heath.
Second, this motion is untimely. The statute
provides a rebuttable presumption that a motion
made 36 months after a conviction is untimely.
Johnson has not rebutted this presumption. See Ark.
Code Ann. § 16-112-202(B)(i)-(v). The “new” touch
DNA and Y-STR testing that Johnson proposes have
been available since at least 2009. See State v.
Reynolds, 926 N.E.2d 315 (Ohio App. 2009). Following
the hearing, the trial court found defendant’s motion
untimely. Its finding was correct.
Third, it is incumbent statutorily that the
defendant show “the specific evidence to be tested is
in the possession of the state and has been subject to
a chain of custody and retained under conditions
sufficient to ensure that the evidence has not been
substituted, contaminated, tampered with, replaced,
or altered in any respect.” Ark. Code Ann. § 16-112202(4). The trial court correctly found defendant did
not meet his burden.
Today, this court takes the extraordinary step
of breaking from precedent and ignoring the General
Assembly’s statutory requirements for new scientific
testing and stays this execution. With no explanation
or instruction, this matter has been remanded to the
trial court for another hearing. Today, our court gives
uncertainty to any case ever truly being final in the
Arkansas Supreme Court. Accordingly, I dissent.

90a
BAKER and WOMACK, JJ., join.

91a
IN THE CIRCUIT COURT OF SEVIER COUNTY,
ARKANSAS
§
STACEY
EUGENE§
JOHNSON,
§
PETITIONER,
§
§ NO. CR-93-54
V.
§
§
STATE OF ARKANSAS, §
RESPONDENT
§
§
ORDER
Now before the Court is Petitioner’s Motion For
Post-Conviction DNA testing pursuant to Arkansas
Code Annotated §§ 16-112-201, ET SEQ and Request
For Hearing. Johnson has already been provided
testing under this statute. See Johnson v. State, 366
Ark. 390, 235 S.W.3d 872 (2006). Johnson’s request
for additional testing is presumptively untimely under
Arkansas Code Annotated §16-112-202(10).
In
addition, on April 6, 2017, the Arkansas Supreme
Court declined to recall its mandate and remand this
case, No. CR-93-54, to this court for additional testing
of the items sought to be tested in Johnson’s motion
filed before this court on April 13, 2017. Thus, the
court believes it is both without jurisdiction and
barred by the law of the case doctrine, to entertain this
successive petition for testing. Johnson, moreover,
has not established a chain of custody as required
under the statute.
Finally, Johnson has not
established that the results of his proposed testing
would significantly advance his claim of actual

92a
innocence, as required under the statute. For these
reasons, Petitioner’s motion is denied in its entirety.
Because “the petition and the files and records of the
proceeding conclusively demonstrate that the
petitioner is entitled to no relief,” Ark. Code Ann. § 16112-205(a) (Repl. 2006), his request for an evidentiary
hearing is denied.
2017.

IT IS SO ORDERED THIS 17 DAY OF APRIL,

93a
U.S.C.A. CONST. AMEND. I
AMENDMENT I. ESTABLISHMENT OF RELIGION; FREE
EXERCISE OF RELIGION; FREEDOM OF SPEECH AND
THE PRESS; PEACEFUL ASSEMBLY; PETITION FOR
REDRESS OF GRIEVANCES
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech,
or of the press; or the right of the people peaceably to
assemble, and to petition the Government for a
redress of grievances.

94a
U.S.C.A. CONST. AMEND. V
AMENDMENT V. GRAND JURY INDICTMENT FOR
CAPITAL CRIMES; DOUBLE JEOPARDY; SELFINCRIMINATION; DUE PROCESS OF LAW; TAKINGS
WITHOUT JUST COMPENSATION
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor
shall any person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property
be taken for public use, without just compensation.

95a
U.S.C.A. CONST. AMEND. XIV
AMENDMENT XIV. CITIZENSHIP;
PRIVILEGES AND IMMUNITIES; DUE
PROCESS; EQUAL PROTECTION;
APPOINTMENT OF REPRESENTATION;
DISQUALIFICATION OF OFFICERS; PUBLIC
DEBT; ENFORCEMENT
Section 1. All persons born or naturalized in the
United States, and subject to the jurisdiction thereof,
are citizens of the United States and of the State
wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of
the laws.
Section 2. Representatives shall be apportioned
among the several States according to their respective
numbers, counting the whole number of persons in
each State, excluding Indians not taxed. But when the
right to vote at any election for the choice of electors
for President and Vice President of the United States,
Representatives in Congress, the Executive and
Judicial officers of a State, or the members of the
Legislature thereof, is denied to any of the male
inhabitants of such State, being twenty-one years of
age, and citizens of the United States, or in any way
abridged, except for participation in rebellion, or other
crime, the basis of representation therein shall be
reduced in the proportion which the number of such
male citizens shall bear to the whole number of male
citizens twenty-one years of age in such State.

96a
Section 3. No person shall be a Senator or
Representative in Congress, or elector of President
and Vice President, or hold any office, civil or military,
under the United States, or under any State, who,
having previously taken an oath, as a member of
Congress, or as an officer of the United States, or as a
member of any State legislature, or as an executive or
judicial officer of any State, to support the
Constitution of the United States, shall have engaged
in insurrection or rebellion against the same, or given
aid or comfort to the enemies thereof. But Congress
may by a vote of two-thirds of each House, remove
such disability.
Section 4. The validity of the public debt of the
United States, authorized by law, including debts
incurred for payment of pensions and bounties for
services in suppressing insurrection or rebellion, shall
not be questioned. But neither the United States nor
any State shall assume or pay any debt or obligation
incurred in aid of insurrection or rebellion against the
United States, or any claim for the loss or
emancipation of any slave; but all such debts,
obligations and claims shall be held illegal and void.
Section 5. The Congress shall have power to enforce,
by appropriate legislation, the provisions of this
article.

97a
A.C.A. § 16-112-201
§ 16-112-201. WRIT OF HABEAS CORPUS--NEW
SCIENTIFIC EVIDENCE

(a)
Except when direct appeal is available, a
person convicted of a crime may commence a
proceeding to secure relief by filing a petition in the
court in which the conviction was entered to vacate
and set aside the judgment and to discharge the
petitioner or to resentence the petitioner or grant a
new trial or correct the sentence or make other
disposition as may be appropriate, if the person
claims under penalty of perjury that:
(1)
Scientific evidence not available at trial
establishes the petitioner’s actual innocence; or
(2)
The scientific predicate for the claim
could not have been previously discovered
through the exercise of due diligence and the
facts underlying the claim, if proven and viewed
in light of the evidence as a whole, would be
sufficient to establish by clear and convincing
evidence that no reasonable fact-finder would
find the petitioner guilty of the underlying
offense.
(b)
Nothing contained in this subchapter shall
prevent the Supreme Court or the Court of Appeals,
upon application by a party, from granting a stay of
an appeal to allow an application to the trial court for
an evidentiary hearing under this subchapter.

98a
A.C.A. § 16-112-202
§ 16-112-202. FORM OF MOTION
Except when direct appeal is available, a person
convicted of a crime may make a motion for the
performance of fingerprinting, forensic
deoxyribonucleic acid (DNA) testing, or other tests
which may become available through advances in
technology to demonstrate the person’s actual
innocence if:
(1)
The specific evidence to be tested was secured
as a result of the conviction of an offense’s being
challenged under § 16-112-201;
(2)
The specific evidence to be tested was not
previously subjected to testing and the person
making the motion under this section did not:
(A)
Knowingly and voluntarily waive the
right to request testing of the evidence in a
court proceeding commenced on or after August
12, 2005; or
(B)
Knowingly fail to request testing of the
evidence in a prior motion for post-conviction
testing;
(3)
The specific evidence was previously subjected
to testing and the person making a motion under this
section requests testing that uses a new method or
technology that is substantially more probative than
the prior testing;
(4)
The specific evidence to be tested is in the
possession of the state and has been subject to a
chain of custody and retained under conditions
sufficient to ensure that the evidence has not been
substituted, contaminated, tampered with, replaced,

99a
or altered in any respect material to the proposed
testing;
(5)
The proposed testing is reasonable in scope,
utilizes scientifically sound methods, and is
consistent with accepted forensic practices;
(6)
The person making a motion under this
section identifies a theory of defense that:
(A)
Is not inconsistent with an affirmative
defense presented at the trial of the offense
being challenged under § 16-112-201; and
(B)
Would establish the actual innocence of
the person in relation to the offense being
challenged under § 16-112-201;
(7)
The identity of the perpetrator was at issue
during the investigation or prosecution of the offense
being challenged under § 16-112-201;
(8)
The proposed testing of the specific evidence
may produce new material evidence that would:
(A)
Support the theory of defense described
in subdivision (6) of this section; and
(B)
Raise a reasonable probability that the
person making a motion under this section did
not commit the offense;
(9)
The person making a motion under this
section certifies that he or she will provide a
deoxyribonucleic acid (DNA) or other sample or a
fingerprint for comparison; and
(10) The motion is made in a timely fashion subject
to the following conditions:

100a
(A)
There shall be a rebuttable presumption
of timeliness if the motion is made within
thirty-six (36) months of the date of conviction.
The presumption may be rebutted upon a
showing:
(i)
That the motion for a test under
this section is based solely upon
information used in a previously denied
motion; or
(ii)
Of clear and convincing evidence
that the motion filed under this section
was filed solely to cause delay or
harassment; and
(B)
There shall be a rebuttable presumption
against timeliness for any motion not made
within thirty-six (36) months of the date of
conviction. The presumption may be rebutted
upon a showing:
(i)
That the person making a motion
under this section was or is incompetent
and the incompetence substantially
contributed to the delay in the motion
for a test;
(ii)
That the evidence to be tested is
newly discovered evidence;
(iii) That the motion is not based
solely upon the person’s own assertion
of innocence and a denial of the motion
would result in a manifest injustice;
(iv) That a new method of technology
that is substantially more probative
than prior testing is available; or

101a
(v)

Of good cause.

102a
A.C.A. § 16-112-203
§ 16-112-203. CONTENTS OF MOTION
(a)
The petition filed under this subchapter shall
be entitled in the name of the petitioner versus the
State of Arkansas and shall contain:
(1)(A) A statement of the facts and the grounds
upon which the petition is based and relief
desired.
(B)
All grounds for relief shall be
stated in the petition or any amendment
to the petition, unless the grounds could
not reasonably have been set forth in
the petition.
(C)
The petition may contain
argument or citation of authorities;
(2)
An identification of the proceedings in
which the petitioner was convicted, including
the date of the entry of conviction and sentence
or other disposition complained of;
(3)
An identification of any previous
proceeding, together with the grounds asserted
in the previous proceeding, which sought to
secure relief for the petitioner from the
conviction and sentence or other disposition;
and
(4)(A) The name and address of any attorney
representing the petitioner.
(B)
If the petitioner is without
counsel, the circuit clerk shall
immediately transmit a copy of the

103a
petition to the judge and shall advise
the petitioner of that referral.
(b)
The filing of the petition and any related
documents and any proceedings pursuant to the
petition shall be without any costs or fees charged to
the petitioner.
(c)

The petition shall be:
(1)
Verified by the petitioner or signed by
the petitioner’s attorney; and
(2)
Addressed to the court in which the
conviction was entered.

(d)
The circuit clerk shall deliver a copy of the
petition to the prosecuting attorney and to the
Attorney General.

104a
A.C.A. § 16-112-204
§ 16-112-204. OTHER PLEADINGS
(a)
Within twenty (20) days after the filing of the
petition, the prosecuting attorney or the Attorney
General shall respond to the petition by answer or
motion which shall be filed with the court and served
on the petitioner if unrepresented or served on the
petitioner’s attorney.
(b)(1) No further pleadings are necessary except as
the court may order.
(2) However, the court may at any time prior to
its decision on the merits permit:
(A)

A withdrawal of the petition;

(B)

Amendments to the petition; and

(C)

Amendments to the answer.

(3)
The court shall examine the substance of
the pleading and shall waive any irregularities
or defects in form.

105a
A.C.A. § 16-112-205
§ 16-112-205. HEARING
(a)
Unless the petition and the files and records of
the proceeding conclusively show that the petitioner
is entitled to no relief, the court shall promptly set an
early hearing on the petition and response, promptly
determine the issues, make findings of fact and
conclusions of law, and either deny the petition or
enter an order granting the appropriate relief.
(b)
Hearings on a petition filed pursuant to this
subchapter shall be open and shall be held in the
court in which the conviction was entered.
(c)(1) The court may order the petitioner to be
present at the hearing.
(2)
If the petitioner is represented by an
attorney, the attorney shall be present at any
hearing.
(3)
A verbatim record of any hearing shall be
made and kept.
(4)
Unless otherwise ordered by the court,
the petitioner shall bear the burden of proving
the facts alleged in the petition by a
preponderance of the evidence.
(5)
The court may receive evidence in the
form of affidavit, deposition, or oral testimony.
(d)
The court may summarily deny a second or
successive petition for similar relief on behalf of the
same petitioner and may summarily deny a petition
if the issues raised in it have previously been decided
by the Court of Appeals or the Supreme Court in the
same case.

106a

107a
A.C.A. § 16-112-206
§ 16-112-206. APPEALS
(a)
The appealing party, within thirty (30)
calendar days after the entry of the order, shall file a
notice of appeal if the party wishes to appeal.
(b)(1) If the appeal is by the petitioner, the service
shall be on the prosecuting attorney and the
Attorney General.
(2)
If the appeal is by the state, the service
shall be on the petitioner or the petitioner’s
attorney.
(c)
No fees or bond for costs shall be required for
the appeal.

108a
A.C.A. § 16-112-207
§ 16-112-207. APPOINTMENT OF COUNSEL
(a)(1) A person financially unable to obtain counsel
who desires to pursue the remedy provided in this
subchapter may apply for representation by the
Arkansas Public Defender Commission or appointed
private attorneys.
(2)
The trial public defenders or appointed
private attorneys may represent indigent
persons who apply for representation under
this section.
(b)(1)(A)
With the approval of the court,
petitioners may use the services of the State Crime
Laboratory for latent fingerprinting identification,
deoxyribonucleic acid (DNA) testing, and other tests
which may become available through advances in
technology.
(B)(i) If approved by the court, the
laboratory shall provide the requested
services.
(ii)
Samples shall be of
sufficient quantity to allow
testing by both the prosecution
and the defense.
(iii) Neither the prosecution
nor the defense shall consume the
entire sample in testing in the
absence of a court order allowing
the sample to be entirely
consumed in testing.
(2)
Subdivision (b)(1) of this section shall not
apply to any tests before trial of a matter that

109a
will be governed by relevant constitutional
provisions, statutory law, or court rules.
(c)
The Executive Director of the Arkansas Public
Defender Commission and the laboratory shall give
priority to claims based on factors including:
(1)
The opportunity for conclusive or near
conclusive proof through scientific evidence
that the person is actually innocent; and
(2)
A lengthy sentence of imprisonment or a
death sentence.

110a
A.C.A. § 16-112-208
§ 16-112-208. TESTING PROCEDURES
(a)(1) A court that orders any deoxyribonucleic acid
(DNA) testing under this subchapter shall direct the
testing to be carried out by the State Crime
Laboratory.
(2)(A) However,
the
court
may
order
deoxyribonucleic acid (DNA) testing by another
qualified laboratory if the court makes all
necessary orders to ensure the integrity of the
specific evidence and the reliability of the
testing process and test results.
(B)
As used in this section, “qualified
laboratory” means a laboratory that is
accredited by the American Society of
Crime Laboratory Directors or certified
through the National Forensic Science
Technology Center.
(3)
The court may order the person who
requested any deoxyribonucleic acid (DNA)
testing under this subchapter to pay for the cost
of the testing if the court determines that the
person has the ability to pay for the testing.
(b)
If the deoxyribonucleic acid (DNA) test results
obtained under this subchapter are inconclusive, the
court may order additional testing or deny further
relief to the person who requested the testing.
(c)(1) If deoxyribonucleic acid (DNA) test results
obtained under this subchapter establish that the
person who requested the testing was the source of
the deoxyribonucleic acid (DNA) evidence, the court
shall deny any relief to the person.

111a
(2)
On motion of the state, the court shall
determine if the person’s assertion of actual
innocence was false. If the court finds that the
person’s assertion of actual innocence was false,
the court may:
(A)

Hold the person in contempt;

(B)
Assess against the person the cost
of any deoxyribonucleic acid (DNA)
testing carried out under this
subchapter;
(C)
Forward the finding to the Board
of Corrections for consideration in the
awarding of meritorious good time to
the person; or
(D)
Forward the finding to the Parole
Board for consideration in the granting
of parole to the person.
(d)
In any prosecution of a person for perjury or
other conduct resulting from a proceeding under this
subchapter, upon conviction or a plea of guilty or nolo
contendere the court shall sentence the person to a
term of imprisonment that shall run consecutively to
any other term of imprisonment the person is
serving.
(e)(1) If deoxyribonucleic acid (DNA) test results
obtained under this subchapter exclude a person as
the source of the deoxyribonucleic acid (DNA)
evidence, the person may file a motion for a new trial
or resentencing.
(2)
The court shall establish a reasonable
schedule for the person to file a motion under

112a
subdivision (e)(1) of this section and for the
state to respond to the motion.
(3)
The court may grant the motion of the
person for a new trial or resentencing if the
deoxyribonucleic acid (DNA) test results, when
considered with all other evidence in the case
regardless of whether the evidence was
introduced at trial, establish by compelling
evidence that a new trial would result in an
acquittal.
(f)
In a case in which a person is sentenced to
death, any deoxyribonucleic acid (DNA) testing
ordered under this subchapter shall be completed:
(1)
No later than sixty (60) days after the
date on which the state responds to the motion
described in §§ 16-112-202 and 16-112-203; or
(2)
No later than one hundred twenty (120)
days after the date on which the
deoxyribonucleic acid (DNA) testing was
ordered under any post-conviction testing
procedures under this subchapter.
(g)(1) The results of any deoxyribonucleic acid (DNA)
testing ordered under this subchapter shall be
simultaneously disclosed to the court, the person that
requested the testing, and the State of Arkansas.
(2)(A) The state shall submit any test results
relating to a person’s deoxyribonucleic acid
(DNA) to the National DNA Index System.
(B)
If the deoxyribonucleic acid test
(DNA) results obtained under this
subchapter are inconclusive or show
that the person tested was the source of

113a
the deoxyribonucleic acid (DNA)
evidence, the deoxyribonucleic acid
(DNA) sample of the person tested may
be retained in the system and State
DNA Data Base.
(C)
If the deoxyribonucleic acid
(DNA) test results obtained under this
subchapter exclude the person tested as
the source of the deoxyribonucleic acid
(DNA) evidence but a comparison of the
deoxyribonucleic acid (DNA) sample of
the person tested results in a match
between the person’s sample and
another offense, the State Crime
Laboratory shall notify the appropriate
agency and preserve the
deoxyribonucleic acid (DNA) sample of
the person tested.
(D)
The State Crime Laboratory shall
destroy the deoxyribonucleic acid (DNA)
sample of the person tested and ensure
that the information is not retained in
the system or the data base if:
(i)
The deoxyribonucleic acid
(DNA) test results obtained under
this subchapter exclude the
person tested as the source of the
deoxyribonucleic acid (DNA)
evidence;
(ii)
A comparison of the
deoxyribonucleic acid (DNA)
sample through a search of the
data base or system does not

114a
match the person’s sample and
another offense; and
(iii) There is no other legal
authority to retain the sample of
the person tested in the data base
or system.

115a

IN THE CIRCUIT COURT OF SEVIER COUNTY,
ARKANSAS
NINTH WEST JUDICIAL DISTRICT
________________
STACEY EUGENE JOHNSON,
Petitioner,
CASE NO.: CR-93-54
v.
STATE OF ARKANSAS
Respondent.
______________
MOTION FOR POST-CONVICTION DNA
TESTING PURSUANT TO ARKANSAS CODE
ANNOTATED §§ 16-112-201, ET SEQ AND
REQUEST FOR HEARING
______________
Petitioner Stacey Eugene Johnson (“Mr.
Johnson” or “Petitioner”), through undersigned
counsel, respectfully petitions this Court for an order
directing forensic DNA testing of biological evidence
collected during the investigation of the murder and
possible sexual assault of Carol Jean Heath pursuant
to Arkansas’s Habeas Corpus — New Scientific
Evidence Statute (the “Statute”) (codified at Ark. Code
Ann. §§ 16-112-201, et seq.).
PRELIMINARY STATEMENT
For nearly a quarter of a century, Mr. Johnson
has steadfastly asserted his innocence and denied any
involvement in the 1993 rape and murder of Carol
Jean Heath, even in the face of execution. Today,
probative biological evidence currently in the custody
and control of the Arkansas State Crime Laboratory

116a
(“ASCL,”)1 and the DeQueen Police Department
(“DPD”) may now be able to provide—through the use
of modern, cutting edge DNA testing technologies—
irrefutable confirmation of the veracity of Mr.
Johnson’s innocence claims.
The exonerating potential of DNA testing in
this case must be considered in tandem with the
problematic evidence used to convict Mr. Johnson in
the first place; indeed, his conviction is undermined by
questionable investigatory tactics and evidence,
including: (1) the problematic identification provided
by the traumatized six-year old daughter of the victim;
(2) the lack. of authoritative physical evidence
connecting Mr. Johnson to the rape and murder of
Carol Jean Heath; and (3) an alleged “confession”
completely undocumented by police officers. Mr.
Johnson’s conviction was once reversed by the
Arkansas Supreme Court, and the results of his
second trial were affirmed by the narrowest of
margins. See Johnson v. State. 326 Ark. 430, 934
S.W.2d 179 (1996) [Johnson I]; Johnson v. State, 342
Ark. 186, 27 S.W.3d 405 (2000) [Johnson II] (three
justices dissenting).
DNA testing is perfectly suited for cases like
this one, where technology unavailable at the time of
trial can conclusively establish the legitimacy of a
Petitioner’s innocence claims and undermine
questionable evidence used to convict.
As the

1

On April 7, 2017, ASCL.’s assistant director informed counsel
for Mr. Johnson that “several” items and files retained by the
laboratory in this case are currently under ASCL’s custody
and control since the initial testing was performed in 1993.
(See Exhibit (“Exh.”) A).

117a
Supreme Court has recognized, “DNA testing has an
unparalleled ability both to exonerate the wrongly
convicted and to identify the guilty . . . [t]he Federal
Government and the States have recognized this, and
have developed special approaches to ensure that this
evidentiary tool can he effectively incorporated into
established criminal procedure.” Dist. Attorney’s
Office for Third Judicial Dist. v. Osborne, 557 U.S. 52,
55, 129 S. Ct. 2308, 2312, 174 I. Ed. 2d 38 (2009).
Given the State of Arkansas’ recognition of the
potential of DNA testing in pursuing Mr. Johnson’s
conviction, the reasons to utilize revolutionary
scientific advances in forensic DNA technology to
prove Mr. Johnson’s innocence today should be just as
clear. In light of the recognized weaknesses in the
State’s arguments to convict, Mr. Johnson’s consistent
and repeated requests for post-conviction DNA
testing, and the irreversible finality of the scheduled
execution date, the reasons for additional DNA testing
given the facts of this case are even more compelling.
Accordingly, Mr. Johnson respectfully requests
that this Court grant his application for postconviction DNA testing.
PROCEDURAL HISTORY
The procedural history in this case clearly
highlights (1) that Mr. Johnson’s conviction does not
stand on firm footing; and (2) that this motion is the
culmination of Mr. Johnson’s decades-long effort to
prove his innocence though DNA testing and other
methods.
Mr. Johnson was charged in Sevier County with
the offense of capital murder in the April 1993 death
of Carol Heath. The homicide was allegedly witnessed

118a
by Carol Heath’s small daughter, Ashley. The child
was found incompetent to testify at the first trial, but
statements she was alleged to have made to the
authorities were admitted into evidence. The State
also relied on DNA results from testing various items
of evidence which were associated with Mr. Johnson.
Mr. Johnson was convicted and sentenced to death.
The Arkansas Supreme Court reversed Mr. Johnson’s
conviction on direct appeal on the ground that certain
utterances of the unavailable Ashley Heath were
erroneously admitted in violation of Johnson’s
confrontation rights and the rules of evidence.
Johnson v. State, 326 Ark. 430, 934 S.W.2d 179 (1996)
[Johnson I].
On retrial, the State asserted that Ashley
Heath had become competent. The defense sought her
counseling records, but the circuit court sustained
assertions of privilege made by her attorney ad litem
and denied the defense access to many of the records,
giving Mr. Johnson only those records created before
the first trial and for which any alleged privilege had
been already waived. The court denied access to all
later records, including records of examination and
counseling by the psychologist whose other records
were provided. Those denied records were later shown
to be grossly impeaching of the child. Additional DNA
evidence was also presented as well as a contradicted
and unrecorded statement allegedly made by Johnson
in which he supposedly confessed to this and other
homicides. That statement had been excluded from
the first trial. Mr. Johnson appealed his second
conviction. On appeal, the conviction and death
sentence were affirmed by a narrow 4-3 vote.
However, the dissenters agreed that Mr. Johnson’s
rights were violated by the denial of access to the

119a
psychological records of Ashley Heath. Johnson v.
State, 342 Ark. 186, 27 S.W.3d 405 (2000) [Johnson
II]. Certiorari was denied. Johnson v. Arkansas, 532
U.S. 944, 121 S.Ct. 1408 (2001).
Mr. Johnson then filed a timely Rule 37 petition
and a habeas corpus petition under Arkansas law
permitting access to further DNA testing under Ark.
Code Ann. 16-112-201 et seq. In the habeas corpus
petition, Mr. Johnson noted that newly available STR
technology superseded the capacities of those DNA
technologies used at the time of his first two trials.
The two petitions were joined for hearing, and the
trial court denied both petitions.
On appeal, where the two petitions were joined
as well, the Arkansas Supreme Court denied Rule 37
relief and most of the testing/retesting petition, but
granted a small portion of the habeas for further
testing. Johnson v, State, 356 Ark. 534, 157 S.W.3d
151. (2004) [Johnson III]. Certiorari was denied.
Johnson v. Arkansas. 543 U.S. 932 125 S.Ct. 326
(2004). Despite the specific remand to conduct testing,
the circuit court again denied testing. On appeal, the
Arkansas Supreme Court affirmed the judgment
below, incorrectly finding that the additional DNA
testing previously ordered had been superseded by the
results of testing done prior to the second trial.
Johnson v. State, 366 Ark. 390 235 S.W.3d 872
[Johnson IV].
Mr. Johnson then filed a petition for writ of
habeas corpus in the United States District Court for
the Eastern District of Arkansas in which he renewed
his request for DNA testing. The petition was denied
in 2007, and the United States Court of Appeals for
the Eighth Circuit affirmed the denial of habeas relief.

120a
Johnson v. Norris, 537 F.3d 840 (8th Cir. 2008)
[Johnson V]. Certiorari was denied. 555 U.S. 1182,
129 S.Ct. 1334 (2009).
Prior to filing this new motion for DNA testing,
Mr. Johnson petitioned the Arkansas Supreme Court
to recall its mandate or otherwise reinvest jurisdiction
over his prior appeal from the denial of DNA testing
resulting in the Supreme Court’s opinion in Johnson
III and IV. Mr. Johnson also asked for a stay of
execution to facilitate the Supreme Court’s
consideration of the Petition. The Arkansas Supreme
Court denied Mr. Johnson’s Petition by summary
order on April 6, 2017.
STATEMENT OF FACTS
The Crime
On April 1, 1993, Rose Cassady went to visit her
friend Carole Jean Heath in DeQueen “right before
dark”2 to borrow her dryer. 11/18/1997 Tr.3 at 6. Ms.
Heath was home with her two children, Ashley (aged
6) and Jonathan (aged 2). Id. The next morning, April
2, Ms. Cassady returned between 6:00 and 6:30 a.m.
to borrow a sweater. Id. at 7. Ms. Heath did not
answer Ms. Cassady’s knock on the door. Id. at 8.
Hearing Ms. Heath’s alarm clock sound, Ms. Cassady
opened the door and discovered Ms. Heath’s nude body

2

Twilight on April 1, 1993 in DeQueen, Arkansas was at 7:03
pm.

3

Citations to the trial transcript refer to Petitioner’s
November 1997 trial, which was tried by jury before the
Honorable Ted C. Capeheart, Circuit Court Judge. All
references to this trial transcript are hereinafter designated
“____ Tr. at _.”

121a
on the floor, in a pool of blood. Id. Ms. Cassady began
screaming and went across the street to call the police.
Id. at 9. When she returned to the house, she saw both
children looking out the bedroom window and asked
Ashley—who was in shock—to tell her what
happened. The child allegedly replied: “a black man
broke in last night.” Id. at 10.
Police Sergeant Keith Tucker of the DPD
arrived at the scene at 6:45 a.m., followed by Chief of
Police James Smith, Arkansas State Police (“ASP”)
officers Butch Godwin and Hayes McWhirter, and Jim
Behling, a DPD investigator. Id. at 26, 31-32, 35. Ms.
Heath’s body was on the living room floor, which “was
in disarray.” Id. at 2.1, 32. Closer examination by
Chief Smith revealed that Ms. Heath’s throat had
been cut. Id. at 34. A t-shirt was “wadded up . . . and
placed across her throat” and rigor had begun to set in
her fingers and toes. Id. at 32, 34. Underneath Ms.
Heath’s body, just above her hips, was a tissue paper.
Id. at 60. Her underwear was found next to her right
leg and a towel was found just above her head. Id. at
61.
Crime scene investigators bagged Ms. Heath’s
hands and feet and wrapped her body in a green sheet
for transportation to the ASCL. Id. at 61-62, 71. A
single hair was found on Ms. Heath’s body and clumps
of hair were found on the floor of her unkempt house
on both sides of her body. Id. at 69, 132. In the
bathroom sink was a douche bottle, a “Lifestyles”
condom box, and a pair of cutoff jeans was on the floor
in front of the toilet. Id. at 59, Exh. B. Police also
discovered and photographed a cigarette butt on the
master bedroom floor, but there is no record it was
collected and sent to ASCL. Id. at 165-166; Exh. C.

122a
There was no indication that there had been a forced
entry. Id. at 158. Indeed, “whomever . . . entered that
house did it voluntarily through the front door.” Id. at
170.
Officer Godwin took all of the evidence to ASCL
for serology testing that same day. Id. at 139. Police
also lifted eleven partial fingerprints from the scene
along with a bloody print from the door knob to a linen
closet in the bathroom. Id. at 92. The print on the
linen closet was later determined to belong to Carol
Heath. Id. at 93. None of the partial lifts were
determined to be “of sufficient quality to make
matches.” Id.
On April 5, 1993, Kenneth Bryan stopped at a
roadside park about four miles south of DeQueen on
his way back from hunting. Id. at 44-45. While
walking through the woods, he saw a purse and
various articles of clothing lying on the ground and in
the bushes. Id. at 45. Mr. Bryan picked up the purse
and found identifying information showing that the
purse belonged to Carol Heath. Id. at 45. He put the
purse in his truck and forgot about it until a few days
later, when local newspapers reported that Ms. Heath
had been murdered. Id. at 46. Mr. Bryan immediately
called the sheriff’s department and directed them to
the areas where he had found the purse and clothing.
Id. The police collected a “green pullover shirt,” a
white t-shirt, a towel, and a “sweater jacket,” all of
which had “a bunch” of blood on them.4 Id. at 81, 123.

4

The sweater jacket was later thrown away because it had
begun to molder and blood found on the sweater “putrefied
beyond what . . . would be used” for testing in the laboratory.
11/18/1997 Tr. at 91.

123a
The items were laid out to dry, as the items were damp
and wet. Id. at 83. During this process, on April 6,
the state officers discovered “matches and [a]
cigarette” in the pocket of the green shirt. Id. at 88,
141-142. Later inspection revealed hairs on the tshirt, the green shirt, and the towel. Id. at 140. On
April 7, Officer McWhirter took all of these items to
the ASCL. 11/20/1997 Tr. at 79.
The Autopsy and Serological Testing
Dr. Frank Peretti, a forensic pathologist and
medical examiner, conducted the autopsy on April 5,
1993. 11/19/1997 Tr. at 58. Ms. Heath had “cutting
wounds of the neck, evidence of strangulation, [and]
blunt force head injuries.” Id. at 60; see also Exh. D at
8. Ms. Heath had several defensive wounds and
injuries; specifically, cuts and bruising on her fingers,
arms and legs. 11/19/1997 Tr. at 65; see also Exh. D
at 2, 8. She also had bite marks on her left and right
breasts. 11/19/1997 Tr. at 66; see also Exh. D at 7. Dr.
Peretti concluded that the “blunt force injuries may
have been sustained first,” although the “cutting
wound and the strangulation were . . . more lethal type
injuries.” 11/19/1997 Tr. at 70. Peretti also noted that
such blunt force could have been caused by fists. Id.
at 61.
Ms. Heath also had “injuries consistent with
sexual assault”; specifically, a “quarter inch linear
abraded contusion” on her right labia. Id. at 68, 85.
Dr. Peretti took a full rape kit from the victim’s body,
including “vaginal, rectal and oral” swabs and smears.
Id. at 69. He also took swabs of the bite marks, which
later tested positive for amylase, a component of
saliva, containing “B” and “H” blood group substances,
which indicated that the donor was a “secretor.” Id.;

124a
Exh. D at 7. Ms. Heath had no alcohol or illegal drugs
in her system. 11/19/2017 Tr. at 68; Exh. D at 1.
Dr. Peretti was unable to determine Ms.
Heath’s exact time of death: “we know the person was
last seen alive at a certain hour and is found dead . . .
so we have a range, but I can’t tell you in that range . . .
for example, did the person die at 10:50 a.m. in the
morning. No one can tell you that unless you witness
it.” Id. at 80. Based on the facts provided to him by
the police, however, Dr. Peritti noted that within a
reasonable degree of medical certainty, Ms. Heath
died “eight to ten hours” prior to her body being
discovered.
The ASCL performed serological testing on the
vaginal, rectal and oral smears and swabs, the bite
mark swabs, and on the green shirt to determine
whether there was any genetic material on several
items of probative evidence. 11/19/1997 Tr. at 93-96.
No semen was detected on any of the genital or oral
smears or swabs, but the victim’s blood was detected
on the green shirt found at the second crime scene. Id.
at 94-96. ASCL was unable to find enough genetic
material to do any serology on the victim’s underwear,
the tissue found under her body, or on the towel found
at the scene. Id. at 112.
ASCL collected several hairs from the first and
second crime scenes. Of those hairs, three “indicative
of Negroid origin”5 were recovered: from the floor

5

While hair microscopy has been widely discredited as a
forensic tool with regards to individualization (i.e.
associating a particular hair with a particular person to the
exclusion of all others), certain features of individual hairs
do, in fact, have clear differentiating attributes. Hairs may

125a
beside the victim’s body, from underneath the victim’s
breast, and from the t-shirt found at the second crime
scene.
Id. at 123.
Several Caucasian hairs—
microscopically dissimilar from the victim’s—were
found underneath the victim’s body, on a towel by the
victim’s head, in the bags that were placed on the
hands of the victim at the scene, and on the green
shirt. Id. at 123-124. The only hairs sent on for DNA
testing were either “Negroid” or “unidentifiable.” Id.
at 127-128.
The Investigation of the Murder
Officer McWhirter immediately began “going
from apartment to apartment and interviewing
neighbors to see if they had seen anything.”
11/20/1997 Tr. at 76. No one had seen a black man
entering or leaving Ms. Heath’s home. Id. at 195.
During the afternoon of April 2, Officer McWhirter
interviewed Ashley Heath, eight and a half hours after
her mother’s body was discovered. Id. at 80-81.
Among other things, Ashley allegedly told Officer
McWhirter: “Mother and I were on the couch when
someone knocked on the door. She got up and opened
the door. Mother likes Branson. He [sic] work[s] at In
Your Ear Video Center. The black male asked where
Branson was.” Id. at 82. Ashley told the Officer the
black male had “been over two other times” and noted
“he had on a green shirt and sweater”6 and “said he
be classified as human or non-human, and also “by. racial
and somatic characteristics,” 5s...41..141.13. This is relevant
in the instant case as the victim’s hair was long, curly, and
black and easily distinguished from shorter, lighter, or
“coarser” hair.
6

It should be noted that the sweater later found in the woods
“appeared to be” a woman’s sweater. 11/18/1997 Tr. at 129.

126a
just got out of jail.” Id. at 84. She further told the
Officer that she hid when “I saw [her mother and the
black male] fighting”, but that “[w]hile Mother was
laying on the floor, the black male walked to the
bathroom. We were hiding in the closet. I came out
to go to the bathroom and the black male had a knife
in his band standing beside Mama. She was on the
floor bleeding. After he left, I went in and saw mommy
bleeding.” Id. Ashley also told the Officer that when
the black male left, “he got into a brown truck . . . [that
was] parked beside the house.” Id. Officer McWhirter
then showed Ashley a photo array of seven black
males. She picked Mr. Johnson’s photo from the
array. Id. at 86. DPD issued a warrant for Mr.
Johnson’s arrest for capital murder.
On April 14, 1993, Paul Paceco, a police officer
with the Albuquerque Police Department, stopped a
vehicle driven by Mr. Johnson. During the stop, Mr.
Johnson provided Officer Paceco with a false name
and was arrested for providing a false identity. As
Officer Paceco transported Mr. Johnson to the jail, Mr.
Johnson allegedly stated that he “killed somebody in
Arkansas . . .” 11/19/1997 Tr. at 15. After running
Mr. Johnson’s correct name, it was revealed that
Johnson had outstanding warrants for capital
murder, firearms and drugs. Mr. Paceco did not make
any notes of the alleged confession in his write up of
the traffic stop and his partner did not hear the
“confession” at all. Id. at 22, 24, 45, 48. Officer Paceco
also failed to inform Rick Foley, the homicide detective
in the Albuquerque Police Department, that Stacy
Johnson had allegedly made a confession to him, even
though Detective Foley interviewed Mr. Johnson at
length that same day. (Id. at 52-53; Exh. F at 1).
When asked during the interview if he was “willing to

127a
talk to [the APD] at this time,” Mr. Johnson responded
“I have nothing to hide.” (Exh. F at 2). At no time
during his statement to Detective Foley did Mr.
Johnson confess to killing Ms. Heath.
The Trial
Mr. Johnson was first tried in the Sevier Circuit
Court. He was sentenced to death for the murder of
Ms. Heath. Mr. Johnson immediately appealed his
conviction. Mr. Johnson’s sentence was reversed in
Johnson I on the grounds that the trial court had
improperly admitted an out-of-court statement
allegedly made by Ashley (who had been found
incompetent to testify) in which she claimed she had
witnessed the murder of her mother and identified Mr.
Johnson as the murderer. A retrial was held from
November 18-21 in Pike County.
The Prosecution’s Case
On retrial, the State once again asserted that
Mr. Johnson was responsible for the murder and rape
of Ms. Heath.
Ashley Heath was found competent to testify at
the second trial and her testimony consisted almost
entirely of one word answers. Ashley testified that
having been “let in” by her mother, Mr. Johnson had
come to the house on her sixth birthday and sat in the
living room and talked with Ms. Heath. 11/18/1997
Tr. at 196, 199, 202. Ashley no longer knew whether
or not “the black man” broke into her house, contrary
to her definitive statement to Rose Cassady. Id. at 10,
compare with 203. Further, Ashley no longer had any
recollection as to the car the perpetrator was driving,
even though she previously identified the perpetrator

128a
entering a brown truck parked alongside the house
after the murder. Id. at 203.
Ashley’s testimony conflicted with testimony
provided by Carnelle Barnes, the psychologist who
counseled her weekly for almost a year after the
murder. When Dr. Barnes showed Ashley a photo
line-up using the same photographs provided by
Officer McWhirter and including Mr. Johnson, Ashley
twice stated that “[t]he creep’s not here because
there’s no green shirt.” 11/20/1997 Tr. at 106. Dr.
Barnes also testified that Ashley “had many versions
of this night [of the murder],” and allowed that
overheard statements by family and friends “would
certainly contaminate her memory.” Id. at 106, 108.
Inconsistencies in Ashley’s testimony were further
underscored by the State’s other witnesses who
testified that Ms. Heath had never had any black men
over to her house. 11/18/1997 Tr. at 215, 223, 228.
Shawnda Helms testified Mr. Johnson came to Ms.
Heath’s home on at least one occasion with her
boyfriend, Branson Ramsey. Id. at 210. Ashley Heath
also identified Mr. Johnson as a guest. Id. at 217.
The State also read into the record the
testimony of Mr. Johnson’s step-mother, Sharon. Id.
at 233. While Ms. Johnson was unable to identify the
white t-shirt as the one worn by Mr. Johnson on the
day of the murder, she did testify that Stacey had told
her he had found a place to stay “with a white girl with
two little kids and she works at the bank.” Id. at 239,
245. The latter testimony was “confirmed” by Steve
Hill, a jailhouse informant, who claimed that Mr.
Johnson told him he had met Ms. Heath through “a
guy name[d] Branson” and they were “carrying on
back and forth.” Id. at 269. According to Hill, Mr.

129a
Johnson told him “he was going to see” Ms. Heath
after he got out of prison. Id.
The State introduced the results of earlygeneration DNA testing performed at Cellmark, a
private laboratory. Using RFLP testing, Cellmark
revealed that “Stacey Johnson could not be the source
of the DNA on that green shirt and Carol Heath could
be a source of that DNA from the green shirt.”
11/20/1997 Tr. at 16. Using DQ-Alpha testing—a
slightly more advanced form of DNA technology—
Cellmark determined that the DNA found in the
breast swabs and on the white t-shirt also excluded
Mr. Johnson. Id. at 24. Applying DQ-Alpha once
again, Cellmark found that the three “Negroid” hairs
collected from the scene as well as a cigarette butt
allegedly found in the green shirt, were “consistent
with Stacey Johnson.”7 Id. at 28.
In closing, the State argued that Mr. Johnson
left prison, murdered, and likely sexually assaulted
Ms. Heath in alignment with his statements to Mr.
Hill and Ashley’s identification. 11/20/1997 Tr. at 153,
156. Noting that Carol Heath’s blood was “all over
those clothes” found at the second crime scene, the
State argued the forensic evidence inculpated Mr.
Johnson by showing that the saliva detected on the
breast swab was “consistent with the blood type and
being a secretor of which Mr. Johnson is.” Id. at 154.
Most importantly, the State argued, the DNA on the
cigarette butt found in the green shirt “matches

7

The State repeatedly requested additional DNA testing and
resubmitted the cigarette for retesting “because of a new
[DNA] testing procedure” that they believed would provide
more definitive results. 11/18/1997 Tr. at 89-91.

130a
Stacey Johnson.” Id. at 155. “[T]hey’re going to argue
to you about odds, 720 million and 1, 280 million and
1,” the State asserted. “You know, the odd thing about
that is we rely on that scientific procedure to save our
lives and then we argue against it in criminal trials.”
Id.
The Defense Case
For its part, the defense presented an alibi
defense through witnesses and phone records.
11/20/2017 Tr. at 117-126. Through testimony and
phone records, Mr. Johnson’s could fully account for
his whereabouts eight to ten hours prior to Ms.
Heath’s body being discovered. Additionally, unlike
the “brown truck” identified by Ashley Heath as being
the one the perpetrator was driving, Debra Johnson
and disinterested witness Rebecca Tapia identified
the car Mr. Johnson was driving the night of the
murder as a “big car” and not a truck. 11/20/1997 Tr.
at 119.
The
defense
also
presented
evidence
implicating the victim’s boyfriend in the murder.
Cordelia Vinyard testified that her divorce from exhusband, Branson Ramsey8 (the boyfriend of Ms.
Heath at the time of her death), became final on April
1, 1993, the same day Ms. Heath was likely murdered.
11/20/1997 Tr. at 136. Vinyard had been separated
from Ramsey for at least a month because “my exhusband come to the house that I was living at, carried
me over the banister and slapped me . . .” Id. at 137.
Indeed, Ramsey had abused Ms. Vinyard for four
years and had demonstrated a clear pattern of violent

8

On information and belief, Mr. Ramsey died in 1998.

131a
mistreatment in the relationship that required Ms.
Vinyard to obtain emergency custody of her children:
A:

[Ms. Vinyard]: I had—I had bruises on
my back side where he kicked me. I had
knots on my head where he hit my head
up against the wall. I mean I fought
back, but it did no good considering I
don’t weigh very much and I had a big
man against me . . . He would punch me
or slap me or kick me or bite me, just
however he would.

Q:

And where would he bite you?

A:

He’d bite me on the upper torso, on my
chest.

Q:

On your chest?. . . Are you reluctant to
say the exact word?

A:

No. On my breast.

Id. at 137-38. (Emphasis added.) Despite the
relationship between Ramsey and the victim (again,
the. only constant in the investigation of Ms. Heath’s
murder),despite his history of abusive relationships,
and despite his propensity to bite women’s breasts,
police never questioned Ms. Vinyard and Ramsey9 was
never investigated as a suspect. Id. at 138.

9

It should be noted that Ashley told Dr. Barnes that she
believed Branson Ramsey had been involved in the minder,
and “she mentioned Branson Ramsey’s name on several
occasions . . .” 11/20/1997 Tr. at 112.

132a
Mr. Johnson was found guilty of capital murder
on November 21, 1997. He was sentenced to death
and is currently scheduled to be executed on April 20,
2017.
ARGUMENT
The Arkansas General Assembly passed Act
1780 to address mounting concerns regarding persons
who wore jailed, and sometimes executed, for crimes
they did not commit. See 2001 Ark. Acts 1780 (“[a]n
Act to provide methods for preserving DNA and other
scientific evidence and to provide a remedy for
innocent persons who may be exonerated by this
evidence.”); see also Echols v. State, 350 Ark. 42, 44,
84 S.W.3d 424, 426-7 (2002); Johnson v. State, 356
Ark. 534, 157 S.W.3d 151 (2004). The amendment was
passed “to accommodate the advent of new
technologies enhancing the ability to analyze
scientific evidence” and further the “mission of the
criminal justice system [which] is to punish the guilty
and exonerate the innocent.” Act 1780, § 1.
Almost twenty-five years after the start of the
Petitioner’s first trial, the refined capacities of modern
DNA testing can now be applied to the several items
of probative, biological material recovered at the crime
scenes in this case—including, but not limited to,
hairs, vaginal, anal, and oral swabs taken from the
victim’s body, clothing worn and used by the
perpetrator during the murder, and swabs taken from
bite marks on the victim’s breasts—and potentially
prove Petitioner’s innocence.
A genetic profile
obtained through this testing may “hit” to an as yet
unknown assailant(s) through the CODIS DNA
databank, conclusively identifying Carol Jean Heath’s
rapist and murderer. Given Petitioner’s not guilty

133a
plea at two earlier trials, his decades long battle to
prove his innocence, and the State’s underwhelming
case against Mr. Johnson, the remedy of DNA testing
is particularly compelling in this instance.
Under the Act, an Arkansas petitioner may
make a motion for forensic DNA testing if:
(1)

The specific evidence to be tested was
secured as a result of the conviction of
an offense’s being challenged under §
16-112-201;

(3)

The specific evidence was previously
subjected to testing and the person
making a motion under this section
requests testing that uses a new method
or technology that is substantially more
probative than the prior testing;

(4)

The specific evidence to be tested is in
the possession of the state and has been
subject to a chain of custody and
retained under conditions sufficient to
ensure that the evidence has not been
substituted, contaminated, tampered
with, replaced, or altered in any respect
material to the proposed testing;

(5)

The proposed testing is reasonable in
scope, utilizes scientifically sound
methods, and is consistent with
accepted forensic practices;

134a
(6)

The person making a motion under this
section identifies a theory of defense
that:
(A)

Is not inconsistent with an
affirmative defense presented at
the trial of the offense being
challenged under § 16-112-201;
and

(B)

Would establish the actual
innocence of the person in
relation to the offense being
challenged under § 16-112-201;

(7)

The identity of the perpetrator was at
issue during the investigation or
prosecution of the offense being
challenged under § 16-112-201;

(8)

The proposed testing of the specific
evidence may produce new material
evidence that would:

(9)

(A)

Support the theory of defense
described in subdivision (6) of this
section; and

(B)

Raise a reasonable probability
that the person making a motion
under this section did not commit
the offense;

The person making a motion under this
section certifies that he or she will
provide a deoxyribonucleic acid (DNA)

135a
or other sample or a fingerprint for
comparison; and
(10) The motion is made in a timely fashion
subject to the following conditions . . .
(B)

There shall be a rebuttable
presumption against timeliness
for any motion not made within
thirty-six (36) months of the date
of conviction. The presumption
may be rebutted upon a
showing . . . .
(iv)

That a new method of
technology that is
substantially more
probative than prior
testing is available; or

As all of these criteria are satisfied here,
Petitioner requests that his motion for post-conviction
forensic DNA testing be granted.

136a
I.

PETITIONER IS ENTITLED TO DNA
TESTING PURSUANT TO ARK. CODE
ANN. §§ 16-112-201 ET SEQ

A.

The Physical Evidence in This Case Was
Secured as a Result of Petitioner’s
Conviction and the Proposed DNA Testing
May Produce New Material Evidence That
Would Raise a Reasonable Probability
That Mr. Johnson is Innocent of Capital
Murder

All of the evidence Petitioner seeks to submit to
DNA testing was obtained during the police
investigation of the murder and rape of Carol Jean
Heath and during the course of her autopsy. All
evidence collected from the crime scenes and her body
was delivered to the ASCL by police officers and other
agents of the State and sent on for additional DNA
testing to Cellmark by representatives of ASCL. See
11/18/1997 Tr. at 139; 11/20/1997 Tr. at 79.
Specifically, Mr. Johnson seeks to test the following
items:
(1)

Pair of Panties (GGG 7; Q 5)

(2)

Towel (From First Crime Scene: GGG
8; Q 6)

(3)

Douche Bottle (GGG 9)

(4)

Prophylactic Package (GGG 10)

(5)

Hair From the Floor by Victim (GGG
13)

(6)

Hair From Under the Victim (GGG 14)

137a
(7)

Tissue Paper (GGG 15; Q 8)

(8)

Hair From Under the Victim (GGG 16)

(9)

Green Shirt (GGG 19; Q 17)

(10)

Hair From Green Shirt (GGG 20)

(11)

Cigarettes and Matches From Pocket of
Green Shirt (GGG 21)

(12)

White T-Shirt (from Second Crime
Scene: GGG 22; Q 18)

(13)

Hair From White T-Shirt (from Second
Crime Scene: GGG 23)

(14)

Towel (From Second Crime Scene: GGG
24; Q 19)

(15)

Hair From Towel (From Second Crime
Scene: GGG 25)

(16)

Victim’s Purse and Contents (GGG 26)

(17)

Swabs (GGG 28-35; Q 21-28)

(18)

Rigid Hand Nail Clippings From Victim
(ME 1)

(19)

Left Hand Nail Clippings From Victim
(ME 2)

(20)

Combed Pubic Hair From Victim (ME 3)

(21)

Bugs From Hands of Victim (ME 4)

138a
(22)

White T-Shirt (From First Crime Scene:
ME 5)

(23)

Vaginal Smears and Swabs (Q 1)

(24)

Rectal Smears and Swabs (Q 2)

(25)

Oral Smears and Swabs (Q 3)

(26)

Breast Swabs (Q 4)

See Exh G. Each one of these items of evidence—if
subjected to the requested DNA testing procedures
detailed below—have the capacity to produce new
material evidence that would substantiate Mr.
Johnson’s prior not guilty pleas by proving his actual
innocence and raising a reasonable probability that
Mr. Johnson is innocent of this crime.
In accordance with § 16-112-202(6)(B) & (8)(B),
the Arkansas Supreme Court has held that DNA
testing of evidence is authorized if testing or retesting
can provide materially relevant evidence that will
significantly advance the defendant’s claim of
innocence in light of all the evidence presented to the
jury. Johnson v. State, 356 Ark. 534, 546, 157 S.W.3d
151, 161 (2004). Such evidence need not completely
exonerate the defendant in order to be “materially
relevant,” but it must tend to significantly advance his
claim of innocence. King v. State, 2013 Ark. 133, 4-5
(2013). The United States Supreme Court’s decision
in Schlup v. Delo, 513 U.S. 298 (1996), is also
instructive here. In Schlup, the Court held that a
petitioner can demonstrate actual innocence by
producing newly discovered evidence that makes it
“more likely than not that no reasonable juror would

139a
have found [him] guilty beyond a reasonable doubt.”
Id. at 327; accord, House v. Bell, 547 U.S 518 (2006).
Moreover, because a Schlup “claim involves evidence
the trial jury did not have before it, the inquiry
requires the . . . court to assess how reasonable jurors
would react to the overall, newly supplemented
record.” Id.
As described in more detail infra, DNA testing
on the several items of probative evidence collected in
this case could irrefutably establish Mr. Johnson’s
innocence by excluding him as a possible perpetrator
and naming the actual assailant in this vicious crime.
Should any of these items of evidence that were
central to the crime provide a CODIS eligible profile
that “hits” to a readily identified individual, such
information would certainly significantly advance Mr.
Johnson’s innocence claim.
B.

All of the Physical Evidence in This Case
is Currently in the Possession of the State,
Has Been Subject to a Chain of Custody
and Retained Under Conditions Sufficient
to Ensure that the Evidence has not Been
Substituted, Contaminated, Tampered
With, Replaced, or Altered in Any Respect
Material to the Proposed DNA Testing

Vaginal, rectal and oral swabs, samples from
the tissue, underpants, and towel found at the first
crime scene as well as the green shirt and towel found
at the second crime scene have been held by the ASCL
since 1993, and at Ccllmark since 1997, when the
second trial began. (Exh. Ci). All of this evidence has
been retained by ASCL without interruption under
the laboratory’s mandatory conditions for safe-

140a
guarding biological evidence,10 There is no evidence
demonstrating or reason to believe that the biological
evidence has been in any way compromised.
Cellmark analyst, Melisa Weber, confirmed at
the trial that a package brought to court contained “a
whole bunch of tubes” filled with DNA generated from
the previous testing that “contain the material
cuttings from which I extracted the DNA.” 11/20/1997
Tr. at 38-39. She noted that the tubes also contained
samples that constituted “a future testing sampler
meaning if another laboratory wanted some of the
original evidence to test themselves, then some
evidence is put inside before I tested it for anyone else
to test, so there are some of those in here as well,” Id.
at 39. These tubes, along with several hairs, the bite
mark swabs, and other pieces of physical evidence,
were likely all returned to the DPD by Cellmark and
should have been safetly kept within the DPD’s

10

The purpose of DNA testing, is not merely to obtain a profile,
but to compare any male DNA profile found on the knife to
the over 10 million profiles in the national and state DNA
databases and see if the DNA matches a convicted and/or
incarcerated offender. To this end, any possible handling by
a prosecutor, law enforcement officer, or other governmental
agent would be irrelevant. STR testing of probative evidence
and a subsequent CODIS upload of any DNA profile procured
from that evidence has repeatedly been used by law
enforcement in Arkansas, and throughout the country, to
identify perpetrators of serious crimes (both new and “cold”),
including sexual assaults, robberies and murders. Clemons
v. State, 2010 Ark. 337, 369 S.W.3d 710 (five years after
crime, evidence from stabbing murder was tested and pulled
profile led to CODIS hit linking Appellant to crime); see also
State v. Armstrong, 2013 Ohio 2618, 993 N.E.2d 836 (June
24, 2013) (DNA from knife discovered at crime scene led to
hit in CODIS database).

141a
custody and control since Petitioner’s 1997 trial.11 See
Exhibit H at 3.
C.

The Petitioner’s Proposed Testing of the
Physical Evidence is Scientifically Sound,
Consistent With Accepted Forensic
Practices, Reasonable in Scope, and
Includes New Forms of DNA Testing That
Are Substantially More Probative Than
Prior
Testing
Technologies,
Thus
Rebutting the Presumption Against
Timeliness

As will be discussed infra, new forms of forensic
DNA testing that did not exist and were entirely
unavailable at the time of Petitioner’s first and second
trials, and others that are substantially more
probative than the DNA methods used at Mr.
Johnson’s 1994 and 1997 trials can now be deployed
to analyze the collected biological evidence.
1.

The proposed DNA testing is
scientifically sound and
consistent with accepted
forensic practices and the
technology to be used is
substantially more probative
than the technologies used at
Mr. Johnson’s 1994 and 1997
trials.

Forensic DNA testing methodologies have not
been considered “novel science” in Arkansas since
1996 and have been admissible evidence since 1991.

11

Counsel was unable to obtain an inventory from DPD of the
evidence in their possession at the time of filing.

142a
Moore v. State, 323 Ark. 529, 915 S.W.2d 284 (1996);
Engram v. State, 341 Ark. 196, 15 S.W.3d 678 (2000);
Whitfield v. State, 346 Ark. 43, 45, 56 S.W.3d 357, 358
(2001) (citing Prater v. State, 307 Ark. 180, 820 S.W.2d
429 (1991)). Indeed, today’s forensic DNA testing
methodologies are inarguably more sensitive,
discriminating, and accurate than almost any other
form of evidentiary proof. See Maryland v. King, 133
U.S. 1958, 1964 (2013) (“The only difference between
DNA analysis and fingerprint databases is the
unparalleled accuracy DNA provides.”).12
At the time of Mr. Johnson’s 1994 trial,
Cellmark Diagnostics performed RFLP, DQ-Alpha,
and Polymarker testing. (See Exh. I at ¶ 9). Three
years later, Cellmark performed additional testing
using Geneprint STR DNA testing. Id. Short Tandem
Repeat (“STR”) “increase[ed] exponentially the
reliability of forensic identification over earlier
techniques” and is “qualitatively different from all
that preceded it.” Harvey v. Horan, 285 F.3d 298, 305,
n.1 (4th Cir. 2002). STR testing fully replaced other
DNA testing methods in the FBI crime laboratory and
most other crime laboratories by 2000.13 Today,

12

The RFLP form of DNA testing used at the time of the
Petitioner’s trial had extremely limited capabilities and is
now obsolete within the forensic DNA context. “[T]he ability
of laboratories to perform DNA typing methods has improved
dramatically . . . due to rapid progress in the areas of biology,
technology, and understanding of genetic theories. In
addition, the power of discrimination for DNA texts has
steadily increased in the late 1990s.” John M. Butler,
Forensic DNA Typing 11-12 (2d Ed. 2005); see also Exh. I at
¶ 11.

13

Butler, supra, 11-12.

143a
autosomal (non-sex determining) STR technology is
the principal mechanism for obtaining DNA profiles in
forensic laboratories around the nation, and is
essentially the gold standard of modern DNA
testing.14
For a decade, the forensic science
community used a minimum of thirteen genetic
markers, referred to as the thirteen core CODIS
(Combined DNA Index System) loci, when conducting
forensic DNA testing.15
However, in the 20 years since that particular
form of STR testing was performed, DNA technology
has become “considerably more sensitive and
sophisticated.” Id. at ¶ 10. The tests used at the time
of Mr. Johnson’s prior trials only reported data from 3
genetic markers (called loci) in addition to the marker
that identifies the sex of the contributors. Id. at ¶ 11.
Current kits now test 23 loci. Id. On January 1, 2017,
the National DNA Index System expanded to include

14

Id.

15

The Combined DNA Index System, or CODIS, is the FBI’s
nationwide DNA database. The database contains DNA
profiles collected by federal and state forensic laboratories.
As of February 2017, CODIS contained approximately
12,772,888 offender profiles and 757,650 forensic profiles
from crime scenes and produced over 365,634 profile “hits”
assisting in more than 350,653 Investigations. See Federal
Bureau of Investigation, National DNA Index System
Statistics,
http://www.fbi.gov/about-us/lab/codis/ndisstatistics. Arkansas has its own CODIS compatible DNA
database which has over 159,373 convicted offenders in the
system which have aided in over 4,500 investigations. This
constitutes an average of 15 hits a month in Arkansas due to
CODIS.
See Arkansas State Crime Lab, CODIS,
http://www.crimelab.arkansas.gov/sectionInfo/Pages/codis.a
spx.

144a
these new 20 core loci at crime laboratories
nationwide. The switch “adds seven new markers
carefully selected over a years-long process—making
more certain matches—and potentially solving more
crimes of both the future and even the past.” (See
Exhibit J; Exh. I at ¶ 11 (“By increasing the number
of genetic loci tested from 3 in 1997 to 23 today, we
greatly increase the likelihood of finding genetic
material that will yield useful DNA results.”). This
quantum leap in DNA testing technology allows
forensic scientists to differentiate between individuals
with a radically high, never before seen level of
discrimination.
2.

The requested STR DNA
testing is reasonable in scope

STR testing can generate a profile that is
effectively unique; for example, the probability of a
random, full profile STR-DNA match between two
unrelated persons in the Caucasian population is
conservatively estimated to be more than 1 in a
trillion—far exceeding the size of the world’s entire
population.16 Indeed, in 1997, the State in the instant
case was confident enough in DNA’s forensic abilities
to use it to “bolster” its case against the Petitioner.
See Exhibit K. Since that time, the capacities of DNA
forensic science have radically improved; new forms of
testing, like mitochondrial DNA have been discovered,
and STR technologies now has several sub-categories
of highly refined testing methods, including Y-STR
and MiniFiler testing, that are the appropriate forms

16

Butler, supra, at 505.

145a
of testing to be used on the types of evidence available
for testing here.
(a)

Y-STR DNA testing

Y-STR testing uses the same STR methodology
as autosomal STR testing, but exclusively targets
genetic markers found on the Y chromosome—which
is present only in males. Accordingly, Y-STR DNA
testing can be particularly probative in cases like this
one, where there may be multiple male donors in a
given sample. Through Y-STR testing, male DNA will
not be lost (or masked) by the female victim’s own
genetic contribution. Y-STR testing thus allows for a
more precise and accurate detection of multiple male
DNA profiles in any given sample.17
(b) MiniFiler DNA testing
A new “kit” for the analysis of autosomal STR
loci, called AmpFISTER® MiniFiler™, was developed
and made available for forensic use in early 2007.
Mini-STR analysis can obtain results where
traditional SIR analysis has failed.18 Mini-STRs
correspond to shorter sequences of DNA than those
found in conventional autosomal STRs and are able to
amplify smaller portions of DNA. MiniFiler can thus
17

See, e.g., Sudhir K. Shiba et al., Utility of the Y-STR Typing
Systems Y-PLEX™ 6 and Y-PLEX™ 5 in Forensic Casework
and 11 Y-STR Haplotype Database for Three Major
Population Groups in the United States, 49 J. Forensic Sci. 4
(July 2004); Mark A. Jobling & Peter Oil, Encoded Evidence:
DNA in Forensic Analysis 5 Nat. Rev. Genetics 739, 746 (Oct.
2004).

18

See P. Grubweiser et al., A New “Mini-STR Multiplex:
Displaying Reduced Amplicon Lengths for the Analysis of
Degraded DNA, 120 Int’l. J. Legal Med. 115 (2006).

146a
be used when STR testing is not possible due to
degradation of the evidence; an indispensable
attribute in cases such as this, where the evidence is
more than 20 years old and where the perpetrator may
have tried to flush his DNA from the body of the
victim. Mini-STR testing has already served to
exonerate at least one wrongfully convicted individual
where traditional STR failed.
In 1983, Rickey
Johnson was convicted of rape. Initial STR DNA
testing on the victim’s vaginal swab yielded DNA
markers from the assailant’s spermatozoa at only 3
out of 15 loci due to the apparent degradation of the
sample. When the sample was re-tested using MiniSTRs, however, an additional 8 loci were detected,
resulting in a combined 11-loci profile suitable for
comparison. Mr. Johnson’s sample was tested, and
he was conclusively excluded as the source of that
DNA. The profile was entered into CODIS and “hit”
to John Carnell McNeal, who was already in prison for
an identical rape in the same apartment complex.19
(c)

Mitochondrial DNA
Testing

Mitochondrial
DNA
testing
(“mtDNA”)
analyzes DNA found in the cytoplasm of the cell; that
is, the area that surrounds the nucleus.
The
mitochondria genome, which is unchanged as it is
passes from mother to child, is passed on to all the
offspring of a mother and to those children’s offspring.
Mitochondria’ DNA testing thus provides one

19

Vickie Welborn, Leesville Man Freed After Wrongful
Conviction, Shreveport Times (Jan. 12, 2008). Based on
these extraordinary results, Mr. Johnson was immediately
freed from prison after 25 years of wrongful imprisonment.

147a
particular advantage over STR testing; it can be
compared to forensic samples that do not have the
nucleated chromosomal information required for STR,
and thus may be used on biology without nucleated
cells, including hair with no “root,” and bones.
Given the range of evidence collected in this
case and the different forms of testing that would be
required to obtain the most definitive results, the
proposed testing is reasonable in scope and necessary
to fully prove Mr. Johnson’s actual innocence claim.
Accordingly, the presumption against timeliness is
rebutted.
See A.C.A. § 16-112-202(10)(Bkk)(iv);
Carter v. State, No. CR-13-359, 2015 Ark. 57, *7 (Ark.
February 26, 2015) (slip opinion attached hereto as
Exh. L).
D.

The Petitioner’s Identity Was at Issue
During the Investigation and Prosecution
of Carol Jean Heath’s Rape and Murder

The identity of the perpetrator of Ms. Heath’s
murder has always been at issue as the Petitioner has
maintained his actual innocence of the crime since the
time of his arrest, has consistently pled not guilty, and
has strenuously litigated his innocence claim.
E.

Petitioner Can Identify a Theory of
Defense That is Not Inconsistent With His
Defense at Trial and May be Able to
Produce
New
Material
Evidence
Establishing His Actual Innocence

In light of his two decades old innocence claim,
Petitioner can readily identify a theory of defense
consistent with the “not guilty” plea presented at trial
that could establish his actual innocence.

148a
Prior DNA testing indicates that Ms. Heath’s
blood was found on the items of clothing strewn in the
woods. There is no rational explanation for how those
clothes ended up miles from Mr. Heath’s home except
that they were worn by the perpetrator of her murder
and sexual assault and then discarded in flight from
the crime. Here, one of the only constants in the
murder investigation was the green shirt found at the
second crime scene. That shirt was clearly worn by
the perpetrator, and the victim’s blood was also found
on it. 11/20/1997 Tr. at 40. Accordingly, testing of
“wearer DNA” on the green shirt and the white t-shirt
and on the hairs on both, could identify the murderer
either by matching a known suspect such as Branson
or providing an STR profile that, when searched
through the CODIS DNA database, identifies a
heretofore unknown offender. See Exh. I at ¶ 25.
Should no SIR profile be possible, mitochondria
testing could similarly be associated with a known
suspect like Branson even if such results could not be
searched in the CODIS DNA database.
At trial, the State argued that Ms. Heath was,
in fact, sexually assaulted. This assertion was
supported by the testimony of the medical examiner
who determined that the abrasion on Ms. Heath’s
labia was consistent with an assault. Testing of a
variety of sexual assault evidence collected can both
exclude Mr. Johnson and identify another man as the
murderer. As part of hiding the signs of any assault,
the State argued Mr. Johnson used the douche bottle
to eliminate all traces of male DNA from the victim’s
vaginal vault. DNA testing on the bottle itself may
reveal a male profile that excludes Mr. Johnson and
matches either a known suspect like Branson or hits
to an offender in the CODIS DNA database. See Exh.

149a
I at ¶ 21. The same is true for swabs taken from the
bite marks on Ms. Heath’s body that have already
tested positive for amylase, indicating that saliva was
left by the perpetrator.
Hairs found in the victim’s hand, as well as on
and near her body, especially where they are from the
same male source as DNA from the sexual assault
evidence, could now provide irrefutable evidence of
innocence.
Either through standard STR or
mitochondrial testing, both methods could provide
identifying information. This is particularly relevant
here where several hairs wore found at the crime
scene and on the clearly probative clothing, identified
as Caucasian hairs that did not match the victim, and
were never sent for DNA testing. These items
themselves could clearly provide a true perpetrator if
subjected to testing. See Exh. I at ¶ 26.
Even absent a match to Branson or another
known offender in the CODIS DNA database, if one or
more of these profiles in any combination provide the
same profile of an unknown or heretofore
uninvestigated male—in tandem with the absence of
Mr. Johnson’s DNA—such a redundancy would
definitively point to an actual perpetrator and fully
exonerate Mr. Johnson.20
REQUEST FOR HEARING
Mr. Johnson respectfully requests that the
Court schedule a hearing so that the Court can

20

Mr. Johnson asserts that he was involved in a consensual
relationship with Ms. Heath. Accordingly, the presence of
his profile on certain items gathered from the crime scene
could have an altogether benign reason for their appearance.

150a
carefully consider expert and other evidence
supporting this Motion for DNA testing. In Carter v.
State, the Arkansas Supreme Court held that an
evidentiary hearing is necessary where a person
seeking post-conviction DNA testing alleges facts that
entitle them to relief. See Carter, 2015 Ark. 57. In
Carter, the movant alleged a proper chain of custody
as to the items at issue in the case, but the State
contested this element. The trial court summarily
denied DNA testing based in part on a finding that
Carter had failed to establish a proper chain of
custody. The Supreme Court reversed this judgment,
holding that the trial court should have afforded
Carter a hearing to resolve this contested fact issue.
See id. at *6. Just as in Carter, Mr. Johnson has
alleged facts which establish his right to relief.
Accordingly, this Court should schedule a hearing at
which Mr. Johnson may present evidence to prove all
of the facts alleged in this Motion.
CONCLUSION
For all the aforementioned reasons, Petitioner’s
request that forensic DNA testing be performed on the
several items of evidence collected in this case - with
all costs to be paid for by the Innocence Project—
should be granted.
WHEREFORE, The Petitioner states the
following requests for relief:
1.
An Order granting a hearing at which
Mr. Johnson, through undersigned counsel, may fully
present the evidence supporting this motion;
2.
An Order releasing the already collected
evidence to an accredited, CODIS-eligible, private
DNA laboratory;

151a
3.
An Order compelling the State of
Arkansas, the DeQueen Police Department, and the
Arkansas State Police (1) to conduct an extensive and
thorough search for any and all evidence relating to
the Petitioner’s case21, (2) to inventory all case related
evidence still in existence (conducted in such a way to
prevent contamination), and (3) to document all the
steps and places searched, the results of that search
and/or
destruction documents
detailing
the
explanation for the absence of any relevant evidence;
4.
An Order compelling the State of
Arkansas to properly preserve any additionally
discovered physical evidence until further order from
this Court and, if such evidence were to be discovered,
to allow for an amended testing order to include
additional DNA testing of any probative evidence;
5.
An Order compelling the State of
Arkansas, the DeQueen Police Department, and the
Arkansas State Police to disclose and turn over all
evidence accrued from any prior DNA testing or
investigation in the Petitioner’s case and all relevant
documents, including and not limited to police reports,
lab reports, photographs, trial exhibits, bench notes,
etc. regarding the Petitioner’s case;
6.
An Order staying Mr. Johnson’s
scheduled execution to accommodate the Court’s

21

Petitioner is well aware of the limited time and resources
available to law enforcement agencies.
Accordingly,
Petitioner would also pay for an agreed upon, qualified, third
party to assist in such a search under the supervision of the
aforementioned agencies.

152a
consideration of this motion and the requested DNA
testing.
7.
Any other Order that the Court deems
necessary to adequately protect the Petitioner’s state
and federal constitutional rights.

Respectfully submitted this 13th day of April, 2017.

153a

154a
CERTIFICATE OF SERVICE
I, Jeff Rosenzweig, hereby certify that I have
served a copy of the foregoing Motion on the below
attorney for the State and on Petitioner, Stacey
Eugene Johnson, by United States Postal Service on
this 13th day of April, 2017.
Bryant L. Chesshir, Esq.
Prosecuting Attorney
122 Bishop St
Nashville, AR 71852

155a
IN THE
SUPREME COURT OF ARKANSAS
STACEY EUGENE JOHNSON APPELLANT
VS.

CR 18-700 CAPITAL CASE

STATE OF ARKANSAS APPELLEE

AN APPEAL FROM THE SEVIER COUNTY
CIRCUIT COURT
NINTH WEST JUDICIAL DISTRICT
HON. CHARLES YEARGAN, Circuit Judge

APPEAL FROM THE ORDER DENYING
APPELLANT’S MOTION FOR POSTCONVICTION DNA TESTING PURSUANT TO
ARKANSAS’S HABEAS CORPUS – NEW
SCIENTIFIC EVIDENCE STATUTE §§ 16-112201 ET SEQ.

KAREN THOMPSON (pro hac
vice)
THE INNOCENCE PROJECT
40 Worth Street, Suite 701
New York, NY 10013
(212) 364-5347
kthompson@innocenceproject.
org

ERIN CASSINELLI
Arkansas Bar No. 2005118
LASSITER & CASSINELLI
813 West 3rd Street
Little Rock, AR 72201
(501) 370-9300
erin@lcarklaw.com

156a

VI.

Attorneys for Appellant

STATEMENT OF THE CASE
Stacey Johnson was convicted for the murder of
Carol Heath (“Ms. Heath”) in 1994. This Court
reversed and ordered a new trial. Johnson v. State,
326 Ark. 430, 437, 934 S.W.2d 179, 182 (1996)
(“Johnson I”). Mr. Johnson was again found guilty of
capital murder and sentenced to death. This Court
affirmed. Johnson v. State, 342 Ark. 186, 190, 27
S.W.3d 405, 408 (2000) (“Johnson II”).
Mr. Johnson filed a Rule 37 and an Act 1780
petition, which were both denied by the circuit court.
The denials were appealed; this Court partially
reversed and remanded the Act 1780 petition.
Johnson v. State, 356 Ark. 534, 543, 157 S.W.3d 151,
159 (2004) (“Johnson III”). On remand, the circuit
court refused to order testing. On appeal, this Court
affirmed the decision. Johnson v. State, 366 Ark. 390,
395, 235 S.W.3d 872, 876 (2006) (“Johnson IV”). Mr.
Johnson’s habeas petition was denied in 2007, and the
denial was affirmed by the Eight Circuit. Johnson v.
Norris, 537 F.3d 840 (8th Cir. 2008) (“Johnson V”).
On April 13, 2017, Mr. Johnson filed a Motion
for DNA Testing and a Request for Hearing (the
“Motion” or “Petition”). The Circuit Court denied and
dismissed.
This Court reversed and remanded,
granting a stay of execution and a hearing on the
testing. Johnson v. State, 2017 Ark. 137, 2017 WL
1455038 (2017) (“Johnson VI”). On May 9, 2018, the
Circuit Court denied the DNA Petition.

157a
Factual History
As the facts have been repeatedly provided in
prior appeals in this case, Mr. Johnson limits his
recitation to those facts that are central to this appeal.
On April 2, 1993, Ms. Heath’s sister-in-law
went to the DeQueen house where Ms. Heath lived
with her two children—Ashley and Jonathan—
sometime between 6:00 and 6:30 a.m. and discovered
her body in a pool of blood. (Ab. 58.)1
Ms. Heath’s throat was cut. (R3. 978.) She had
several defensive wounds and injuries, including cuts
and bruising on her fingers, arms, and legs. (R3. 1284;
see also R4. 100-106.) There were bite marks on her
left and right breasts. (R3. 1285; see also R4. 105.) A
t-shirt had been placed across her throat, her
underwear was next to her right leg and a towel above
her head. (Ab. 59-60.) A pool of semi-clear fluid was
around her genitals. (Ab. 59-60.) A bloody shoe print
was on her thigh. (Ab. 59.) Caucasian hairs—not Ms.
Heath’s—were recovered from (1) tissue paper found
under her body (R3 121, R4. 69), (2) a wash cloth (R1.
463; R4. 68), and (3) a towel discovered at the second
crime scene, none of which were sent on for DNA
testing.
(R3. 121.) Police remarked that
“whomever . . . entered [the] house did [so] voluntarily
through the front door.” (Ab. 64.) Ms. Heath’s hands
and feet were bagged to preserve trace evidence. (Ab.
58-59.)
DeQueen Police Department (“DPD”) Officer
Hayes McWhirter “interview[ed] neighbors to see if
they had seen anything.” (Ab. 79.) He “received

1

Record citation conventions are as explained on Abstract 1.

158a
information from one of the [DPD] police officers” that
Ashley “had told some of [Ms. Heath’s] relatives that
a black male had been at their apartment.” (Ab. 82.)
DPD officers “check[ed] to see if . . . anyone knew of
any black males that had been to [the] apartment.”
(Ab. 81-82.) In a sworn affidavit, Officer McWhirter
noted that “in interviewing witnesses and suspects . . .
it was learned that the victim knew Johnson in at
least a social manner” and that “Johnson had been in
the home of the victim, socially.” (AD0413.) Based on
statements by “different people,” Officer McWhirter
requested a photo array from the DPD, which included
Mr. Johnson. (Ab. 82.) DPD officers went to Mr.
Johnson’s stepmother’s home the morning of April 2
to look for him. (Ab. 70.)
Officer McWhirter interviewed Ashley later
that afternoon. (Ab. 80-81.) He did not tape record
this interview. (AD0393.) Ashley provided several
accounts of the murder. First, she said that “a black
man broke in last night.” (Ab. 58.) Then, she said “her
mother [had been] asleep and [was] awaken[ed] by . . .
someone in the house . . . [H]er mother got up to see
who was there . . . [and] the next thing [Ashley] knew
was that her mother had fallen.” (R4. 2280.) She then
allegedly told an aunt “a black man had broken into
the house and killed her mama.” (R4. 1310.) Ashley
allegedly told her grandmother she had seen a “tall,
chunky black man” (R4. 1333) who “had on a black
shirt, green jacket, blue jeans and . . . boot”. (R4.
1320.) The man sat “on her mother’s . . . couch, . . . had
a gun . . . [and] was just twisting it around or . . .
playing with it.” (R4. 1331.) When psychologist Dr.
Camille Barnes showed Ashley the same photo array
Officer McWhirter had shown, Ashley twice stated
that “[t]he creep that killed my mother is not there.”

159a
(Ab. 83-84.) Psychological examiner Jill Smith, who
also treated Ashley, stated there was “some question
as to whether or not [she] really witnessed” the crime.
(AD0360-AD0362.)
Several Caucasian hairs microscopically
dissimilar from the victim’s own hairs—including an
“inch and a half red beard hair” (R2. 204)—were
recovered from, among other places, “bags from [Ms.
Heath’s] hands” (R3. 120), the “white t-shirt” (R1.
460), and the “green sheet” (R1. 460) in which the Ms.
Heath’s body was transported to the medical
examiner. Mr. Ramsey, Ms. Heath’s ex-boyfriend, was
described as having a “kind of reddish brown beard.”
(R2. 71.) He testified that he dated Ms. Heath from
“Christmas [1992] through . . . late February [1993],”
but was no longer dating her on April 1, 1993 and
“hadn’t been in sometime (sic)” to her house. (R4.
2979.) Ashley at one point stated that Mr. Ramsey
had been involved in her mother’s murder. (R3. 1477.)
In preparation for trial, defense counsel
consulted with DNA expert Dr. Ronald Rubocki. (R.
86-90.) Dr. Rubocki noted: “[t]here are numerous
other hairs . . . associated with this case that may have
also been informative and led to a different or
additional suspect.” (AD0323-AD0327.) Dr. Rubocki
also noted the “negative aspects about specimens such
as cigarette butts and unbound (loose) hairs,” namely
“that they can be transferred from or between
evidence articles if caution is not taken during
collection.” (AD0323-AD0327.)
In its closing, the State argued Mr. Johnson
murdered and sexually assaulted Ms. Heath, and used
a douche bottle “to get rid of . . . any evidence that
could . . . connect him with that crime.” (R3. 1518.)

160a
The State focused on several pieces of evidence that it
argued connected Mr. Johnson to the crime,
notwithstanding exculpatory evidence. For example,
the State noted that Ms. Heath’s blood was “all over
th[]e clothes” found at the second crime scene—not
mentioning that Mr. Johnson’s DNA was not.
Additionally, the State emphasized that saliva from
Ms. Heath’s breast swab was “consistent with [Mr.
Johnson’s] blood type and . . . secretor [status]” but
failed to note Mr. Johnson was excluded as the source
of DNA on that same swab. (R3. 1519-1521.) Even
though clothing found at a second crime scene was
never definitively established as belonging to Mr.
Johnson (Ab. 68-70) and despite the fact that several
items of deeply probative physical evidence found at
the crime scene—including Caucasian hairs in the
victim’s hands—were never subjected to DNA testing,
Mr. Johnson was again convicted of murder and
sentenced to death.
VII.
ARGUMENT
A trial court’s decision for post-conviction relief
will not be reversed unless clearly erroneous. Johnson
v. State, 356 Ark. 534, 542, 157 S.W.3d 151, 158 (2004)
(“Johnson III”); Pankau v. State, 2013 Ark. 162, at 5,
2013 WL 1694909, at *3 (2013). This court will not
“reverse a denial of postconviction relief unless the
trial court’s findings are . . . clearly against the
preponderance of the evidence.” Davis v. State, 366
Ark. 401, 402, 235 S.W.3d 902, 904 (2006). “[I]ssues
concerning statutory interpretation are reviewed de
novo.” Clemons v. State, 2014 Ark. 454, 8, 446 S.W.3d
619, 623–24 (2014). Both a clear error and de novo
standard of review are applicable here.

161a
I.

THE LOWER COURT ERRED IN RULING
THAT MR. JOHNSON FAILED TO MEET
THE
REQUIREMENTS
FOR
DNA
TESTING BOTH PREVIOUSLY TESTED
AND UNTESTED EVIDENCE.

The vast majority of the items Mr. Johnson
currently seeks to test have never been tested or
examined.2 (AD0281; see also R. 26-26(a)-(b).)
A.

Mr. Johnson Has Neither Knowingly
Failed to Request Nor Waived the Right to
Test the Previously Untested Evidence.

Where evidence has not previously been tested,
a defendant must show he did not “[k]nowingly and
voluntarily waive the right to request testing of the
evidence in a court proceeding commenced on or after
August 12, 2005,” and “[k]nowingly fail to request
testing of the evidence in a prior motion for postconviction testing.” Ark. Code Ann. § 16-112-202(2).
The trial court’s holding that the “specific evidence to
be tested was . . . declined, based upon discussions
trial counsel had both with Petitioner and their DNA
expert,” is erroneous and must be reversed. (AD0292AD0330; AD0342-AD0346.)

2

The trial court’s suggestion that the availability of new
evidence is relevant to the question of a grant of DNA testing
here is incorrect. (AD0342-AD0346.) Newly discovered
evidence is an enumerated basis for rebutting the
presumption against timeliness, but not one upon which Mr.
Johnson relies. See Ark. Code Ann. § 16-112-202(B)(ii); §
I(C), infra.

162a
1.

Mr. Johnson Did Not Knowingly
and Voluntarily Waive the Right
to Request Testing of Untested
Evidence at Either His 1997 Trial
or in His 2001 Act 1780 Petition.

The court proceedings in Johnson IV and
Johnson V are extensions of the litigation begun with
the filing of Mr. Johnson’s 2001 Act 1780 petition.
Accordingly, no new “court proceedings” commenced
on or after August 12, 2005.
2.

No Knowing Failure to Request
Testing Occurred at the Time of
Mr. Johnson’s 2001 Petition.

An argument that Mr. Johnson “knowingly
failed to request testing” in a prior motion for postconviction testing likewise fails. The question of what
constitutes a “knowing failure” within the context of
16-112-202(2)(B) has not yet been addressed by this
Court. However, this Court’s prior jurisprudence
indicates no such “knowing waiver” is present here.
A knowing waiver requires, minimally, that the
trial court satisfy its “weighty responsibility in
determining whether an accused has ‘knowingly and
intelligently’ waived . . .” the right bestowed on him by
law. Gibson v. State, 298 Ark. 43, 45, 764 S.W.2d 617,
618 (1989) (citing Johnson v. Zerbst, 304 U.S. 458
(1938)); see also Flowers v. State, 362 Ark. 193, 206,
208 S.W.3d 113, 123-24 (2005) (“did Appellant waive
his rights with ‘full awareness of both the nature of
the right being abandoned and the consequences of
the decision to abandon it.’” (quoting Sanford v. State,
331 Ark. 334, 346, 962 S.W.2d 335, 341-42 (1998)).
Such a determination requires a full examination of

163a
whether a defendant received “specific warning of the
dangers and disadvantages” or has been made
“sufficiently aware of his right” and the “possible
consequences of a decision to forego” if the waiver is
accepted. See Hatfield v. State, 346 Ark. 319, 325-26,
57 S.W.3d 696, 700-01 (2001). Even if such an inquiry
had been conducted by the trial court, which it was
not, no such waiver occurred here.
(a) Mr. Johnson Affirmatively
Pursued DNA Testing Prior To Trial.
The trial court’s vague finding here was that
testing was waived “based upon discussions trial
counsel had both with Petitioner and their DNA
expert” at the Rule 37 hearing. (R. 139.)
As a preliminary matter, the “discussions” the
trial court mentions were held in 1997, not in 2001,
when Mr. Johnson’s first motion for post-conviction
DNA testing was filed. See Ark. Code Ann. § 16-112202(2)(B) (“Knowing[] fail[ure] to request testing of
the evidence in a prior motion for post-conviction
testing.” (emphasis added)). The testimony of the
defense counsel at the Rule 37 hearing likewise
reflects that there was no conscious decision to forgo
testing on the untested items at issue here, but only
with respect to the Negroid hairs as a matter of trial
strategy (items that are not included in Mr. Johnson’s
current request for testing). (Ab. 55, 57.)
Mr. Johnson never waived his right to DNA
testing; rather, he “specifically discuss[ed]” the issue
with and directed his counsel to pursue it. (Ab. 55.)
Indeed, his counsel’s attempt to obtain such testing at
the time of his 1997 trial, through a motion for a
continuance, was denied by the trial court. (Ab. 51,

164a
54-55.) Since that time, Mr. Johnson has filed a Rule
37 Petition arguing ineffectiveness of prior counsel for
failing to request DNA testing and an Act 1780
Petition asking for additional testing, underscoring
his desire to continue to seek DNA testing under the
statute. (R2. 124.) Both requests were denied by the
trial court and those denials were then affirmed by
this Court.
(b) Mr. Johnson Could Not
Knowingly Fail to Request Entirely New Forms of
DNA Testing, Collection, and Analysis That Did Not
Exist in 2001.
Even had Mr. Johnson waived his right to DNA
testing, a preponderance of the evidence would show
that such waiver would be improper as no warning
about the dangers and disadvantages of foregoing
testing could have been provided to him. While STR
testing has been available since 1996, the forms of
testing available at the time of Mr. Johnson’s 2001
request were of an entirely different caliber than those
available today.
Mr. Johnson could not have
knowingly waived his right to the currently requested
DNA testing because the testing he now seeks either
did not exist or was in limited usage at the time of his
last request. None of the aforementioned technologies
or methods could possibly have been in Mr. Johnson’s
(or his counsel’s) ken, and could not have been
requested, much less waived. If John Butler, a
forensic DNA expert, marvels at “how rapidly forensic
DNA analysis methods have progressed in the last two
decades,” it is unrealistic to expect a death row inmate
to be well versed in the scientific developments in the
field. John M. Butler, Forensic DNA Typing: Biology,

165a
Technology, and Genetics of STR Markers 11-13 (2d
ed. 2005).
B.

New
DNA
Testing
Methods
and
Technologies
Substantially
More
Probative Than Those Used in 1997 on the
Previously Tested Items of Evidence Now
Exist.

For previously tested evidence, a defendant
must show that the requested testing uses “a new
method or technology that is substantially more
probative than the prior testing.” Ark. Code Ann. §
16-112-202(3). Here, the trial court denied testing on
the previously tested items because “the testing
requested . . . does not embrace any new technique or
method of technology that is substantially more
probative than the prior testing and has been
available and was used in [Mr. Johnson’s] 1997 trial.”
(AD0342-AD0346.)
This holding, that the requested testing is not a
new technology because forms of “DNA-STR-type
testing” were available in 1997 (R. 140), categorically
misapprehends modern DNA testing, avoids the
expert testimony presented at the November 15, 2017
hearing, and ignores the evolution of DNA testing
methods and technologies in the years since testing
was last performed.
To state that the testing
capacities available in 1997 (or even 2001) are the
same as those available in 2018 is akin to arguing that
because the 1908 Ford Model-T and 2018 Tesla Model
S are both types of cars, the features of a 2018 Tesla
must be essentially the same as those of a 1908 ModelT.

166a
Within the last two decades, DNA testing has
radically
advanced
in
(1)
sensitivity
and
discriminatory ability, (2) forms of testing, and (3)
methods of collection and analysis. As DNA expert
Meghan Clement testified: “it is possible to
distinguish mixtures more easily today . . . we could
subtract [Ms. Heath’s profile] from the overall
mixture . . . in order to develop a profile which may or
may not be CODIS-eligible.” (Ab. 8.) Cellmark
forensic analyst Huma Nasir similarly noted:
Modern DNA technology . . . is
considerably
more
sensitive
and
sophisticated than the testing available
in 1994 and 1997 . . . and in 2002 . . .
Current DNA technology is sensitive
enough to identify an individual’s unique
DNA profile from a microscopic amount
of
biological
material
previously
undetected . . . [and] is also designed to
develop DNA profiles from poorly
preserved or decades-old degraded
samples
that
were
[previously]
unsuitable for testing.
(AD0132-AD0163.) Here, using the new technologies,
the clothing and breast swabs may now provide
profiles where previously no male DNA was found at
all.
Developments in the sensitivity of DNA testing
have also dramatically changed where DNA can be
found, creating the possibility of finding DNA on
evidence that was not even testable fifteen ago.
Again, Ms. Nasir:

167a
In 2002 and before, it was common . . . to
test only those samples with viable
stains or those otherwise known to
contain biological material . . . [b]y
contrast, forensic scientists now collect
and test samples from items where no
biological material is visible . . . [W]e now
sample items that were only touched or
handled by the perpetrator of a crime to
test ‘touch DNA.’
(R. 180-181.) Ms. Clement testified that today, “as
little as 250 picograms” of DNA are needed to obtain
a full and interpretable DNA profile. As “each cell has
6.6 picograms of DNA . . . [, only] about 35 [or] 40 cells
would be sufficient to develop a profile.” (Ab. 8.)
In addition, today’s new STR kits “provide[] . . .
exponentially greater discriminatory power, allowing
forensic scientists virtual certainty as to the identity
of the source of DNA.” (Ab. 8, AD0132-AD0168.) In
January 2017, a new DNA testing kit standardizing
the expansion of genetic “markers” became available,
dramatically improving the discriminatory power of
the testing and “greatly increas[ing] the likelihood of
finding genetic material that will yield useful DNA
results.” (AD0132-AD0163.) This increase in testable
loci added “weight and breadth to forensic science” – a
development that could mean “the difference between
a case breakthrough and an inconclusive result.” Seth
Augenstein, DNA Core Loci Expanding in Two Weeks,
Forensic Mag.
(Dec. 15, 2016, 4:44 PM),
https://www.forensicmag.com/news/2016/12/dna-coreloci-expanding-two-weeks.

168a
There are now entirely new forms of STR DNA
testing available that were either in very limited use
or not yet in existence at the time of testing in 1997
that could now provide previously unavailable
probative DNA information. See Carter v. State, 2015
Ark. 57, at 7, 536 S.W.3d 123, 127 (2015); see also (R.
42, 103-104.)
Y-STR testing, which only became available at
the Arkansas State Crime Lab (“ASCL”) in 2007, tests
for DNA on the Y chromosome. (AD0282.) This testing
makes it possible to separate out multiple male
profiles in a single biological sample and find male
DNA in a sample where that biology would otherwise
have been overwhelmed by a female donor. (Butler, at
202; Ab. 9, 14.) Such testing can be used to retest the
breast swabs, prior testing of which indicated the
presence of an enzyme in saliva and excluded Mr.
Johnson as a donor. Even if Mr. Johnson’s DNA is
present on the swabs with a mixture of male DNA
obtained, a second unknown male donor can now be
identified. Mini-STR testing, which became available
at ASCL in 2009, applies STR technology to commonly
observed DNA samples involving distinctly degraded
biological evidence. (AD0282.) The testing enhances
genetic samples, thus revealing a profile that may
have previously been deemed inconclusive. (Butler, at
148.)
In addition, new methods of DNA collection and
analysis are now available. Robotic extraction can
“increase . . . the yield of DNA extracted from a
forensic sample.” (AD0132-AD0163.) Laboratories
can concentrate samples where only minute amounts
of DNA exist, making it possible to “obtain useful DNA
profiles even from samples that may contain only a

169a
few skin cells.” (R. 105.) Sampling techniques now
include “scraping,” a technique enabling the collection
of “more [genetic] material than the sampling
techniques . . . DNA scientists may have used in 2002
on similar items.” (AD0132-AD0163.)
In 2004, this Court held that comparing profiles
of Caucasian hairs gathered at the crime scene with
those in the CODIS databank was so speculative an
exercise that Mr. Johnson’s defense attorney could not
be faulted for “not having pursued it.” Johnson III,
356 Ark. at 548-49, 157 S.W.3d at 162. Today, over
5,200 of precisely those kinds of matches have been
made by law enforcement in Arkansas alone.3 See
CODIS-NDIS Statistics, FBI, https://www.fbi.gov/
services /laboratory /biometric-analysis/codis/ndisstatistics (last visited Oct. 6, 2018).
Any concern that the ever-evolving nature of
DNA technology will “do away with finality in
judgments,” allowing a defendant to “test and retest
evidence repeatedly” is unfounded and an
inappropriate basis for denying Mr. Johnson’s
petition. Johnson III, 356 Ark. at 549-50, 157 S.W.3d
at 163. First, Mr. Johnson does not seek new testing
on the African-American hairs and cigarette butt,
recognizing that the results of the 1997 testing on the
hair were discriminatory enough to include him as the
source of the hairs. Second, much of the evidence Mr.
Johnson seeks to test either was never tested or, when
tested, did not obtain dispositive results, such that

3

Mitochondrial DNA (or “MtDNA”) testing is also a viable
testing method for Mr. Johnson to pursue. Even though this
testing was available in 2001 at the ASCL, it only became
available for a six to eight month period that year. (AD0282.)

170a
additional testing is necessary. Without such testing,
however, a defendant is deprived of the certainty that
rigorous DNA testing technology now makes
possible—a deprivation that is of greatest significance
here, where Appellant has been sentenced to death
and could be exonerated based on such testing results.
C.

Mr. Johnson Rebuts the Presumption
Against Timeliness Because Substantially
More Probative DNA Testing Methods and
Technologies Exist, a Manifest Injustice
Would Result Should He be Denied DNA
Testing, and He Has Shown Good Cause.

Despite the court’s assertion that “the ‘new’
testing Petitioner proposes has been available since
2009,” there is no statutory support for the contention
that a defendant must request testing when it first
becomes widely available. As this Court has already
held, “the [S]tatute imposes no time limitation for
rebutting a presumption against timeliness.”
Further, although Mr. Johnson has satisfied several
of these bases for rebuttal, “a petitioner need only
satisfy one of the enumerated bases for rebuttal.”
Carter v. State, 2015 Ark. 57, at 7-8, 536 S.W.3d 123,
127 (2015).
First, as noted supra, entirely new forms of
substantially more probative DNA technology now
exist.
Ark. Code Ann. § 16-112-202(10)(B)(iv).
Second, because Mr. Johnson’s assertion of innocence
is rooted both in physical and documentary support,
the denial of testing here would result in a manifest
injustice: the execution of a possibly innocent man.
Ark. Code Ann. § 16-112-202(10)(B)(iii); see also
Wallace v. State, 2011 Ark. 295, at 4-5, 2011 WL
3137811, at *2. Lastly, the mere fact that Mr. Johnson

171a
has been sentenced to death constitutes sufficient
good cause to find his motion timely. See Ark. Code
Ann. § 16-112-202(10)(B)(v). See also, e.g., Wertz v.
State, 373 Ark. 260, 261, 283 S.W.3d 549, 550 (2008);
Echols v. State, 344 Ark. 513, 518, 42 S.W.3d 467, 470
(2001). It also stands to reason that the achievement
and maintenance of public confidence in the accuracy
of a verdict is a form of “good cause,” particularly
where, as here, the vast majority of potentially
exculpatory physical evidence remains untested.
For all these reasons, the trial court clearly
erred in finding that Mr. Johnson knowingly failed to
request DNA testing on the untested evidence.
II.

THE LOWER COURT ERRED IN RULING
THAT UNKNOWN MALE DNA OBTAINED
FROM HIGHLY PROBATIVE CRIME
SCENE EVIDENCE WOULD FAIL TO
PRODUCE NEW MATERIAL EVIDENCE
SUFFICIENT TO RAISE A REASONABLE
PROBABILITY OF MR. JOHNSON’S
ACTUAL INNOCENCE.

The trial court also denied Mr. Johnson’s
petition on the basis that “[w]hile the proposed testing
and retesting of evidence . . . may produce evidence
that would support a theoretical defense, as it would
in almost every case, it would not raise a reasonable
probability under Ark. Code Ann. § 16-112-202 (8)(B),
that the Petitioner did not commit the offense or point
to a third party.” (R. 140-141.) This holding was
clearly erroneous.
“DNA testing of evidence [under the Statute] is
authorized if testing or retesting can provide
materially relevant evidence that will significantly

172a
advance the [petitioner’s] claim of innocence, in light
of all the evidence presented to the jury and the
evidence presented to the trial court at the . . . hearing
[on the petition filed pursuant to the Statute].”
Johnson III, 356 Ark. at 546, 157 S.W.3d at 161
(emphasis added). A defendant need not establish
that DNA evidence would exonerate him to obtain
testing. See, e.g., Foster v. State, 2013 Ark. 61, at 2,
2011 WL 593296, at *1 (2011); Garner v. State, 2012
Ark. 271, at 2, 2012 WL 2149760, at *1 (2012) (per
curiam).
A.

The Proposed Testing Could Provide
Overwhelming Evidence of Innocence
That Would Critically Undermine the
Legitimacy of Mr. Johnson’s Conviction
and Prove His Actual Innocence.

As the trial court noted in its Order, Mr.
Johnson has already demonstrated that “the proposed
testing and retesting of evidence in this case may
produce evidence that would support a theoretical
defense.” (AD0342-AD0346.) The trial court erred,
however, in finding that the evidence would not
significantly advance his innocence claim, or, as is
more likely, be dispositive as to the question of his
innocence. The State’s theory of guilt, as argued at
two separate trials and in five separate appeals, is
that Mr. Johnson, by himself, beat, raped, and
strangled Ms. Heath, and then slit her throat. (R3.
1581-1584.) The State argued Mr. Johnson placed a
“green” sweater4 and other items at the second crime

4

Police photographs showed that the “green pullover shirt”
collected at the crime scene was actually a blue sweater.
(AD0454-0455; see also Ab. 44, 68-69.)

173a
scene. (R3. 1566.) By the State’s own theory of guilt,
several items at both the first and second crime scenes
should bear genetic evidence implicating Mr. Johnson.
Should DNA testing reveal the biology of a man
not Mr. Johnson on evidence, it would, as an initial
matter, cast substantial doubt on the State’s theory of
the case, but it would also raise a reasonable
probability of Mr. Johnson’s actual innocence in three
ways: (1) by excluding him as the source of DNA on
highly probative evidence or finding an unknown male
on that same item of evidence (an “exclusion”
scenario); (2) by finding the same unknown DNA
profile on multiple items of evidence (a “redundancy”
scenario); or (3) by matching an unknown DNA profile
to one in a DNA database (a “CODIS match” scenario).
In an exclusion scenario, the discovery of thirdparty DNA on a single item of highly probative
evidence could wholly exculpate Mr. Johnson as the
perpetrator. For example, given the State’s argument
that Mr. Johnson alone raped Ms. Heath, the presence
of semen or male DNA in the rape kit swabs and
smears5, the douche fluid swabs, her underwear, the
tissue paper found beneath her body, her pubic hairs
or on the breast swabs (which have already shown the
presence of saliva), would constitute irrefutable proof
of an alternative perpetrator.
If, as the State argues, the perpetrator, inter
alia, used the douche bottle to cover up evidence of his

5

While semen was not found on or within Ms. Heath’s body,
advancements in DNA testing have made it possible “even if
there is no ejaculation or digital penetration,” to develop
genetic profiles for comparison, even where a douche has
been used. (Ab. 9.)

174a
rape, wadded up the t-shirt on Ms. Heath’s neck, beat
Ms. Heath hard enough to leave defensive wounds on
her hands and body, and then personally took several
items to a second crime scene, his DNA should be on
these items and/or underneath Ms. Heath’s nails. In
such a “redundancy scenario,” if the same unknown
DNA profile is identified on two or more items, the
“redundant” DNA would be strong evidence of an
alternative perpetrator; particularly if the DNA
profile is found at both scenes.
Lastly, in a “CODIS match” scenario, an eligible
DNA profile obtained from testing could be run
through Arkansas and Federal DNA databanks for a
match. In at least 158 of 362 DNA exonerations, the
DNA results not only proved the defendant’s
innocence, but ultimately identified the actual
perpetrator.
Should Branson Ramsey’s DNA be found in any
of these scenarios, there would be few plausible, noncriminal explanations for its presence. Mr. Ramsey
had not been in Ms. Heath’s home or intimate with her
for months before her murder. Should his biology be
found at the scenes, such evidence could exonerate Mr.
Johnson.6

6

The trial court stated in its Opinion that Mr. Johnson’s “did
not consider any other evidence . . . that would help shed any
theory (sic) that [he] did not commit the offense.” (AD0342AD0346.) This holding fails. Unknown DNA on probative
evidence would corroborate Mr. Johnson’s innocence claim
considering the State’s theory that Mr. Johnson alone
murdered Ms. Heath.

175a
B.

The Proof of Mr. Johnson’s Guilt is Far
From “Overwhelming” and DNA Testing
Could Fundamentally Overpower It.
As this Court has previously noted:
When deciding whether evidence is
materially relevant, the trial court must
consider not only the exculpatory
potential of a favorable DNA test result,
but also the other evidence presented at
trial. Thus, if . . . a favorable DNA test
would discredit only an ancillary fact, the
testing should be refused.
At the
opposite end of the spectrum, where the
DNA test could exonerate the defendant,
it does not matter how strong the other
evidence might have been . . . .

Johnson III, 356 Ark. at 546, 157 S.W.3d at 161
(emphasis added) (footnote omitted) (citing Anderson
v. State, 831 A.2d 858, 867 (Del. 2003)). Here, DNA
testing can discredit not only evidence that is ancillary
to the State’s case, but that is critical, even central to
it, including evidence that the trial court cited in its
Order: (1) Ashley’s eyewitness testimony identifying
Mr. Johnson as the perpetrator, (2) scientific evidence
that “positively linked” Mr. Johnson to Ms. Heath’s
murder, and (3) Mr. Johnson’s “statements and
admissions to third parties, including police officers,
fellow inmates . . . and his stepmother.” (AD0342AD0346); Ark. Code Ann. § 16-112-202(8)(B).
1.

Ashley Heath’s Testimony is Not
Overwhelming Evidence of Mr.
Johnson’s Guilt.

176a
Ashley’s eyewitness identification is not
reliable and is certainly not so overwhelming as to
definitively implicate Mr. Johnson in Ms. Heath’s
murder. While this Court has held that “unequivocal
testimony identifying the appellant as the culprit is
sufficient to sustain a conviction,” Williams v. State,
2014 Ark. App. 561, at 5, 444 S.W.3d 877, 880 (2014)
(citation omitted), Ashley’s various accounts of her
mother’s murder did not unequivocally identify Mr.
Johnson.
In the chronological aggregate, her
statements are “inherently improbable, physically
impossible, or so clearly unbelievable that reasonable
minds could not differ thereon.” See, e.g., Davenport
v. State, 373 Ark. 71, 73, 281 S.W.3d 268, 270 (2008).
Regardless, even if the trial court found her testimony
sufficient to sustain a conviction, her testimony is not
so overwhelming as to bar testing.
Many of Ashley’s details that appear to have
been “consistent” with a description of Mr. Johnson
were known to officers long before they spoke to
Ashley, including Mr. Johnson’s name, hair, and
recent release from jail. Indeed, they already knew
Mr. Johnson knew Ms. Heath “in at least a social
manner” (AD0413) and they sought out Mr. Johnson
at his stepmother’s home before Ashley had even been
interviewed. Because there is no audio recording of
the alleged identification, it is impossible to know if
the “facts” Ashley provided (facts that would
dramatically change both before and after her
interview with Officer McWhirter) were fed or
suggested to the traumatized six-year-old. Further,
despite Officer McWhirter’s testimony that he did not
have to elicit Ashley’s statements, (R4. 1225-1226),
Officer McWhirter wrote in a sworn arrest warrant
that it was he who “asked Ashley if the man had said

177a
anything about ever being in jail,” not the child who
provided the fact. (AD0413.) This leading questioning
strongly suggests that Officer McWhirter was
confirming preconceived suspicions with the child, as
opposed to objectively eliciting facts.
2.

Prior DNA Results Do Not
Present Overwhelming Evidence
of Mr. Johnson’s Guilt.

The trial court erred in rejecting Mr. Johnson’s
request for testing due to prior DNA testing on three
hairs taken from Ms. Heath’s house and a cigarette
butt found at the second crime scene.
Mr. Johnson admits he was in Ms. Heath’s
home on the evening in question. (AD0285-AD0289.)
Three of the State’s own witnesses, including Ashley,
testified that Mr. Johnson was in Ms. Heath’s house
on at least one prior occasion, including the night of
the murder. (AD0413, R3. 1145-1146.) The hairs
could have been shed on any of these occasions. That
Mr. Johnson could not be excluded as the source of
these hairs hardly qualifies as overwhelming evidence
that he is guilty of murder, particularly when untested
Caucasian hairs not matching Ms. Heath were found
on tissue under her genitalia, the towel from the
second crime scene, and bags over her hands for
transport to the medical examiner.
As for the cigarette butt, such a transient item
is not overwhelming evidence of his guilt. (AD0326.)
In addition to only being tested months after it was
allegedly found in the clothing, the butt’s provenance
is questionable, as it appeared in pristine condition
despite having allegedly been found in waterlogged
clothing. (R2. 10.)

178a
3.

Statements Mr. Johnson Made to
Others Do Not Constitute
Overwhelming Evidence of Guilt.

Mr. Johnson’s alleged “statements” or
“admissions” of guilt to third parties, are not
“overwhelming” evidence of his guilt. Albuquerque
Police Officer Pacheco’s testimony, claiming Johnson
confessed to him, was uncorroborated and not
memorialized, a noteworthy omission for any
reasonably competent officer. (R3. 1234-1237.) His
testimony was contradicted by his own partner,
Officer Bylotas, who did not hear Mr. Johnson make a
confession. (R3. 1264-1265.)
The trial court also cited Johnson’s so-called
“admissions” to fellow inmates and to his stepmother
as overwhelming proof of guilt.7 But those individuals
testified only that Johnson had a sexual relationship
with Ms. Heath and intended to see her on the night
of the murder. Johnson readily admits those facts.
Further, one of those witnesses, Steve Hill, told Rule
37 counsel that he had been pressured to make a
signed a statement despite that he was illiterate. (R2.
248.)

7

Ms. Johnston’s testimony raises doubt that the clothing at
the second crime scene even belonged to him. She was unable
to positively identify either the “green” sweater or the white
t-shirt as Mr. Johnson’s.

179a
III.

THE LOWER COURT ABUSED ITS
DISCRETION BY REFUSING TO ADMIT
THE PROFFERED TESTIMONY OF AN
EYEWITNESS IDENTIFICATION EXPERT
WHO OPINED THAT SEVERAL FACTORS
LIKELY AFFECTED THE ACCURACY OF
ASHLEY HEATH’S IDENTIFICATION OF
MR. JOHNSON.

At the hearing, the State asked the trial court
to rule that Noel v. State “declares that eyewitness
identification expert testimony is inadmissible in
State courts.” (Ab. 5-6.) The Court did just that,
finding
that
“eyewitness-identification
expert
[testimony] is not admissible in Arkansas courts” and
excluding Dr. Kovera’s testimony as inadmissible on
the basis that it was “neither credible [n]or reliable.”
(AD0342-AD0346.) This decision reflects a clear
abuse of discretion. See Mosby v. State, 2018 Ark.
App. 139, at 14, 544 S.W.3d 78, 87 (2018) (“Abuse of
discretion is a high threshold that . . . requires that
the circuit court acted improvidently, thoughtlessly,
or without due consideration.” (citing Hajek– McClure
v. State, 2014 Ark. App. 690, 450 S.W.3d 259)). Dr.
Kovera’s proffered testimony is based on decades of
peer-reviewed scientific research.
(Ab. 18.) Her
conclusions are accepted within the field. (Ab 18-20.)
Dr. Kovera’s testimony was both credible and reliable,
and the court abused its discretion by holding that it
was not.8 The trial court’s exclusion should be
reversed.

8

Arkansas courts have routinely approved the use of experts—
with fewer credentials and based on much thinner scientific
frameworks—in cases where psychological processes like

180a
A.

The Court Should Clarify Its Approach to
Eyewitness
Identification
Expert
Testimony.

This case presents an opportunity for the Court
to clarify its jurisprudence concerning eyewitness
expert testimony. Appellant respectfully submits that
this Court revisit Utley and its progeny and join the
majority of jurisdictions around the country by
making plain that there is no presumption against,
much less a flat ban of, the admissibility of eyewitness
expert testimony.
B.

Eyewitness Identification Experts Are Not
Categorically Barred in Arkansas.

Contrary to the State’s claim, adopted by the
trial court, the longstanding rule in this state has been
that admitting eyewitness identification expert
testimony is within the trial court’s discretion. See
Utley v. State, 308 Ark. 622, 625, 826 S.W.2d 268, 270
(1992).
1.

Expert Eyewitness Identification
Testimony Satisfies the Daubert
Factors For Admissibility of
Expert Testimony.

This Court has not previously evaluated an
eyewitness identification expert using the necessary
Daubert framework, as adopted by Arkansas in Farm
Bureau Mutual Insurance Co. of Arkansas v. Foote,
341 Ark. 105, 14 S.W.3d 512 (2000). In Foote, this
those at issue here were pivotal. See, e.g., Davis v. State, 330
Ark. 501, 508-09, 956 S.W.2d 163, 166 (1997) (allowing expert
testimony of a family service worker for the Arkansas
Department of Human Services as it was not unusual for
child sexual abuse victims to recant allegations).

181a
Court concluded that a trial judge, when presented
with a proffer of expert scientific evidence, must,
based on Arkansas Rules of Evidence 401, 402 and
702, conduct a preliminary Daubert inquiry focusing
on the (1) reliability of the novel process used to
generate the evidence, (2) possibility that admitting
the evidence would overwhelm, confuse or mislead the
jury, and (3) connection between the evidence to be
offered and the disputed factual issues in the
particular case; reliability is the critical element.
Foote, 341 Ark. at 116–17, 14 S.W.3d at 519–20.
The question of memory formation by child
eyewitnesses has become a rigorous scientific
discipline. In light of the particular circumstances in
this case—namely that Mr. Johnson’s conviction rests
almost entirely on the uncorroborated identification of
a traumatized six-year old child—understanding
memory
contamination,
best
practices
for
interviewing child witnesses, and the factors
contributing to the frailties of Ashley’s identification
are necessary to evaluate the weaknesses in her
testimony and thus the materiality of any exculpatory
DNA results that could be obtained through testing.
Accordingly, this Court should treat eyewitness
identification expert testimony as it would any “novel
scientific evidence” and conduct the requisite analysis
for admissibility, which Dr. Kovera easily satisfies.
Moore v. State, 323 Ark. 529, 546, 915 S.W.2d 284, 294
(1996).
The general test used to determine the
admissibility of expert testimony is whether the
testimony will aid the trier of fact in understanding
the evidence or in determining a fact in issue. Ark. R.
Evid. 702; Russell v. State, 289 Ark. 533, 534, 712

182a
S.W.2d 916, 917 (1986). A fundamental question in
determining whether the testimony will aid the trier
of fact is whether the situation is beyond the ability of
the trier to understand and draw their own
conclusions. Utley, 308 Ark. at 625, 826 S.W.2d at
270. “[I]f some reasonable basis exists demonstrating
that a witness has knowledge of the subject beyond
that of ordinary knowledge,” that knowledge may be
admissible as expert testimony under Rule 702.
Flowers v. State, 373 Ark. 127, 133, 282 S.W.3d 767,
772 (2008) (quoting Flowers v. State, 362 Ark. 193,
210, 208 S.W.3d 113, 127 (2005)). Such determination
requires an assessment of whether the reasoning or
methodology the testimony is based on is scientifically
valid and whether it is applicable to the facts at issue.
Flowers, 373 Ark. at 132– 33, 282 S.W.3d at 772. The
factors bearing on reliability include “the novelty of
the new technique, its relationship to more
established modes of scientific analysis, the existence
of specialized literature dealing with the technique,
the qualifications and professional stature of expert
witnesses, and the non-judicial uses to which the
scientific techniques are put.” Prater v. State, 307
Ark. 180, 186, 820 S.W.2d 429, 431 (1991). Dr.
Kovera’s testimony satisfies all the factors of the test,
and, therefore, should be admissible and considered
here.
(a) The Reliability of Eyewitness
Testimony Has Been the Subject of Well-Developed
Scientific Scrutiny.
Scientific research establishes that there are
serious questions about the reliability of the memory,
perception and identification made by eyewitnesses,
particularly under certain circumstances. The broad

183a
and nearly unanimous scientific research on
eyewitness identification that has emerged in the past
four decades “represents the ‘gold standard in terms
of the applicability of social science research to the
law.’ Experimental methods and findings have been
tested and retested, subjected to scientific scrutiny
through peer-reviewed journals, evaluated through
the lens of meta-analyses, and replicated in real-world
settings.” State v. Henderson, 27 A.3d 872, 916 (N.J.
2011) (citation omitted). The Connecticut Supreme
Court has called the scientific consensus on
eyewitness identification “near perfect.” State v.
Guilbert, 49 A.3d 705, 720-21 (Conn. 2012).
(b) A Vast Body of Scientific
Research, Embraced by the Majority of State and
Federal Courts, Establishes the Field of Eyewitness
Identification as Legitimate.
Courts, recognizing the vast body of scientific
research now available, are trending toward greater
acceptance of expert testimony on eyewitness
identifications. Commonwealth v. Walker, 92 A.3d
766, 782–83 (Pa. 2014) (noting that there is a “a clear
trend among state and federal courts permitting the
admission of eyewitness expert testimony, at the
discretion of the trial court, for the purpose of aiding
the trier of fact in understanding the characteristics
of
eyewitness
identification”
and
collecting
demonstrative cases from 44 states, the District of
Columbia, and 10 federal circuit courts). First, courts
have recognized that the robust body of peer reviewed
and
uncontroverted
scientific
eyewitness
identification research is generally accepted and
probative in many cases.
Second, courts have
recognized the significant risk of wrongful conviction

184a
based on mistaken eyewitness identification, as
evidenced by the number of DNA exonerations
involving eyewitness misidentification.
See
Henderson, 27 A.3d at 877-78 (noting that scientific
research and studies demonstrate “that the possibility
of mistaken identification is real,” that many studies
reveal “a troubling lack of reliability in eyewitness
identifications,” and that “[t]hat evidence offers
convincing proof that the current test for evaluating
the trustworthiness of eyewitness identifications
should be revised”). Third, courts have recognized
that jurors are often unfamiliar with, or hold views
counter to, the research findings addressing the
factors that can negatively affect the reliability of
eyewitness identifications.9
Finally, courts have
recognized that expert testimony on eyewitness
identification can be an important safeguard against
wrongful convictions.10

9

See Perry v. New Hampshire, 565 U.S. 228, 264 (2012)
(Sotomayor, J., dissenting) (“[J]urors routinely overestimate
the accuracy of eyewitness identifications . . . .” (citing
research)); United States v. Brownlee, 454 F.131, 142 (3d Cir.
2006) (“Thus, while science has firmly established the
‘inherent unreliability of human perception and memory,’
this reality is outside the ‘jury’s common knowledge,’ and
often contradicts jurors’ ‘commonsense’ understandings.”
(citations omitted)); State v. Carr, 331 P.3d 544, 690 (Kan.
2014), rev’d on other grounds sub nom. Kansas v. Carr, 136
S. Ct. 633 (2016); People v. Santiago, 958 N.E.2d 874, 883
(N.Y. 2011).

10

State v. Lawson, 352 Or. 724, 759, 291 P.3d 673, 695 (2012)
(“[C]ourts around the country have recognized that
traditional methods of informing factfinders of the pitfalls of
eyewitness
identification—cross-examination,
closing
argument, and generalized jury instructions—frequently are

185a
States that categorically prohibited expert
eyewitness testimony in the past have reversed course
and now permit – and even encourage – such
testimony. See Guilbert, 49 A.3d at 705 (reversing
prior ban on eyewitness identification experts);
Walker, 92 A.3d at 766 (same); Carr, 331 P.3d 544
(same). Other states that simply disfavored or
otherwise limited expert testimony on eyewitness
identification have likewise since endorsed greater
reliance on expert testimony: “[I]n the 25 years since
Enis, we not only have seen that eyewitness
identifications are not always as reliable as they
appear, but we also have learned, from a scientific
standpoint, why this is often the case . . . today we are
able to recognize that such research is well settled,
well supported, and in appropriate cases a perfectly
proper subject for expert testimony. People v. Lerma,
47 N.E.3d 985, 993 (Ill. 2016).
Federal courts of appeal similarly recognize the
importance of eyewitness experts. The Seventh
Circuit, disagreeing with a trial court ruling that
eyewitness identification experts were unnecessary
because jurors could evaluate the eyewitness’s
reliability on their own, reasoned:
[T]he
problem
with
eyewitness
testimony is that witnesses who think
they are identifying the wrongdoer—who
are credible because they believe every
word they utter on the stand—may be
mistaken . . . . It will not do to reply that
jurors know from their daily lives that
not adequate to inform factfinders of the factors affecting the
reliability of such identifications.”).

186a
memory is fallible. The question that
social science can address is how fallible,
and thus how deeply any given
identification should be discounted.
United States v. Bartlett, 567 F.3d 901, 906 (7th Cir.
2009) (second emphasis added); see also, e.g., United
States v. Smithers, 212 F.3d 306, 314–18 (6th Cir.
2000) (eyewitness experts are admissible).
Put
simply, the reliability of the process used to generate
the evidence relied upon by eyewitness identification
expert witnesses is demonstrable and is rooted in
clearly established scientific methods that are
accepted by the majority of courts.
(c) A Strong Consensus Has
Emerged That Certain Factors Negatively Affect the
Reliability of Eyewitness Testimony.
Eyewitness misidentification is one of the most
“pervasive factor[s] in the conviction of the innocent.”
Daniel S. Medwed, Anatomy of a Wrongful Conviction:
Theoretical Implications and Practical Solutions, 51
Vill. L. Rev. 337, 358 (2006).
It is now no longer seriously disputed that
various variables significantly decrease the accuracy
and reliability of eyewitness identifications. Dr.
Kovera’s testimony provided necessary context to the
question of Ashley’s memory formation and the
inaccuracies presented in her testimony. (Ab. 20-36.)
The accuracy of Ashley’s identification and the
memories that spawned it bear directly on Mr.
Johnson’s innocence claim and on the ability of DNA
testing to raise a reasonable probability that he did
not murder Ms. Heath. See Ark. Code Ann. § 16-112-

187a
202(8)(B). This is particularly relevant here where
Ashley’s story changed profoundly at each telling.
C.

Dr. Kovera’s Testimony Is Directly
Relevant to the Weaknesses in Ashley
Heath’s
Memory
Formation
and
Identification of Mr. Johnson as the Prime
Suspect.

Concerns about the reliability of Ashley’s
testimony have been repeatedly expressed at several
points throughout this litigation; however, the risk of
misidentification can only sufficiently be addressed by
an expert.
Dr. Kovera’s testimony explored variables that
may have impacted Ashley’s ability to make an
accurate identification.
These variables include
estimator variables (factors that affect the witness’s
ability to correctly make and store a memory of the
event, including cross-racial identification, witness
age, stress), as well as system variables (factors that
affect how memory is retrieved, including police
identification procedures and post-identification
information).
Ashley may have witnessed the murder of her
mother, in the dark, at the hands of a man who may
have been of a different race and who brandished a
weapon. Ashley’s memory was likely contaminated by
many conversations with individuals ranging from
DPD officers to family members. These individuals
targeted Mr. Johnson as a suspect before speaking to
Ashley and in their questioning provided her with at
least one piece of information that seriously risked
contaminating her memory. As an essential part in
presenting the frailty of the claims of guilt against Mr.

188a
Johnson, the fundamental issues affecting Ashley’s
memory must be addressed by scientific opinion and
expertise.
VIII.
CONCLUSION
WHEREFORE, this Court should reverse the
Order of the Circuit Court, grant Mr. Johnson’s
Petition for Post-Conviction DNA testing, and hold
that expert eyewitness testimony is on par with all
expert testimony admitted in Arkansas, thus making
Dr. Kovera’s testimony admissible as evidence here.
Respectfully
November, 2018.

submitted

this

8th

day

of

Erin Cassinelli, Esq., Bar No.
2005118
813 West 3rd Street
Little Rock, AR 72201
Telephone: (501) 370-9300 Email:
erin@lcarklaw.com
Karen Thompson, Esq. (pro hac
vice)
The Innocence Project
40 Worth Street, Suite 701
New York, NY 10013
Telephone: (212) 364-5347
Email:
kthompson@innocenceproject.org
Counsel for Appellant
Stacey Eugene Johnson

189a
IX.
CERTIFICATE OF SERVICE
I, Erin Cassinelli, certify that I have served the
foregoing document to the Sevier County Prosecuting
Attorney’s Office, Bryan Chesshir, via electronic mail
and facsimile, and David Robert Raupp, Arkansas
Attorney General’s Office, 323 Center Street, Suite
200, Little Rock, AR 72201, via first class mail, and
the Honorable Charles A. Yeargan, Circuit Judge, via
electronic mail and facsimile, this 8th day of
November, 2018.
Erin Cassinelli

190a
X.
CERTIFICATE OF COMPLIANCE
Case Name:
STACEY EUGENE JOHNSON V.
STATE OF ARKANSAS
Docket Number: CV-18-700
Title of Brief:

Appellant’s brief

I hereby certify that:
I have submitted and served on opposing
counsel an unredacted, and, if
required, a redacted PDF document(s) that
comply with the Rules of The Supreme Court and
Court of Appeals. The PDF document is identical to
the corresponding parts of the paper document from
which it was created as tiled with the court. To the
best of my knowledge, information, and belief formed
after scanning the PDF documents for viruses. A copy
of this certificate has been submitted with the paper
copies filed with the court and has been served on all
opposing parties.
Identification of paper documents not in PDF
format:
The following original paper documents are not
in PDF format and are not included in the PDF
documents(s): None

191a

(Signature of filing party)

/s/ERIN CASSINELLI

Lassiter & Cassinelli

November 8, 2018

